<html>
<title> - THE OVERSIGHT, ACQUISITION, TESTING, AND EMPLOYMENT OF THE LITTORAL COMBAT SHIP (LCS) AND LCS MISSION MODULE PROGRAMS</title>
<body><pre>[Senate Hearing 114-736]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-736

  THE OVERSIGHT, ACQUISITION, TESTING, AND EMPLOYMENT OF THE LITTORAL 
           COMBAT SHIP (LCS) AND LCS MISSION MODULE PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       THURSDAY, DECEMBER 1, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/
        
           
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-323 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5136213e113224222539343d217f323e3c7f">[email&#160;protected]</a>       
        


                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman		JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma		BILL NELSON, Florida
JEFF SESSIONS, Alabama			CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi		JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire		JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska			KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas			RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota		JOE DONNELLY, Indiana
JONI ERNST, Iowa			MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina		TIM KAINE, Virginia
DAN SULLIVAN, Alaska			ANGUS S. KING, JR., Maine
MIKE LEE, Utah				MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                    
		Christian D. Brose, Staff Director
		Elizabeth L. King, Minority Staff Director

                                  (ii)

  
                             
                              C O N T E N T S

     _________________________________________________________________

                       Thursday, December 1, 2016

                                                                   Page

The Oversight, Acquisition, Testing, and Employment of the            1
  Littoral Combat Ship (LCS) and LCS Mission Module Programs.

Gilmore, Honorable J. Michael, Ph.D., Director, Operational Test      9
  and Evaluation, United States Department of Defense, 
  Washington, DC.
Stackley, Honorable Sean J., Assistant Secretary for Research,       26
  Development, and Acquisition, United States Department of Navy, 
  Washington, DC.
Rowden, Vice Admiral Thomas S., Commander, Naval Surface Forces,     39
  and Commander, Naval Surface Force, U.S. Pacific Fleet, United 
  States Navy, Washington, DC.
Francis, Paul L., Managing Director, Acquisition and Sourcing        40
  Management, Government Accountability Office, Washington, DC.

Questions for the Record.........................................    93

                                 
                                 (iii)

 
  THE OVERSIGHT, ACQUISITION, TESTING, AND EMPLOYMENT OF THE LITTORAL 
           COMBAT SHIP (LCS) AND LCS MISSION MODULE PROGRAMS

                              ----------                              


                       THURSDAY, DECEMBER 1, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice at 9:35 a.m., in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, 
Graham, Cruz, Reed, Nelson, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Since a quorum is now present, I ask the 
committee to consider a list of 2,385 pending military 
nominations. Of these nominations, five nominations are six 
days short of the committee's requirement that nominations be 
in committee for seven days before we report them out.
    No objection has been raised to these nominations. I 
recommend the committee waive the seven-day rule in order to 
permit the confirmation of the nomination of these officers 
before the Senate adjourns the 114th Congress, thank God.
    Is there a motion to favorably report these 2,385 military 
nominations?
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Inhofe. Second.
    Chairman McCain. All in favor, say aye.
    [A chorus of ayes.]
    [The information referred to follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
  Which are Proposed for the Committee's Consideration on December 1, 
                                 2016.
     1.  BG Robert N. Polumbo, USAFR to be major general (Reference No. 
1206)

     2.  In the Air Force there are 15 appointments to the grade of 
colonel (list begins with Daniel J. Bessmer) (Reference No. 1553)

     3.  In the Army there is 1 appointment to the grade of major 
(Brian C. Garver) (Reference No. 1557)

     4.  MG Jerry D. Harris, Jr., USAF to be lieutenant general and 
Deputy Chief of Staff, Strategic Plans and Requirements, Headquarters 
US Air Force (Reference No. 1617)

     5.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Suzanne L. Hopkins) (Reference No. 1633)

     6.  LTG James M. Holmes, USAF to be general and Commander, Air 
Combat Command (Reference No. 1664)

     7.  RADM William K. Lescher, USN to be vice admiral and Deputy 
Chief of Naval Operations for Integration of Capabilities and 
Resources, N8, Office of the Chief of Naval Operations (Reference No. 
1671)

     8.  In the Army there is 1 appointment to the grade of major 
(Clifford D. Johnston) (Reference No. 1689)

     9.  In the Army there is 1 appointment to the grade of major 
(Reinaldo Gonzalez II) (Reference No. 1692)

    10.  In the Army there is 1 appointment to the grade of major 
(Graham F. Inman) (Reference No. 1712)

    11.  Capt. Kelly A. Aeschbach, USN to be rear admiral (lower half) 
(Reference No. 1767)

    12.  VADM Dixon R. Smith, USN to be vice admiral and Deputy Chief 
of Naval Operations for Fleet Readiness and Logistics, N4, Office of 
the Chief of Naval Operations (Reference No. 1804)

    13.  In the Air Force Reserve there are 6 appointments to the grade 
of brigadier general (list begins with Joel E. DeGroot) (Reference No. 
1811)

    14.  In the Air Force Reserve there are 13 appointments to the 
grade of major general (list begins with David P. Baczewski) (Reference 
No. 1812)

    15.  BG Jesse T. Simmons, Jr., ANG to be major general (Reference 
No. 1813)

    16.  In the Air Force Reserve there are 2 appointments to the grade 
of major general (list begins with David M. McMinn) (Reference No. 
1814)

    17.  Col. William E. Dickens, Jr., USAFR to be brigadier general 
(Reference No. 1815)

    18.  In the Air Force Reserve there are 12 appointments to the 
grade of brigadier general (list begins with Brian K. Borgen) 
(Reference No. 1817)

    19.  BG Randolph J. Staudenraus, ANG to be major general (Reference 
No. 1818)

    20.  In the Air Force Reserve there are 6 appointments to the grade 
of major general (list begins with Craig L. LaFave) (Reference No. 
1819)

    21.  Col. Stephen C. Melton, ANG to be brigadier general (Reference 
No. 1820)

    22.  MG Paul E. Funk II, USA to be lieutenant general and 
Commanding General, III Corps and Fort Hood (Reference No. 1821)

    23.  MG Gary J. Volesky, USA to be lieutenant general and 
Commanding General, I Corps and Joint Base Lewis-McChord (Reference No. 
1822)

    24.  MG James H. Dickinson, USA to be lieutenant general and 
Commanding General, US Army Space and Missile Defense Command/US Army 
Forces Strategic Command (Reference No. 1823)

    25.  BG Patrick M. Hamilton, ARNG to be major general (Reference 
No. 1824)

    26.  In the Army Reserve there are 18 appointments to the grade of 
major general (list begins with Benjamin F. Adams III) (Reference No. 
1826)

    27.  Col. Mark A. Piterski, ARNG to be brigadier general (Reference 
No. 1827)

    28.  Col. Ellis F. Hopkins, ARNG to be brigadier general (Reference 
No. 1828)

    29.  In the Army Reserve there are 70 appointments to the grade of 
brigadier general (list begins with Michael A. Abell) (Reference No. 
1829)

    30.  RADM(lh) Mary M. Jackson, USN to be vice admiral and 
Commander, Navy Installations Command (Reference No. 1830)

    31.  In the Air Force there are 28 appointments to the grade of 
major (list begins with Kip T. Averett) (Reference No. 1832)

    32.  In the Air Force there are 2 appointments to the grade of 
major (list begins with Shawn M. Garcia) (Reference No. 1833)

    33.  In the Air Force there are 1,903 appointments to the grade of 
major (list begins with Daniel C. Abell) (Reference No. 1834)

    34.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Gary A. Fairchild) (Reference No. 1835)

    35.  In the Air Force there is 1 appointment to the grade of major 
(Megan M. Luka) (Reference No. 1836)

    36.  In the Air Force Reserve there are 2 appointments to the grade 
of colonel (list begins with Brandon D. Clint) (Reference No. 1837)

    37.  In the Air Force Reserve there are 90 appointments to the 
grade of colonel (list begins with Isamettin A. Aral) (Reference No. 
1838)

    38.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Eileen K. Jenkins) (Reference No. 1839)

    39.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Jeffrey M. Farris) (Reference No. 1840)

    40.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Matthew T. Bell) (Reference No. 1841)

    41.  In the Army there is 1 appointment to the grade of major 
(Melissa B. Reister) (Reference No. 1842)

    42.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Charles M. Causey) (Reference No. 1843)

    43.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with Stephen A. LaBate) (Reference No. 1844)

    44.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Roxanne E. Wallace) (Reference No. 1845)

    45.  In the Army there is 1 appointment to the grade of major (Eric 
A. Mitchell) (Reference No. 1846)

    46.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Jonathan J. Vannatta) (Reference No. 1847)

    47.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Dennis D. Calloway) (Reference No. 1848)

    48.  In the Army Reserve there are 3 appointments to the grade of 
colonel (list begins with Kenneth L. Alford) (Reference No. 1849)

    49.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Henry Spring, Jr.) (Reference No. 1850)

    50.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Craig A. Yunker) (Reference No. 1851)

    51.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Cornelius J. Pope) (Reference No. 1852)

    52.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Anthony K. McConnell) (Reference No. 1853)

    53.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Jennifer L. Cummings) (Reference No. 1854)

    54.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with Donald J. Erpenbach) (Reference No. 1855)

    55.  In the Army there is 1 appointment to the grade of colonel 
(Carl I. Shaia) (Reference No. 1857)

    56.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Lisa M. Barden) (Reference No. 1858)

    57.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Roger D. Lyles) (Reference No. 1859)

    58.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Clara A. Bieganek) (Reference No. 1860)

    59.  In the Army there is 1 appointment to the grade of major 
(Isaiah M. Garfias) (Reference No. 1861)

    60.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Louis E. Herrera) (Reference No. 1862)

    61.  In the Army there is 1 appointment to the grade of major 
(Schnicka L. Singleton) (Reference No. 1863)

    62.  In the Army there is 1 appointment to the grade of colonel 
(John R. Burchfield) (Reference No. 1864)

    63.  In the Army there is 1 appointment to the grade of major 
(Elizabeth S. Eatonferenzi) (Reference No. 1865)

    64.  In the Army there is 1 appointment to the grade of major 
(Richard D. Mina) (Reference No. 1866)

    65.  In the Army there is 44 appointments to the grade of 
lieutenant colonel (list begins with Temidayo L. Anderson) (Reference 
No. 1867)

    66.  In the Army there is 1 appointment to the grade of major 
(Richard A. Gautier, Jr.) (Reference No. 1869)

    67.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Joseph A. Papenfus) (Reference No. 1870)

    68.  In the Army Reserve there are 9 appointments to the grade of 
colonel (list begins with Stuart G. Baker) (Reference No. 1871)

    69.  In the Army Reserve there is 1 appointment to the grade of 
colonel (David S. Yuen) (Reference No. 1872)

    70.  In the Army there is 1 appointment to the grade of major 
(Donta A. White) (Reference No. 1873)

    71.  In the Army there is 1 appointment to the grade of major (Tony 
A. Hampton) (Reference No. 1874)

    72.  In the Army Reserve there are 18 appointments to the grade of 
colonel (list begins with Charles C. Anderson) (Reference No. 1875)

    73.  In the Army Reserve there is 1 appointment to the grade of 
colonel (David A. Yasenchock) (Reference No. 1876)

    74.  In the Army there is 1 appointment to the grade of major 
(Aaron C. Ramiro) (Reference No. 1877)

    75.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Richard M. Strong) (Reference No. 1878)

    76.  In the Army there is 1 appointment to the grade of major 
(Brendon S. Baker) (Reference No. 1879)

    77.  In the Army there are 19 appointments to the grade of colonel 
(list begins with Lanny J. Acosta, Jr.) (Reference No. 1880)

    78.  In the Navy there are 46 appointments to the grade of 
lieutenant commander (list begins with Jafar A. Ali) (Reference No. 
1881)

    79.  In the Navy Reserve there is 1 appointment to the grade of 
captain (Meryl A. Severson III) (Reference No. 1882)

    80.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Ashley R. Bjorklund) (Reference No. 1883)

    81.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Adeleke O. Mowobi) (Reference No. 1884)

    82.  In the Navy there are 2 appointments to the grade of 
lieutenant commander (list begins with Mary K. Arbuthnot) (Reference 
No. 1885)

    83.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Stephen W. Hedrick) (Reference No. 1886)

    84.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Vincent M.J. Ambrosino) (Reference No. 1887)

    85.  In the Navy Reserve there is 1 appointment to the grade of 
captain (Neal P. Ridge) (Reference No. 1888)

    86.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Abdeslam Bousalham) (Reference No. 1891)

    87.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Scott M. Morey) (Reference No. 1892)

    88.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Christian R. Foschi) (Reference No. 1893)

    89.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Andrew J. Wade) (Reference No. 1900)

    90.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Christopher S. Besser) (Reference No. 1902)

    91.  In the Army there is 1 appointment to the grade of major (Chad 
C. Black) (Reference No. 1903)

    92.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Thomas D. Starkey) (Reference No. 1904)

    93.  In the Marine Corps there is 1 appointment to the grade of 
major (Joshua D. Fitzgarrald) (Reference No. 1905)

    94.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Anthony C. Lyons) (Reference No. 1906)
_______________________________________________________________________
                                                                  
TOTAL: 2,385

    Chairman McCain. The committee meets this morning to 
receive testimony on the oversight, acquisitions, testing, and 
employment of the Littoral Combat Ship [LCS] and LCS mission 
module programs. We welcome our witnesses, who are key 
officials responsible for acquiring, testing, employing, and 
overseeing these programs.
    The Honorable Sean Stackley, Assistant Secretary of the 
Navy for Research, Development, and Acquisition, has been the 
Navy's acquisition executive since 2008. Vice Admiral Thomas 
Rowden, Commander of Naval Surface Forces, is responsible for 
manning, training, and equipping the Navy's in-service surface 
ships. The Honorable J. Michael Gilmore, Director of 
Operational Testing and Evaluation [DOT&E], has been the senior 
adviser to the Secretary of Defense for operational live fire 
test and evaluation of weapons systems since 2009. Mr. Paul 
Francis, Managing Director of Acquisition and Sourcing 
Management, at the Government Accountability Office [GAO], 
whose 40-year career with GAO has focused mostly on major 
weapons acquisitions, especially shipbuilding.
    The Littoral Combat Ship, or LCS, is an unfortunate, yet 
all too common, example of defense acquisition gone awry. Since 
the early stages of this program, I have been critical of 
fundamental LCS shortcomings. Here we are 15 years later with 
an alleged warship that, according to Dr. Gilmore's assessment, 
cannot survive a hostile combat environment, and has yet to 
demonstrate its most important warfighting functions, and a 
program chosen for affordability that, as the GAO has reported, 
has doubled in cost with the potential for future overruns.
    Like so many major programs that preceded it, LCS' failure 
followed predictably from an inability to define and stabilize 
requirements, unrealistic initial cost estimates, and 
unreliable assessments of technical and integration risk, made 
worse by repeatedly buying ships and mission packages before 
proving they are effective and can be operated together.
    What is so disturbing is that these problems were not 
unforeseen. In 2002, the Navy first requested Congress to 
authorize funding for the LCS program. After reviewing the 
Navy's plan, the consensus of the members of the two Armed 
Services Committees was ``LCS has not been vetted through the 
Pentagon's top requirements setting body called the Joint 
Requirements Oversight Council.'' The Navy's strategy for the 
LCS does not clearly identify the plan and funding for 
development and evaluation of the mission packages upon which 
the operational capabilities of LCS will depend.
    Despite such serious concerns, it will not come as a 
surprise to many members of this--of this committee, to you, 
that Congress then approved funding for LCS. When the Navy 
awarded the first LCS construction contract in 2004, it did so 
without well-defined requirements, a stable design, realistic 
cost estimates, or a clear understanding of the capability gaps 
the ship was needed to fill.
    Taxpayers have paid a heavy price for these mistakes. The 
LCS was initially expected to cost $220 million per ship, but 
the cost of each ship has more than doubled to $478 million, 
and we are not through yet.
    The LCS' first urgently needed combat capability and mine 
countermeasures was supposed to be delivered in 2008. That 
capability is still not operational, nor is it expected to be 
until 2020, 12 years late. Twelve years late. Today, 26 ships 
of the planned 40-ship LCS fleet have either been delivered, 
are under construction, or are on contract. In other words, 
taxpayers have already paid for 65 percent of the planned LCS 
inventory.
    LCS' combat capability is supposed to come from three 
mission packages: mine countermeasures, surface warfare, and 
anti-submarine warfare. Taxpayers have invested more than $12 
billion to procure LCS seaframes and another $2 billion in 
these three mission packages. Yet for all this investment, all 
three of these mission packages are years delayed with 
practically none of the systems having reached the initial 
operational capability.
    So far, the LCS has fielded only the most basic 
capabilities: a 30-millimeter gun with a range of two miles and 
the ability to launch and recover helicopters and small boats. 
The surface package was five years late. The mine package is 12 
years late. The anti-submarine package is nine years late.
    The Navy failed to meet its own commitment to deploy LCS 
seaframes with these mission packages in part because for some 
reason, Navy leaders prioritized deploying a ship with no 
capability over completing necessary mission package testing. 
In other words, the taxpayers have paid for, and are still 
paying for, 26 ships that have demonstrated next to no combat 
capability. This is unacceptable, and this committee wants to 
know, Secretary Stackley, who is responsible and who has been 
held accountable.
    Let me be the first to say that Congress belongs on the 
list of those responsible. We could have intervened more 
forcefully and demanded more from the Department of Defense and 
the Navy. We did not. But as long as I'm chairman, this 
committee will.
    Mission packages are not the only problem. Keeping the LCS 
seaframe underway at sea has also been challenging. Despite 
commissioning the first ship eight years ago in 2008, the Navy 
continues to discover ``first of class problems.'' This year is 
2016. Since 2008 when it was commissioned first, we continue to 
discover ``first of class problems.''
    Since 2013, five of the eight LCSs delivered have 
experienced significant engineering casualties resulting in 
lengthy import repair periods. Amazingly, despite nearly no 
proven LCS combat capability and persistent debilitating 
engineering issues in both design and operation, the Navy is 
charging ahead with an ambitious plan that keeps most ships 
deployed more than half the time, stationed around the world 
far from supports of facilities in the United States. In 
contrast, most Navy destroyers are planned to be deployment--
deployed from the United States far less than 25 percent of 
their service lives. The rush to put four ships forward in 
Singapore by 2018 without proven combat capability, and to 
maintain a deployment tempo more than twice that of destroyers, 
is a recipe for more wasted taxpayers' dollars.
    Although the LCS may yet deliver some capability, the 
Nation still needs a capable small surface combatant that 
addresses the LCS' critical shortfalls, including the ability 
to attack enemy surface ships at over-the-horizon ranges with 
multiple missile salvos, defend nearly non-combatant ships from 
air--nearby non-combatant ships from air and missile threats, 
as an escort conduct long-duration missions, including hunting 
enemy submarines, without frequent refueling, and exhibit 
robust survivability characteristics.
    The recent--the recently concluded LCS review was long 
overdue, and it yielded some promising initiatives. But I am 
concerned that several critical fundamental assumptions of the 
program were not challenged, including excessive operational 
availability goals, insufficient in-house technical support for 
LCS, unexamined manpower requirements, and no urgency in 
transitioning to a new small surface combatant.
    Fortunately, the Department of Defense is curtailing the 
LCS program at 40 ships and downselecting to a single ship 
design. Given the cost overruns, mission package testing lows, 
and the rate of engineering failures, reducing the size of this 
program is a necessary first step. I am prepared to go even 
further by taking a hard look at any further procurement of 
ships until all of the mission packages reach IOC [initial 
operational capability].
    It is up to the Navy to explain to this committee and to 
the American taxpayers why it makes sense to continue pouring 
money into a ship program that has repeatedly failed to live up 
to its promises. The LCS continues to experience new problems, 
but it is not a new program. That is why the Department's 
leaders must not delay in reconciling their aspirations for the 
LCS with the problems--troubled reality by demanding 
accountability and reducing the size of this program.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman. I want to join the 
chairman in welcoming Director Gilmore, Secretary Stackley, 
Admiral Rowden, and Mr. Francis to the committee this morning 
to testify on various aspects of the Navy's Littoral Combat 
Ship, LCS program, and we are grateful to each of you for your 
service.
    The Navy's fundamental architecture of the LCS program 
separate changes in the mission package from changes that would 
disrupt the ship design and ship construction. In the past, 
when there were problems with developing the right combat 
capability on a ship, that would almost inevitably cause 
problems in the construction program. What the LCS architecture 
means is that changes inside the mission packages should not 
translate into changes in the ship construction schedule.
    However, since the mission packages and the vessels are 
divorced from each other, we are now experiencing a new set of 
difficulties, many of them indicated by Senator McCain. While 
the shipbuilders had problems with costs and schedule early in 
the program, that has not been the big issue since the Navy 
conducted the competition for fixed price contracts in 2010. 
The shipbuilders and shipyard workers have been performing well 
under those contracts since then, so well, in fact, that we now 
have built are in the process of building 26 of the LCS 
vessels, when not a one of the single--of the three types of 
mission modules has passed full operational testing. Since LCS 
combat capability largely resides in the mission packages, the 
Navy will have to operate LCS vessels for several more years in 
relatively benign circumstances, waiting on combat capability 
to complete testing.
    Chairman McCain and I wrote to Admiral Richardson, the 
chief of naval operations, and Secretary Stackley about the LCS 
program in September, which raised a number of concerns. We 
asked that the Navy consider reducing the planned operational 
availability of the LCS to a sustainable level, or see if the 
Navy can support normal deployment availability before 
expanding availability to 50 percent under a blue/gold crewing 
concept.
    The CNO [Chief of Naval Operations] respond that the Navy 
is going to continue to plan for 50 percent availability with 
the blue/gold crew concept because that is what the Navy needs 
to support the Optimized Fleet Response Plan. I believe that 
some of the problems we are experiencing now with LCS vessels 
is because we got too far in front of ourselves by trying to 
deploy ships before they were ready to deploy, which in turn 
reduced testing resources and focus.
    Saying that we will attain the 50 percent deployment 
availability goal for LCS because that is what we need to make 
the Optimized Fleet Response Plan achievable rings a little 
hollow with me. It sounds a lot like previous assurances that 
there would be no problem in shifting from the original LCS 
blue/gold crewing concept to a three crews for every two ship 
concept, which has now been found wanting, and now we are back 
trying to make the blue/gold concept work.
    In our letter, the chairman and I also asked the Navy to 
establish the land-based LCS propulsion and machinery control 
test site because the Navy is not providing sufficient in-house 
LCS engineering technical support for the LCS program. The CNO 
responded that the Navy will consider a land-based propulsion 
machinery control test site at some later date, but not now. I 
am willing for the moment to let the Navy play out this string 
of trying--to try to enhance support for the deployed LCS 
without such a facility, but I am concerned that LCS fleet 
material support will suffer without such a facility when such 
support is available for all other Navy combatants.
    The chairman I also asked that the Navy conduct a bottom-up 
review of the manpower requirements for each LCS to validate or 
re-validate the quantity and quality of manpower requirements 
to determine if sufficient personnel are assigned to perform 
all watch standing, warfighting, damage control force, 
protection, maintenance, and other duties. The CNO responded 
that the Navy's LCS Review Team have already assessed manpower 
requirements. I would just say that I am skeptical that the LCS 
Review Team would have had sufficient time to do much more than 
decide how to allocate the 70 sailors which building space 
would be available. Such an allocation process would not 
constitute the manpower requirements review that I had in mind 
at least.
    Finally, the chairman and I suggested that the Navy should 
start planning new--now rather--to procure and begin deliveries 
of a new small surface combatant as soon as possible in 2020. 
The CNO responded that the Navy will address the future small 
surface combatant at some later date after the Navy has 
completed an analysis of future fleet requirements.
    I understand that CNO Richardson needs time to review 
overall future fleet requirements. However, I believe that when 
the Navy begins a program for a follow-on small surface 
combatant, it should avoid repeating what we did with the LCS 
program, where we were in such a hurry to field the ship we did 
not take the time to go through important parts of the 
acquisition process, such as deciding what our requirements 
are, deciding how much we are willing to pay to achieve those 
requirements, and programming ahead of time for the manpower 
and logistics programs that we needed to support the program. 
If the Navy waits too long, we may face similar urgency in the 
schedule.
    Again, thank you Mr. Chairman. I look forward to the 
hearing.
    Chairman McCain. Thank you. We will begin with you, 
Director Gilmore. Welcome, Dr. Gilmore.

  STATEMENT OF HONORABLE J. MICHAEL GILMORE, Ph.D., DIRECTOR, 
 OPERATIONAL TEST AND EVALUATION, UNITED STATES DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Dr. Gilmore. I apologize. Thank you, Mr. Chairman, Senator 
Reed, members of the committee.
    As you pointed out, Mr. Chairman, although the first LCS 
was commissioned in 2008, the LCS program has not yet 
demonstrated effective warfighting capability in any of its 
originally envisioned missions by the Navy's--according to the 
Navy's own requirements, surface warfare, or SUW, mine 
countermeasures, or MCM, and anti-submarine warfare, ASW.
    The Increment II Surface Warfare Mission Package is the 
only fielded system on LCS seaframes. It has demonstrated a 
modest ability to aid the ship in defending itself against 
small swarms of fast in-shore attack craft, although not 
against threat representative numbers and tactics, and the 
ability to support maritime security operations, such as 
launching and recovering boats and conducting pirate 
interdiction operations. However, when [the] Hellfire [missile] 
is fielded as part of the next increment of the surface warfare 
package, its capability should improve, and it will be 
important to solve the problems and do the testing with 
Hellfire that have--that have enabled us to discover so many of 
the problems that exist with the current ships.
    In a June 2016 report based on the testing conducted before 
2016, I concluded that the LCS employing the current Mine 
Countermeasures Package would not be operationally effective or 
suitable if called upon to conduct mine countermeasures 
missions in combat. That testing demonstrates the LCS Mine 
Countermeasures Package did not achieve the sustained area mine 
clearance rate of the Navy's legacy systems, nor can the 
package be used to meet the Navy's reduced Increment I mine 
countermeasures requirements for mine area clearance rate, even 
under ideal benign conditions, achieving at best one-half of 
those requirements, which are a fraction of the Navy's full 
requirements.
    The ships, as well as the mine countermeasure systems, are 
not reliable, and all the mine countermeasure systems, not just 
the Remote Minehunting System [RMS] and the Remote Multi-
Mission Vehicle [RMMV] that were recently cancelled, had 
significant shortfalls or limitations in performance. Based on 
those results, after more than 15 years of development, the 
Navy decided this past year to cancel the Remote Minehunting 
System, halted further procurement of the Remote Multi-Mission 
Vehicle, abandoned plans to conduct operational testing of 
individual mine countermeasures mission package increments, at 
least in the interim, and delayed the start of fully-integrated 
LCS mine countermeasures mission package operational testing 
until at least fiscal year 2020.
    As the Navy attempts to fill capability gaps and correct 
the shortfalls in performance of these cancelled and 
restructured key elements of the LCS Mine Countermeasures 
Package, it is very likely operational testing of either LCS 
variant, equipped and fully integrated with the final fully-
capable Mine Countermeasures Package, will not be completed 
until at least 2023, more than a decade after the schedule set 
forth in the Navy's original requirements documents.
    All of the LCSs have suffered from significant and repeated 
reliability problems with both sea frame and mission package 
equipment. No matter what mission equipment is loaded on either 
LCS variance, the lower reliability and variability of sea 
frame components, coupled with the small crew size, impose 
significant constraints on mission capability.
    For example, when averaged over time, LCS-4 was fully 
mission capable for surface warfare missions just 24 percent of 
the 2015 test period. Both variants fall substantially short of 
the Navy's reliability requirements, and have a near zero 
chance of completing a 30-day mission, and a sustained 30-day 
mission is the Navy's requirement, without a critical failure 
one or more sea frame subsystems essential for wartime 
operations.
    Testing conducted during the past two years on LCS-2, 3, 
and 4 also revealed significant cybersecurity deficiencies. 
Now, the Navy is developing plans and taking actions to correct 
some of the problems identified, but the severity of the 
problems discovered will degrade the effectiveness of both LCS 
variants until the problems are fully corrected.
    In closing, I want to emphasize the importance of realistic 
testing. It was only through testing of full mission packages 
at sea and aboard the ship with a crew from the fleet that the 
significant problems and shortfalls I have just discussed were 
clearly revealed. In fact, the Navy's Independent Mine 
Countermeasures Review Team emphasized that a reliance on 
segmented shore-based testing ``provided a false sense of 
system maturity.'' Similarly, only with an operationally 
realistic testing of the Surface Warfare Mission Package were 
the inaccuracies of the gun, limitations of the ships 
maneuvering and tactics, and the deficient training revealed.
    Therefore, my strongest and most important recommendation 
to you and to the Navy is to fund and execute realistic and 
rigorous testing of LCS and its mission packages as we go 
forward.
    Thank you.
    [The prepared statement of Dr. Gilmore follows:]

                Prepared Statement by J. Michael Gilmore
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for the opportunity to discuss my assessment 
of the Littoral Combat Ship (LCS) program. The first LCS was 
commissioned in 2008, and the Navy now has in commission a total of 
eight ships, with two more anticipated in the coming months. The Navy 
has also deployed three LCSs in the past three years, with each of the 
three ships conducting freedom of navigation and forward presence 
missions in the western Pacific. Despite the success of delivering 
ships to the Navy, and recent peacetime operations during deployments, 
the LCS program has not yet demonstrated effective warfighting 
capability in any of its originally-envisioned missions: surface 
warfare (SUW), mine countermeasures (MCM), and anti-submarine warfare 
(ASW). The effectiveness of the ship is closely tied to the 
capabilities of the installed mission packages; yet, the Navy has not 
yet delivered effective mission packages that meet the Navy's own 
requirements for any of these missions. Furthermore, all of the ships 
have suffered from significant and repeated reliability problems with 
both seaframe and mission package equipment. No matter what mission 
equipment is loaded on either of the ship variants, the low reliability 
and availability of seaframe components coupled with the small crew 
size imposed significant constraints on mission capability. Unless 
corrected, the critical problems that I have highlighted in multiple 
DOT&E reports and multiple formal memoranda over the last seven years 
will continue to prevent the ship and mission packages from being 
operationally effective or operationally suitable in war.
    With respect to survivability, neither LCS variant is expected to 
be survivable in high-intensity combat because the Navy's requirements 
accept the risk of abandoning the ship under circumstances that would 
not require such an action on other surface combatants. As designed, 
the LCS lacks the shock hardening, redundancy, and the vertical and 
longitudinal separation of equipment found in other combatants. Such 
features are required to reduce the likelihood that a single hit will 
result in loss of propulsion, combat capability, and the ability to 
control damage and restore system operation. Thus far, the results of 
the LCS Live Fire Test and Evaluation (LFT&E) program confirm this 
assessment. While there is still much work to be done, the LFT&E 
program has already identified over 100 technical improvements that 
could be applied to improve LCS's performance against threat weapons, 
although, given the ships' fundamental limitations, none of these 
improvements will make the ships' survivability comparable to that of 
the Navy's other surface combatants. Once I have all the shock trial 
data in hand and have analyzed it in conjunction with the data from the 
Total Ship Survivability Trials (TSST) and the Navy's Survivability 
Assessment Reports, I will issue a more comprehensive assessment of 
both seaframes' survivability.
    Understandably, the Navy's concept of employment and concept of 
operations (CONOPS) for these ships has changed over time. The original 
vision for the class was to rely heavily on off-board and largely 
unmanned systems, which would allow engagement of the threats well away 
from the seaframe, thus enabling the ship to remain out of harm's way 
and survivable. Second, the Navy championed the idea of interchangeable 
mission packages through modularity in order to add to LCS's 
flexibility and contribution to a dynamic war effort. As the Navy 
stated several years ago, ``By having the flexibility to swap out 
mission packages, Navy has a ship that can adapt to meet the ever-
changing spectrum of mission requirements.'' \1\ Notably, both of these 
cornerstones of the program have been either abandoned or not yet 
realized, as the limitations of the mission packages and seaframes have 
become clear through testing and experimentation.
---------------------------------------------------------------------------
    \1\ Statement of the Honorable Sean J. Stackley, Assistant 
Secretary of the Navy (Research, Development, and Acquisition) and Vice 
Admiral Richard Hunt, Director, Navy Staff before the Subcommittee on 
Seapower and Projection Forces of the House Armed Services Committee, 
July 25, 2013.
---------------------------------------------------------------------------
    The Navy has most recently decided, following a program review, to 
employ a ``semi-permanent'' installation of specific mission packages, 
making any given ship dedicated to a single mission, a sharp and 
limiting contrast from the Navy's original concept, as well as from the 
traditional multi-mission frigates that LCS is now envisioned to 
replace. Moreover, the off-board, unmanned systems that would have 
enabled the seaframes to stay far from danger have not yet been 
developed: neither the SUW or ASW mission packages plan to use unmanned 
undersea or unmanned surface vehicles to accomplish those missions, and 
the MCM mission package's off-board vehicles have encountered 
significant developmental delays or cancelation, the primary MCM 
system, the Remote Minehunting System (RMS), being recently canceled 
after more than 15 years of development. Although all the mission 
packages will employ a helicopter or an unmanned aerial vehicle, those 
assets will not obviate the need for the ship itself to be engaged in 
high-intensity battle where the crews will face threats like small 
boats, submarines, naval combatants, and shore defenses that are likely 
to employ weapons like anti-ship cruise missiles (ASCMs), torpedoes, 
and mines. Therefore, the use of LCS as a forward-deployed combatant, 
where it will be involved in intense naval conflict, is inconsistent 
with the ships' inherent survivability in those same environments.
    One of the primary design features and selling points of the LCS 
seaframe was its speed. With the ability to sprint at 40 knots, the 
ship enjoys some enhanced ability to defeat fast small boats (albeit 
not the ever growing numbers that are faster) and some lightweight 
torpedoes, thereby protecting itself in some scenarios. However, such 
speed capabilities provide no benefit in conducting ASW or MCM; 
furthermore, the Navy's CONOPS require LCS, in some scenarios, to 
remain stationed near much slower units who are providing the LCS with 
dedicated air defense support to have any reasonable chance of 
surviving attacks using ASCMs launched in the littorals also obviates 
the need for the high speed. Moreover, this CONOPS implies that 
destroyers and cruisers will be required to provide this protection to 
LCSs, which is contrary to the concept that independently operated LCSs 
will free up the Navy's destroyers and cruiser and ``allow [them] to 
focus on the high-end missions,'' which is what the Navy has touted in 
the past. The realities of intense Naval conflict and the multitude of 
threats in the littoral environment paired with the evolved CONOPS has 
therefore also called into question the need for high speed as one of 
the primary design considerations for this class of ship. Indeed the 
Navy plans to modify future LCSs (the so-called frigate design) by 
eliminating the high top speed requirement.
    I want to correct one misconception about LCS and my assessments. 
LCS was bought to ``punch below its weight class,'' to specifically 
counter asymmetric threats in the littorals. LCS was not designed to be 
a destroyer, which has survivability and lethality capabilities to 
counter peer threats. No evaluation should hold LCS to that standard 
with respect to survivability or mission capabilities. Nevertheless, I 
have found no evidence to date that LCS will be effective or survivable 
even in the scenarios and missions in which it was designed to be 
successful. Those capabilities may yet appear as the Navy progresses in 
the development of the Increment 3 SUW mission package, the 
incorporation of an over-the-horizon missile onto the seaframes, a 
restructuring of the MCM mission package, and the long-awaited ASW 
mission package, which showed some promise in early developmental 
testing. To date, however, LCS does not provide a lethal capability in 
the primary missions it was built for, and given the change in CONOPS, 
its design is not survivable in those missions either.
                          seaframe suitability
    After operational testing of the Freedom variant equipped with the 
Increment 2 SUW mission package in 2014, and recent operational testing 
in 2015 - 2016 of the Independence variant equipped with the same 
mission package, DOT&E has sufficient data to conclude that both 
seaframe variants are not operationally suitable because many of their 
critical systems are unreliable, and their crews do not have adequate 
training, tools, and documentation to correct failures when they occur. 
No matter what mission equipment is loaded on either of the ship 
variants, the low reliability and availability of seaframe components 
coupled with the small crew size imposed significant constraints on 
mission capability. During this last year, problems with main engines, 
waterjets, communications, air defense systems, and cooling for the 
combat system occurred regularly and required test schedules to be 
revised or operations to be conducted with reduced capability (e.g., 
conducting MCM missions without operational air defense systems). These 
reliability problems are often exacerbated because, by design, the 
ship's force is not equipped to conduct extensive repairs; problems 
cannot be corrected quickly due to the need to obtain vendor support, 
particularly when several vendor home bases are at disparate overseas 
locations. The inability of the ship to be ready at all times to reach 
maximum speed, keep its main air defense system in operation, and to 
cool its computer servers are substantially detrimental to the ships' 
ability to defend themselves in time of war, much less conduct their 
assigned missions in a lengthy, sustained manner. As an example, when 
averaged over time, and accounting for both planned and unplanned 
maintenance downtimes, LCS 4 was fully mission capable for SUW missions 
just 24 percent of the 2015 test period. Failures of the propulsion and 
maneuvering subsystems and the ship's computing network, which are 
fundamental to ship operations, caused LCS 3 to return to port for 
repairs or reduced readiness while at sea for weeks at a time during 
its 2014 operational test period. Both variants fall severely short of 
the Navy's reliability requirements, and have a near-zero chance of 
completing a 30-day mission (the Navy's requirement) without a critical 
failure of one or more seaframe subsystems essential for wartime 
operations. The trend of poor reliability of critical seaframe systems 
has also affected the deployments of LCS 1 and 3, and most recently LCS 
4, and these deployments did not exercise the ships in stressing 
wartime operational tempo. The poor suitability demonstrated during the 
operational test periods are therefore, not anomalous, but in fact, a 
clear indication that these ships will not be operationally available 
nor fully mission capable more than a fraction of the time in wartime 
conditions. The recent problems observed during peacetime are likely 
only the tip of the iceberg for the problems crews might deal with when 
in more severe combat. Such results also have grave implications for 
operations and sustainment costs, which will plague the Navy for years 
to come if these inherent engineering problems are not corrected.
    The intentionally small crew size has limited the mission 
capabilities, combat endurance, maintenance capacity, and 
recoverability of the ships. For example, the small crew size has 
limited the Independence variant from operating with sufficient 
watchstanders to maintain an alert posture for extended periods of 
time. By design, the ship's small crew does not have the capacity to 
effect major repairs. Instead, the Navy's support concept depends on 
the use of remote assistance in troubleshooting problems and the use of 
Navy repair organizations and contractors for repair assistance. 
However, the Navy's limited stock of repair parts for LCS systems, many 
of which were sourced from offshore vendors, can result in long 
logistics delays and occasionally forces the Navy to resort to 
cannibalization of another ship in order to expedite repairs. Because 
of the planned reliance on shore-based contractor support, in many 
cases the LCS crew lacks the documentation, training, test equipment, 
and tools required to troubleshoot and repair serious problems as they 
emerge. An example of this limitation occurred during LCS 4's 
operational testing during 2015 and 2016, where the ship's primary air 
defense system, SeaRAM, suffered from seven long periods of downtime 
(greater than 48 hours). Each repair required the delivery of 
replacement components that were not stocked aboard the ship, and most 
required assistance from shore-based, subject matter experts. These 
failures left the ship defenseless against ASCMs, and would likely have 
forced it to return to port for repairs if it had been operating in an 
ASCM threat area. During the LCS 3 operational test period, the crew 
was unable to repair multiple critical systems, such as the ship's 
navigation data distribution system, the air search radar, and Link 16 
tactical link, each of which resulted in multiple days of downtime 
while awaiting assistance from contractors to troubleshoot and repair 
the systems. The limited ability of the crew to effect repairs became 
particularly acute during the 2015 MCM technical evaluation period; the 
LCS 2 crew relied on shore-based maintenance personnel to complete 
repairs of the ship's twin boom extensible crane, main propulsion 
diesel engines, electrical systems, boat davit, straddle lift carrier, 
and air conditioning units and the mission package's Remote Multi-
Mission Vehicles (RMMV) and Airborne Mine Neutralization System (AMNS) 
Launch and Handling Systems. In the preceding six month work-up period, 
the ship also called on contractor personnel to troubleshoot, diagnose, 
and correct problems. It remains to be seen whether the Navy can 
provide the same level of support in theater for wide-area, multi-LCS 
MCM operations that must be completed quickly, let alone during combat 
at sea.
    In September 2016, the Navy released new plans to change the LCS 
crewing structure. The Navy now plans to phase out the 3:2:1 crewing 
construct and transition to a Blue/Gold model similar to the one used 
in crewing Ballistic Missile submarines. Originally, core crews and 
mission module crews were intended to move from hull to hull 
independently of one another, but core crews will now merge with 
mission module crews and focus on a single warfare area - either SUW, 
MCM, or ASW. DOT&E does not yet have sufficient information to assess 
whether the new crewing model will solve some of the problems observed 
in the previous testing of both variants.
                    air defense capabilities of lcs
    Air defense testing has not yet been completed for either LCS 
variant. The Navy has not conducted any of the planned live-fire air 
defense test events or the modeling and simulation studies necessary to 
definitively determine the ship's ability to defend itself against 
ASCMs. Despite the dearth of testing, DOT&E has compared the 
capabilities of LCS's air defense system to other ships in the Navy. I 
assess that LCS likely has less or nearly equivalent capability to the 
LPD 17 air defense systems, which also employ Rolling Airframe Missile 
(RAM) but have a more capable combat system. In 2011, I assessed the 
LPD 17 class ships are not operationally effective against several 
modern classes of ASCMs. Therefore, it is unlikely that LCS will be 
able to meet the Navy's requirements for air defense based on the 
results available from LPD testing. More recently, limitations in the 
SeaRAM system (currently installed on Independence variants) revealed 
some significant classified concerns.
    For the Freedom variant, DOT&E learned in fiscal year 2015 (FY15) 
that the Navy stopped work on the air defense modeling and simulation 
test bed because it did not have the intellectual property rights and 
detailed technical information for the ship's air defense radar (AN/
SPS-75). The lack of intellectual property for these foreign radars has 
been a problem for both variants of LCS, making it difficult for 
engineers to develop high-fidelity models and understand the 
capabilities and limitations of these radars or effect changes when 
problems are found. I proposed alternative test strategies to overcome 
this difficulty; however, in 2016, the Navy decided it is not satisfied 
with the Freedom variant's radar and RAM system for defense against 
ASCMs. The Navy now plans to replace the RAM system with SeaRAM, which 
is the system installed on the Independence variant. Because of this 
decision, the Navy does not plan to test (at all) the existing Freedom-
variant air defense systems installed on LCS 1 through 15. This is a 
high risk for deploying crews, given that many Freedom-variant ships 
will deploy between now and 2020 when backfits of the SeaRAM system on 
those hulls are scheduled to begin. Although the Navy has conducted 
some training events where a single subsonic drone is shot down in non-
stressing, operationally unrealistic conditions (not emulating actual 
threats), the fact remains that no end-to-end operationally realistic 
live-fire testing has been conducted. The crews of these ships will 
remain unaware of any problems with their air defense systems that 
might have been discovered during testing, and will likely discover 
these problems at the worst possible time: when under attack. The need 
for this testing is all the more acute given the recent ASCM attacks 
against Navy ships off the coast of Yemen.
    For the Independence variant, air defense testing continues to be 
delayed and its completion is now in doubt as well because of higher 
priority testing of the CVN 78 air defense systems. Additionally, the 
Program Executive Office for LCS sent a letter to the Navy's Surface 
Warfare Director (N96) stating that Independence variant air warfare 
testing cannot be executed at current funding levels. The Navy had 
planned to conduct the first of the planned operationally realistic 
live-fire events on the self-defense test ship in fiscal year 2016, but 
postponed the test indefinitely because of anticipated poor performance 
predicted by pre-test modeling and analysis of the planned test event 
scenario. Without these tests, an adequate assessment of the 
Independence-class probability of raid annihilation requirement is not 
possible. Based on the Navy's most recent plans, DOT&E expects that the 
Independence variant will have been in service nearly 10 years by the 
time that air defense testing is complete, which at the time of this 
testimony is not anticipated before fiscal year 2020.
    Although the Navy has postponed indefinitely its plans to conduct 
live-fire testing of the LCS air defense systems, the Navy has 
conducted some initial testing of the SeaRAM system, as it is employed 
aboard Arleigh Burke destroyers. In December 2015, the Navy-conducted a 
live-fire event aboard the self-defense test ship, the SeaRAM system 
was successful at defeating a raid of two GQM-163 supersonic targets. 
Although a stressing event, these targets were not representative of 
the threats they were attempting to emulate. The Navy does not 
currently have an aerial target that is capable of emulating some 
modern ASCM threats. During this test, SeaRAM employed the RAM Block 2 
missile, which is different than the current LCS configuration that 
employs the RAM Block 1A missile. However, if the Navy decides to 
deploy LCSs with the Block 2 missile, then this test and others planned 
are germane to an LCS evaluation, however incomplete. DOT&E and the 
Navy continue to conduct test planning to make best use of the 
available resources and ensure that LCS's air defense testing reflects 
the capabilities of deploying LCSs.
    The Navy has also successfully completed some non-firing air 
defense tests that provide some initial insights into the capabilities 
and limitations of components of the air defense systems. For the 
Freedom variant, these tests revealed that because of the limited 
capabilities of the air defense radar, the crew was unable to detect 
and track some types of air threats well enough to engage them. The 
lack of integration between the WBR-2000 Electronic Support Measures 
(ESM) system and the RAM system limited the ship's capability to make 
best use of its limited RAM inventory. For the Independence variant, 
although the ships relies on the SeaRAM system, the ship's air 
surveillance radar provided LCS crews with only limited warning to 
defend itself against ASCMs in certain situations. The Independence 
variant's ESM system is able to detect the presence of the ASCM seekers 
in most instances but did not reliably identify certain threats, and in 
some cases did not provide LCS crews with adequate warning to defend 
itself.
    Finally, with respect to air defense, the ship is expected to 
struggle to defend itself against low, slow-flying aircraft such as 
unmanned aerial vehicles, helicopters, and small planes. In the Navy's 
developmental test events, we learned that the electro-optical system 
used to target the seaframe's gun was unable to provide reliable 
tracking information against some targets. Furthermore, the safety 
standoff requirements on Navy test ranges were so severe that they 
precluded meaningful live-fire gun engagements against these targets. 
Because of these problems and constraints, the program decided to 
cancel all subsequent live-fire events, including those scheduled for 
operational testing, conceding that the Independence variant is 
unlikely to be consistently successful when engaging some of these 
threats until future upgrades of the tracking system can be 
implemented.
                             cybersecurity
    Much of my assessment of the two seaframes' cybersecurity posture 
and capabilities is classified and covered in detail in my recent 
operational test reports. However, I will state that the testing 
conducted in fiscal year 2014 on LCS 3, testing conducted in 2015 on 
LCS 2, and finally the most recent test aboard LCS 4 have revealed 
significant deficiencies in the ship's ability to protect the security 
of information and prevent malicious intrusion. Although the Navy is 
developing plans to modify the network architecture in the both Freedom 
and Independence variants to enhance cybersecurity, the severity of the 
cybersecurity problems discovered on LCS will degrade the operational 
effectiveness of either variant until the problems are corrected.
    In early 2016, the Navy made substantial changes to the LCS 4's 
networks, calling the effort ``information assurance (IA) 
remediation,'' to correct many of the deficiencies in network security 
on the baseline Independence variant's total ship computing 
environment. The Navy designed and implemented the IA remediation 
program to mitigate or eliminate some of the vulnerabilities found 
during the 2015 test aboard LCS 2 and was successful in eliminating 
some of the deficiencies that placed the ship at risk from cyber-
attacks conducted by nascent (relatively inexperienced) attackers.
    Unfortunately, because of numerous limitations, the Navy's testing 
aboard LCS 4 was inadequate to fully assess the LCS 4's survivability 
against cyber-attacks originating outside of the ship's networks (an 
outsider threat). The testing was adequate to determine that some 
deficiencies remain when attacks occur from an insider threat; however, 
it was not adequate to determine the full extent of the ship's 
cybersecurity vulnerability or the mission effects of realistic cyber-
attacks.
    Although the Navy's IA remediation corrected some of the most 
severe deficiencies known prior to the test period, the testing 
revealed that several problems still remain which will degrade the 
operational effectiveness of Independence-variant seaframes until the 
problems are corrected. The Navy plans a second phase of IA remediation 
to correct additional network deficiencies; however, DOT&E is unaware 
of the plans to install or test these changes on future ships, or 
whether these changes will correct the problems observed during the LCS 
4 test. Nevertheless, routine and thorough cybersecurity assessments of 
each ship, and each configuration of mission packages, particularly 
those being deployed, should be a core strategy for LCSs as well as all 
Navy ships. The inadequacies in test execution and poor performance 
discovered in recent LCS cybersecurity testing strongly suggest that 
the Navy must undertake a more concentrated and focused effort to 
improve cybersecurity for these ships.
                  self-defense against surface threats
    Both variants of LCS rely exclusively on the seaframe's MK 110 57 
mm gun and a gunfire control system that is fed by an electro-optical/
infrared sensor to defend the ship against attacking surface threats, 
such as a small fast boat. Unless the SUW mission package is installed, 
this one gun is the ship's only defense against these targets (as well 
as low, slow-flying targets). Too few data exist on the Freedom variant 
to provide a definitive evaluation of that ship's ability to defend 
itself with only the 57 mm gun. Furthermore, the test that was 
conducted was limited to a single target boat attacking LCS and the 
events were not conducted in a realistic cluttered environment where 
identification of threats will be more challenging.
    On the Independence variant, however, the Navy conducted seven test 
events, each consisting of a single attacking small boat. LCS failed to 
defeat the small boat in two of these events, because of gun failures 
that have since been corrected. Overall, the 57 mm gun demonstrated 
inconsistent performance even in benign conditions, which raises doubts 
about the ship's ability to defend itself without the SUW mission 
package installed. The inaccuracy of the targeting systems, the 
difficulty in establishing a track on the target, and the requirement 
to hit the target directly when using the point-detonation fuze combine 
to severely impair effective employment of the gun, and limit effective 
performance to dangerously short ranges. The Navy has not conducted any 
testing to determine how well the ship will perform when faced with an 
attack in a realistic cluttered maritime environment including both 
neutral and hostile craft; the Navy has also not conducted operational 
testing to determine how well the ship (without the SUW mission 
package) will perform against multiple attacking boats. Nevertheless, 
given the performance observed during operational testing, the 
combination of faster threats, multiple threats, threats with longer-
range standoff weapons, cluttered sea traffic, or poor visibility are 
likely to make it difficult for LCS (without the SUW mission package) 
to defend itself.
    The ship's electro-optical/infrared camera, SAFIRE, is the primary 
sensor for targeting the 57 mm gun. The system suffers from a number of 
shortcomings that contribute to inconsistent tracking performance 
against surface and air targets, including a cumbersome human-systems 
interface, poor auto-tracker performance, and long intervals between 
laser range finder returns. These problems likely contributed to the 
poor accuracy of the 57 mm gun observed during live-fire events, though 
the root cause(s) of the gun's inaccuracy have not been determined 
definitively.
    In the most recent of the seven live-fire test events the Navy 
conducted against a single-boat target, the crew employed the 57 mm 
differently than it had in previous live-fire events, and defeated the 
attacking boat with less ammunition and at a slightly longer range than 
in previous events. One event does not provide conclusive evidence that 
the ship can be effective in these scenarios, and such performance was 
never observed during the swarm-defense test events. Nevertheless, 
these results are encouraging and suggest that the Navy should examine 
tactics and alternative gun employment modes, including different 
projectile fuze settings, as a means to enhance LCS's currently limited 
capabilities.
                self-defense against subsurface threats
    As I have stated in multiple reports, LCS will have no capability 
to detect or defend against torpedoes unless the ASW mission package is 
embarked, specifically the lightweight tow countermeasure. This is in 
contrast to the USS Oliver Hazard Perry-class Frigates (FFG), which had 
some inherent capability to detect threat torpedoes and could employ a 
torpedo countermeasure system. The lack of capability implies that a 
submarine could launch an attack on an LCS, without the crew knowing 
that they were under attack, and successfully hit the ship.
    Because an LCS equipped with the SUW mission package has no ASW 
capability, nor any torpedo defense capability, many areas of operation 
where multiple threats are present will require multiple LCSs to work 
together for mutual protection, or for the likely multi-mission 
character of many Navy warfare scenarios. Such groups of two or three 
LCSs with disparate single-mission packages is in addition to the now-
acknowledged need for destroyer/cruiser support for air defense in some 
scenarios. The Navy's CONOPS documents acknowledge the difficulty of 
planning LCS surface action groups because of the inherent lack of 
multi-mission capabilities, making three or four ships sometimes 
necessary to enable mission accomplishment and ensure survivability. 
The same mission scenarios might be accomplished by fewer ships, 
provided those ships had multi-mission capabilities. The original 
vision, therefore, of a nimble, mission-focused ship has been overcome 
by the realities of the multi-mission nature of naval warfare combined 
with the multiple threat environments of high-intensity naval 
conflicts.
                             survivability
    As I have previously reported, neither of the LCS designs includes 
survivability features necessary to conduct sustained operations in a 
combat environment. Furthermore, during DOT&E's review of the work 
completed by the Navy's Small Surface Combatant Task Force in 2014, it 
became clear that LCS does not have the survivability features 
commensurate with those inherent in the FFG it is intended to replace. 
The FFG is designed with shock-hardened mission and propulsion systems. 
It has redundancy and separation of major combat and engineering 
systems and equipment. These design features are meant to enable the 
ship to not only exit the area once hit by significant threat weapons, 
but also to retain critical mission capability and continue fighting if 
need be. LCS is not designed to do so.
    The LCS CONOPS acknowledges LCS vulnerabilities to some air, 
surface, and subsurface threats and suggests that LCS is best suited 
for missions such as Theater Security Cooperation and Maritime Security 
Operations. At the same time, the LCS CONOPS states that LCS is 
expected to spend the majority of its time operating independently or 
in surface action groups, ahead of the strike group, preparing the 
environment for joint force access to critical littoral operating 
areas. Such operations could expose LCS to the full spectrum of 
potential threats, and the CONOPS acknowledges that the limited air 
defense and survivability capabilities of LCS will necessitate an 
appropriate defense plan provided by the very forces LCS is supporting. 
Providing additional warships for LCS protection means stretching 
already limited battle group air defense assets. Furthermore, the 
presence of such air defense ships to aid LCS does not guarantee the 
susceptibility to these attacks will be reduced to zero or its 
survivability improved, given the potential threats that LCS might 
encounter as one of the first assets present in a hostile combat 
environment.
Aluminum Ship Vulnerability
    The Navy has not yet adequately assessed the LCS aluminum hull and 
deckhouse fire vulnerability; however, this is an obvious survivability 
concern for these ships. Aluminum structure is vulnerable to melting 
and loss of structural integrity during shipboard fires. This is not a 
problem for steel hulled ships. Battle damage and collision incidents 
involving ships with aluminum superstructures, such as USS Stark and 
USS Belknap, highlighted these survivability concerns for the Navy. The 
Navy's Survivability Review Group concluded in the 1980s that aluminum 
ship structure was highly vulnerable to fire spread and loss of 
strength, which was codified in the 1985 edition of the General 
Specifications for Ships of the United States Navy, section 150a, by 
requiring deckhouses and superstructure to be steel. This policy was 
reversed for LCS. More recently, an aluminum ship, HSV Swift, suffered 
extensive structural damage from blast and fire when she was hit by a 
missile off the coast of Yemen. This recent attack serves as a grim 
reminder of the increased risk inherent in the Independence variant, 
which is constructed primarily from aluminum.
    The Navy has not yet assessed the likelihood of major structural 
damage from a weapon-induced fire on LCS. These assessments have not 
been done because the Navy was not equipped with the analytical tools 
necessary to model this problem. The LCS LFT&E program included tests 
to gather data for model development and validation, but that process 
is still ongoing. The Independence-variant survivability assessment 
report that is due in fiscal year 2017 will not include comprehensive 
analysis of fire induced structural damage potential.
    Based on testing of fire insulation conducted by the LCS program, 
the Navy reported that it is unlikely that major structural damage will 
occur to aluminum structures from an internal fire in an undamaged 
compartment (i.e., all fire suppression systems are operable and fire 
insulation is intact). This nuanced reporting did not address the fact 
that internal blast effects can damage fire insulation and suppression 
systems that would normally be available to mitigate the fire effects 
in an undamaged compartment. It is, therefore, premature to draw any 
other conclusions about the structural integrity of the LCS hull.
Shock Trials
    This year, the Navy conducted reduced severity shock trials on the 
Independence-variant USS Jackson (LCS 6) and the Freedom-variant USS 
Milwaukee (LCS 5). I approved the reduced severity trial geometries for 
LCS 6 because of serious concerns about the potential for damage to 
non-shock hardened mission critical equipment and ship structure. There 
was also concern about the damage tolerance of the ship's hull 
structure relative to steel hulled ships. Unlike other surface 
combatants the combat systems on LCS are not shock hardened. Also, the 
main propulsion system on the Independence variant is not shock 
hardened. The Navy argued that the reduced severity approach was 
necessary because they lacked specific test data and a general 
understanding of how the non-Grade A systems (Grade A systems must 
remain functional after shock) would respond to shock. To further 
mitigate potential equipment damage and personnel injury, some mission 
systems were removed, other equipment was modified to improve shock 
resistance, and construction deficiencies were corrected.
    LCS 6 was tested in June and July 2016. The trial consisted of 
three shots of increasing severity, ending at 50 percent of the 
required shock design level. At these reduced levels, most non-Grade A 
components and systems, including electrical power generation systems 
and the SeaRAM air defense system, remained operable or were restored 
to a limited or full capability prior to the ship's return to port 
after each shot. The Navy is still analyzing the structural response 
data.
    Based on the LCS 6 shock trial lessons learned and limited 
equipment damage, I directed the Navy to conduct a traditional three 
shot shock trial for LCS 5, with the final shot at two-thirds the 
required shock design level. The Navy conducted the first two shots 
from August 29 through September 23, 2016, starting the trial at the 
same shock severity as other modern surface combatants. However, the 
Navy stopped the LCS 5 trial after the second shot, thereby not 
executing the planned third shot due to concerns with the shock 
environment, personnel, and equipment. The Navy viewed the third LCS 5 
trial as not worthwhile because the Navy was concerned shocking the 
ship at the increased level of that trial would significantly damage 
substantial amounts of non-hardened equipment, as well as damage, 
potentially significantly, the limited amount of hardened equipment, 
thereby necessitating costly and lengthy repairs. The Navy view is that 
its modeling could be used to confidently conclude what would occur if 
the third shot were conducted based on the results of the first two 
shots. I disagree and maintain that the third LCS 5 shot is needed: the 
Navy's models have not correctly predicted important aspects of the 
response of the LCS 6 and LCS 5 seaframes to the shock events that were 
conducted; nor have those models accurately predicted the responses of 
the equipment installed and integrated onto the ships.
    As planned and conducted, neither shock trial resulted in 
catastrophic damage, yet both shock trials exposed critical shock 
deficiencies, which I will detail in an upcoming classified report. 
These deficiencies, which were only identified in the shock trial, can 
now be specifically addressed and corrected by Navy engineers to make 
the ships more survivable.
Total Ship Survivability Trials (TSST)
    As an element of the LFT&E program, the TSST is the primary source 
of recoverability data and is intended to provide a damage scenario-
based engineering assessment of the ability of the ship's crew to 
utilize the installed firefighting and damage control systems to 
control damage, reconfigure, and reconstitute mission capability after 
combat damage.
    The LCS 3 TSST revealed significant deficiencies in the Freedom-
variant design. Much of the ship's mission capability would have been 
lost because of damage caused by the initial weapons effects or from 
the ensuing fire. The weapons effects and fire damage happened before 
the crew could respond, and the ship does not have sufficient 
redundancy to recover the lost capability. Some changes could be made 
to make the ship less vulnerable and more recoverable without major 
structural modifications. Examples include providing separation for the 
water jet hydraulic power units, redesigning the Machinery Plant 
Control and Monitoring System, and reconfiguring the chilled water 
system into a zonal system with separation for the air conditioning 
(chilled water) plants. The Navy has not yet made any plans to make 
such changes in future ships, however.
    The LCS 4 TSST, conducted in January 2016, exposed weaknesses in 
the Independence-variant design. While the shock-hardened auxiliary bow 
thruster would have provided limited post-hit propulsion, much of the 
ship's mission capability would have been lost because critical support 
systems such as chilled water are not designed for reconfiguration and 
isolation of damage caused by the initial weapons effects or from the 
ensuing fire and flooding. There were many survivability improvements 
identified by the trial team that could be implemented in the 
Independence-variant ships, for example, outfitting the rescue and 
assistance locker with additional damage control gear to make it a 
third damage control locker, and modifying the damage control and chill 
water systems to increase the ability to reconfigure and isolate 
damaged sections.
                            mission packages
    The ability of LCS to perform the bulk of its intended missions 
(SUW, MCM, and ASW) depends on the effectiveness of the mission 
packages. To date, despite LCS having being in service since 2008, the 
Navy has not yet demonstrated effective capability for LCSs equipped 
with the MCM, SUW, or ASW mission packages. The Increment 2 SUW mission 
package is the only fielded system on LCS seaframes; it has 
demonstrated some modest ability to aid the ship in defending itself 
against small swarms of fast-inshore attack craft (though not against 
threat-representative numbers and tactics), and the ability to support 
maritime security operations, such as launching an recovering boats and 
conducting pirate interdiction operations.
Surface Warfare (SUW)
    The Navy has now conducted one operational test of the Increment 2 
SUW mission package installed aboard a Freedom variant and one 
operational test of the mission package installed aboard an 
Independence variant. The ship's organic 57 mm gun is augmented with 
two 30 mm guns and an MH-60R helicopter, which can be armed with a 
machine gun and HELLFIRE missiles.
    For the Freedom variant, the Navy conducted three live-fire 
engagements aboard LCS 3 consisting of a small swarm of fast-inshore 
attack craft (small boats) under the specific conditions detailed in 
the Navy's reduced and interim requirement. LCS 3 achieved mixed 
results against these small swarms during fiscal year 2014 testing. In 
the first developmental test, the ship successfully defeated a small 
swarm beyond the prescribed keep out range. In the second developmental 
test, LCS 3 was not successful. Following intensive remedial training 
to hone the crew's tactics, ship-handling, and gunnery, LCS 3 repeated 
the test and was successful in the one operational test event. Although 
the tests demonstrated that the Freedom variant could defeat a small 
swarm under benign conditions, there is little evidence that such 
results are repeatable under these same conditions as well as other 
less favorable conditions. Moreover, the Navy does not have in place 
intensive training programs for small boat defense that enabled the 
crew to be successful in the last test event, nor has the Navy taken my 
recommendation to develop a shore-based operator-in-the-loop team 
trainer, which has the potential to alleviate some of the uncertainty 
in LCS SUW performance, enable more adequate testing of the ship's 
capabilities in these scenarios where test resources are scarce, and 
potentially examine other conditions (such as varying sizes of swarms 
and interfering traffic).
    In 2015, LCS 4, similar to LCS 3, participated in three engagements 
with small swarms of small boats. LCS 4 failed the Navy's reduced 
requirement for interim SUW capability, failing to defeat each of the 
small boats before one penetrated the prescribed keep-out zone in two 
of the three events. Although LCS eventually destroyed or disabled all 
of the attacking boats in these events, these operational test results 
confirmed that the Increment 2 SUW mission package provides the crew 
with a moderately enhanced self-defense capability (relative to the 
capability of the 57 mm gun alone) but not an effective offensive 
capability. LCS 4's failure to defeat this relatively modest threat 
routinely under test conditions raises questions about its ability to 
deal with more realistic threats certain to be present in theater, and 
suggests that LCS will be unsuccessful operating as an escort (a 
traditional frigate role) to other Navy ships. Additional details about 
the LCS gun performance and the factors and tactics that contribute to 
the ship's effectiveness are discussed in my November 2016 classified 
report. In it, I also detail my recommendations for improving 
performance and tactics so that these ships might be effective in these 
scenarios.
    The Navy has begun work on developing and testing the Surface-to-
Surface Missile Module (SSMM), the core component of the Increment 3 
mission package. Although early developmental testing has shown the 
Longbow HELLFIRE missile employed from the SSMM has the needed 
lethality to defeat some of these small boat threats, operational 
testing in 2015 and 2016 revealed some potential limitations in the 
targeting capability of the ship. The Navy intends to conduct 
additional developmental testing to better understand these 
limitations; and the results of these tests will be used to inform 
future decisions by the Navy to modify missile targeting algorithms and 
tactics, as needed to overcome the limitations. The Navy plans to 
demonstrate the ability to meet the LCS requirements for SUW swarm 
defense during operational testing of the Increment 3 mission package 
in fiscal year 2018. These tests will be the first time that the Navy 
will have investigated LCS's ability to defend ships other than itself.
Mine Countermeasures (MCM)
    In 2009, the Navy recognized that its legacy MCM capabilities, 
particularly Avenger-class and Osprey-class surface ships and MH-53E 
Sea Dragon helicopters, were aging while the worldwide mine threat 
continued to modernize. \2\ In response to the advancing mine threat 
abroad and planned retirement of legacy assets at home, the Navy 
articulated an overarching vision for 21st-century mine warfare hailing 
the LCS as the ``keystone'' of the future MCM force. \3\ The principal 
objective of the Navy's MCM vision was ``to decrease significantly the 
time required to conduct countermeasures operations, while ensuring low 
risk to naval and commercial vessels, and to remove the man from the 
minefield.'' The plan was based on the premise that a suite of MCM 
systems, deployed from an LCS stationed outside the minefield, could 
replace and outpace legacy capabilities that put sailors in harm's way.
---------------------------------------------------------------------------
    \2\ Legacy MCM capabilities also include Explosive Ordnance 
Disposal Units and Marine Mammals.
    \3\ ``Ensuring Global Access and Commerce--21st Century U.S. Navy 
Mine Warfare,'' PEO(LMW) / OPNAV N85 Mine Warfare Primer, June 2009.
---------------------------------------------------------------------------
    After initially setting high expectations for LCS MCM performance, 
the Navy continues to temper its outlook. As the Navy embarked on 
efforts to transform its MCM vision to reality, analysts employed 
performance modeling to estimate the area clearance rates of each LCS 
equipped with a package of MCM systems in a variety of operational 
scenarios, including large-scale scenarios requiring operations of 
multiple LCSs for sustained periods. These modeling estimates formed 
the basis for the MCM requirements the Navy documented in the LCS 
Flight 0+ Capabilities Development Document (CDD) approved in 2010. In 
the CDD, the Navy also postulated that remaining development and 
integration of the systems needed to complete the fully capable MCM 
mission package could be accomplished quickly, indicating that 
``delivery of the first baseline Spiral Alpha MCM mission package is on 
schedule for fiscal year 2012.'' \4\ As it became clear that this 
optimistic goal would not be met, the Navy developed a plan to test and 
field three ``increments'' of partial Spiral Alpha capability before 
achieving full Spiral Alpha capability in a fourth and final increment. 
In doing so, the Navy asserted that an LCS equipped with the first 
partial Spiral Alpha MCM mission package (or Increment 1 MCM mission 
package) would replace aging legacy systems and improve clearance rates 
by a factor of two.
---------------------------------------------------------------------------
    \4\ In Annex A section 5.4 of the LCS Flight 0+ CDD, the Navy 
further defined baseline mission packages as ``those that will contain 
the full set of Spiral Alpha systems and achieve all Spiral Alpha 
performance attributes contained in this CDD.'' More recently, the Navy 
described the Increment 4 MCM mission package as the configuration 
expected to achieve LCS Flight 0+ CDD requirements.
---------------------------------------------------------------------------
    The Navy has not yet delivered on the promise of its 21st-century 
MCM vision, even at reduced expectations. The Navy has not yet 
demonstrated in end-to-end testing that the sustained area clearance 
rate of an LCS equipped with the current MCM mission package exceeds 
its own estimates of legacy clearance rate, nor has it demonstrated 
that an LCS could meet the Navy's Increment 1 requirements for area 
clearance rate. The Navy has also not yet demonstrated the capability 
of an LCS to conduct efficient MCM operations in an operationally 
realistic shipping channel. Given the currently ineffective and limited 
line-of-sight communications between LCS and off-board vehicles, an LCS 
is forced to clear a series of operating areas that allow the ship to 
follow MCM operations as they progress along the channel while 
remaining within operational range of its off-board systems. This alone 
has the negative effect of vastly increasing mission timelines 
regardless of the effectiveness of the minehunting and clearing systems 
LCS employs. In addition, the performance demonstrated during LCS 
developmental testing that has been completed since 2014 provides ample 
evidence that the small number of LCSs equipped with the current MCM 
mission package that the Navy might be able to muster before fiscal 
year 2020 would not provide an operational capability to complete MCM 
clearance missions at the levels needed by operational commanders. Even 
under the best conditions the Navy might hope to experience, the 
technical evaluation in 2015 revealed that an LCS with the current MCM 
mission package would deliver less than half the Increment 1 
requirements, which themselves are a fraction of the full Spiral Alpha 
requirements.
    In a June 2016 early fielding report, based exclusively on the 
testing conducted before 2016, I concluded that an LCS employing the 
current MCM mission package would not be operationally effective or 
operationally suitable if called upon to conduct MCM missions in 
combat. In the same early fielding report, I concluded that the current 
versions of the individual systems that comprise the current MCM 
mission package--specifically the RMS (consisting of the RMMV and AN/
AQS-20A) and the MH-60S Airborne MCM (AMCM) helicopter equipped with 
the Airborne Laser Mine Detection System (ALMDS) or the AMNS--would not 
be operationally effective or operationally suitable if called upon to 
conduct MCM missions in combat.
    The Navy has conducted limited operational testing of the 
individual systems it expected to field in the Increment 1 MCM mission 
package and has not initiated any operational testing of an LCS 
equipped with an integrated MCM mission package, other than a 
preliminary cybersecurity assessment. The lack of progress in 
developing, operationally testing, and fielding a credible, LCS-based 
MCM capability contrasts sharply with the timeline and performance 
expectations the Navy conveyed in the LCS Flight 0+ CDD. As the Navy 
attempts to fill capability gaps left by canceled programs and correct 
shortfalls in the performance of the original Spiral Alpha systems 
still in development, it is increasingly likely that the Navy will not 
complete Initial Operational Test and Evaluation (IOT&E) of either LCS 
variant equipped with the final (fully capable, Spiral Alpha) MCM 
mission package until at least 2023, more than a decade after the 
optimistic schedule set forth in the CDD. \5\ Moreover, it is not clear 
that any future version of the mission package will meet the MCM 
requirements the Navy established in the LCS Flight 0+ CDD. Not 
surprisingly, I understand the Navy is now considering changes that 
would reduce some requirements for the so-called Spiral Alpha (or 
final) MCM mission package. Although such reductions may ultimately 
prove necessary to realign expectations with technical reality, the 
operational implications of lower clearance rates include longer 
clearance timelines and more LCSs equipped with MCM mission packages, 
as scenario geometry permits.
---------------------------------------------------------------------------
    \5\ Since 2010, the Navy has canceled the RMMV, OASIS, and RAMICS 
programs and discontinued use of the MH-60S in towing missions (thereby 
eliminating its employment of the AN/AQS-20A).
---------------------------------------------------------------------------
    In October 2015, the Navy delayed operational testing of the 
Independence-variant LCS equipped with the first increment of the MCM 
mission package pending the outcome of an independent program review, 
including an evaluation of potential alternatives to the RMS. The Navy 
chartered the review in response to an August 21, 2015, letter from 
Senators John McCain and Jack Reed, Chairman and Ranking Member of the 
Senate Committee on Armed Forces expressing concerns about the 
readiness to enter operational testing given the significant 
reliability problems observed during a technical evaluation in 2015, a 
topic I have repeatedly reported on in previous years. In early 2016, 
following the completion of the independent review, among other 
actions, the Navy canceled the RMS program, halted further RMMV 
procurement, abandoned plans to conduct operational testing of 
individual MCM mission package increments, and delayed the start of LCS 
MCM mission package IOT&E until at least fiscal year 2020. After 
canceling the RMS program, the Navy also announced its intention to 
evaluate alternatives to the RMS such as the unmanned surface craft 
towing improved minehunting sensors, and an improved version of the 
Knifefish unmanned undersea vehicle (UUV). However, the Navy has not 
yet fully funded these potential alternatives.
    Ironically, the Navy's mine warfare resource sponsor (OPNAV N852) 
identified a multi-function LCS unmanned surface vessel (USV) as a 
``game changer'' and potential RMMV replacement in 2012. \6\ In the 
years that followed, however, Navy officials touted RMMV reliability 
improvements that never materialized and funded additional RMMV 
development, but did not prioritize development of a multi-function USV 
capable of integrating with the RMS's AN/AQS--20 sonar. \7\ These 
choices could leave the Navy without a viable means of towing improved 
AN/AQS-20C sonars when the contractor delivers initial production units 
next year and could delay realistic testing and fielding of the system. 
By accepting objective analysis of RMMV performance and committing to 
the USV sooner, the Navy could have avoided this unfortunate position 
and saved millions in RMMV development costs.
---------------------------------------------------------------------------
    \6\ OPNAV N852 MIWIP 2012 briefing
    \7\ See Statement of the Honorable Sean J. Stackley, Assistant 
Secretary of the Navy (Research, Development, and Acquisition) and Vice 
Admiral Richard Hunt, Director, Navy Staff before the Subcommittee on 
Seapower and Projection Forces of the House Armed Services Committee, 
July 25, 2013 and Statement of the Honorable Sean J. Stackley, 
Assistant Secretary of the Navy (Research, Development, and 
Acquisition), Vice Admiral Joseph P. Mulloy, Deputy Chief of Naval 
Operations for Integration of Capabilities and resources, and 
Lieutenant General Kenneth J. Glueck, Jr., Deputy Commandant, Combat 
Development and Integration and Commanding General, Marine Corps Combat 
Development Command before the Subcommittee on Seapower and Projection 
Forces of the House Armed Services Committee, March 26, 2014.
---------------------------------------------------------------------------
    The Navy is developing the AN/AQS-20C sonar with upgrades designed 
to correct RMS and AN/AQS-20A minehunting performance shortfalls 
observed in combined developmental and integrated testing. Unless 
corrected, AN/AQS-20A shortfalls will delay completion of LCS-based 
mine reconnaissance and mine clearance operations. Although the Navy 
has demonstrated the AN/AQS-20A can find some mines when employed in 
ideal conditions, the sonar does not meet its detection and 
classification requirements over the prescribed depth regimes and 
simultaneously provide adequate coverage against all threats spanning a 
representative range of operationally realistic conditions. In 
addition, testing has repeatedly shown that AN/AQS-20A sensor does not 
meet Navy requirements for contact depth localization accuracy or false 
classification density (number of contacts erroneously classified as 
mine-like objects per unit area searched). Contact depth localization 
problems complicate efforts to complete identification and 
neutralization of mines. False classifications, unless eliminated from 
the contact list, require identification and neutralization effort, 
result in the expenditure of limited neutralizer assets, and negatively 
affect the LCS sustained area coverage rate.
    Because of funding constraints, the Navy is struggling to implement 
many of the independent review team's recommendations. Although the 
Navy now plans to employ the Common Unmanned Surface Vehicle (CUSV) and 
AN/AQS-20C as the primary replacement for the RMS, even by its own 
optimistic schedule the Navy will not complete IOT&E of the system 
until at least fiscal year 2021. In addition, the program does not 
appear to have sufficient funding to compare the capabilities of the 
AN/AQS-24 (currently operated in 5th Fleet) to the AQS-20, nor to 
examine different configurations of MCM mission packages with the two 
sonars. .
    Many of the Navy's recent decisions regarding the future 
composition of the MCM mission package have focused on improving 
surface and subsurface MCM capabilities, but the suite of LCS-based 
airborne MCM systems, which the Navy plans to Initial Operational 
Capability (IOC) in fiscal year 2017, is not without problems requiring 
attention. For example, developmental and operational testing of the 
MH-60S with either the ALMDS or the AMNS has shown that the 
reliabilities of MH-60S and its AMCM mission kit do not support 
sustained operations at a high tempo. Although the ALMDS pods 
themselves have not been the primary source of mission downtime, at 
least during stateside testing, the associated equipment for conducting 
missions with ALMDS, including the helicopter and AMCM mission kit, 
together experience a high failure rate (approximately once every 12 
flight hours), making sustained LCS-based operations difficult. 
Similarly, the combined results of MH-60S, AMCM mission kit, and AMNS 
reliability suggest that the integrated AMCM system experiences one 
operational mission failure every 7 neutralizer launches and 5.9 flight 
hours, on average, during AMNS operations. By any measure, system 
reliability precludes timely and sustained operations.
    The ALMDS does not meet Navy detection/classification requirements, 
except in particularly benign conditions such as those observed during 
the technical evaluation in 2015. Earlier testing revealed that the 
system does not meet the Navy's detection requirement in all depth bins 
or Navy's requirement for the average probability of detection and 
classification across a specified depth band. When the system and 
operator detect and classify a smaller percentage of mines than 
predicted by fleet planning tools, the MCM commander will likely 
underestimate the residual risk to transiting ships following clearance 
operations. In favorable conditions, tactics, techniques, and 
procedures, specifically a multiple-pass technique, has been successful 
in reducing false classifications (erroneous indications of mine-like 
objects) to the Navy's acceptable limits. However, in other conditions, 
the system generates a large number of false classifications that can 
delay near-surface minehunting operations until conditions improve or 
slow mine clearance efforts because of the need for additional search 
passes to reduce the number of false classifications. In 2016, the Navy 
reportedly reallocated funding intended to support near-term 
development of ALMDS pre-planned product improvements, to correct some 
of the detection and classification limitations and improve false 
classification rates. The Navy also reported that the improved system 
would not be available to the LCS MCM mission package until at least 
fiscal year 2021.
    The current increment of the AMNS cannot neutralize mines that are 
moored above the system's prescribed safe operating ceiling, which will 
preclude neutralizing most of the mines expected in some likely threat 
scenarios. In addition to this fundamental limitation which precludes 
the system's use against many threat mines, AMNS performance is 
frequently degraded by the loss of fiber-optic communications between 
the aircraft and the neutralizer. The system often experiences loss of 
fiber-optic communications in a wide range of operationally relevant 
operating conditions, including those that are relatively benign, and 
has not demonstrated the ability to neutralize mines in even moderate 
water currents. Although the Program Office has stated that it intends 
to develop an improved AMNS to extend its depth range and potentially 
improve performance in coarse bottom conditions and higher currents, 
none of these efforts are funded. The Navy is now considering the 
Barracuda Mine Neutralization System as a potential alternative to the 
AMNS, but does not expect to commence Barracuda developmental testing 
until at least fiscal year 2022. In the meantime, legacy forces will be 
needed in all MCM missions requiring clearance of near-surface mines.
    The Navy is continuing to develop the Coastal Battlefield 
Reconnaissance and Analysis (COBRA), Knifefish UUV, and Unmanned 
Influence Sweep System (UISS), but has not yet conducted any 
operational testing of these systems. However, early developmental 
testing or contractor testing of COBRA Block I and Knifefish have 
revealed problems that, if not corrected, could adversely affect the 
operational effectiveness or suitability of these systems, in 
operational testing planned in fiscal year 2017 or fiscal year 2018, 
and subsequently the future MCM mission package. In addition, LCS-based 
communications and launch and recovery problems observed in earlier 
testing of the RMS are likely to affect the upcoming phases of 
Knifefish and UISS operational testing. Thus, it is critically 
important that developmental and operational testing of these systems 
include end-to-end operations encompassing multiple sorties and 
realistic conditions and communications ranges to identify additional 
problems that must be corrected prior to fielding.
    During developmental testing of COBRA Block I in early fiscal year 
2016, test data revealed that the system's probability of detection is 
low against small mines and mines emplaced in some environmental 
conditions. Without improvements, the capability of the current system 
will likely be limited in some operationally realistic threat scenarios 
and will not provide the capability needed to satisfy LCS MCM 
requirements for minehunting in the surf zone and beach zone. The Navy 
expects the COBRA Block II system to include surf zone capability, 
improved beach zone detection capability against small mines, and 
nighttime capability. The Navy expects these improvements to provide 
the capability needed to meet LCS MCM requirements in the surf zone and 
beach zone and expects the Block II system to reach IOC in fiscal year 
2022.
    Knifefish contractor testing in September 2016 identified a 
significant problem with Knifefish watertight integrity that will 
require a redesign of components that will likely delay the start of 
operational testing. During testing in October 2016, an engineering 
development model Knifefish UUV broke in half as contractor personnel 
attempted to launch it into the water from a shore base. The Navy and 
contractor have suspended further testing pending the outcome of a root 
cause investigation of the latest failure. Although billed as another 
potential game changer following cancelation of the RMS program, pre-
planned product improvements to Knifefish are currently unfunded. In 
fact, the entire Knifefish program is in jeopardy pending funding 
decisions. The program is currently examining the possibility of 
delaying Milestone C indefinitely until additional funding can be 
provided, which also places the delivery of a full MCM mission package 
in jeopardy on the timelines described above.
    The UISS contractor delivered the first engineering development 
unit only recently and has not yet conducted testing of a production 
representative system. The Navy will need to consider integration 
challenges that include off-board communications, maintainability, 
launch and handling equipment and procedures, and the ability of the 
crew to recover the system safely and reliably. Although the Navy plans 
to characterize UISS performance in dedicated minesweeping scenarios 
during the initial phases of LCS-based testing, operationally realistic 
testing of the system in the combined MCM mission package is essential. 
The UISS program, similar to Knifefish, is also facing the potential of 
significant delays to the delivery of capability, because of funding 
shortfalls.
Anti-Submarine Warfare (ASW)
    The Navy has not yet conducted any operational testing of the 
planned ASW mission package since it is still in the early stages of 
development. The Navy planned an IOC for the mission package in fiscal 
year 2016 following operational testing in fiscal year 2015. Now, 
however, the earliest the LCS program might achieve IOC for the ASW 
mission package is fiscal year 2019 for the Freedom variant and fiscal 
year 2020 for the Independence variant. The primary causes for these 
delays are higher testing priorities of the other mission packages and 
the lack of availability of ships, which in recent years have been 
affected by the push for deployments. Additionally much work has gone 
into a weight reduction program for the sonar and handling system, and 
a re-compete of the variable depth sonar. The Navy recently 
downselected from three vendors, selecting the variable depth sonar and 
handling system, and will begin ship integration efforts in the coming 
year. IOT&E is now planned for 2019.
    The Navy did conduct an at-sea test of an advanced development 
model of the variable depth sonar in September 2014 aboard LCS 1, 
albeit that test was conducted with a different sonar than was selected 
in the Navy's recent decision. Those tests showed promising sensor 
performance in one acoustic environment, and demonstrated the potential 
of a variable depth sonar, which several other foreign navies already 
employ from their frigates. The operators were highly-cued in that 
test, since they were provided prior knowledge of the target 
submarine's position, and the submarine did not execute evasion 
tactics. Given the significant departures from operational realism in 
that test and given the Navy has now chosen to go with a different 
design and vendor, I cannot provide any assessment of the expected 
effectiveness of the ASW mission package in a real-world combat 
scenario at this time.
    LCS's sonar system is specifically optimized for deep water and 
will not be suitable for some very shallow-water environments such as 
in the littorals. Its limitations in shallow water are yet to be 
determined, however, and operational testing against diesel-electric 
submarines will be essential for understanding the ship's capabilities. 
Nevertheless, in deep water environments, the ASW mission package has 
the potential to provide LCSs with comparable or enhanced detection 
capability relative to other surface ships that employ hull-mounted 
sonars. LCS will face challenges that other ships do not, particularly 
the need to tow two systems behind the ship reliably.
    The Navy is developing a torpedo countermeasure as part of the ASW 
mission package, which will provide LCSs equipped with that system to 
counter some, but not all, threat torpedoes. The lightweight tow 
countermeasure is still in development, but the Navy has completed some 
initial testing of prototypes. Most recently the Navy has determined 
that LCS seaframes will need to be modified for the employment of this 
system; these changes will be implemented on LCS 7, LCS 10, and all 
future seaframes planned to receive an ASW mission package. The Navy 
has not yet addressed the plan for backfitting these changes in earlier 
seaframes. Nor is there any plan to outfit other LCSs equipped with MCM 
or SUW mission packages with torpedo defense capabilities, making those 
ships reliant on protection from a second LCS, equipped with the ASW 
mission package, or an Aegis combatant that is operating nearby.
    With respect to the ability to engage a submarine once detected, 
LCS will be less capable than Navy frigates or other ASW-capable 
surface ships. LCS has no organic capability to engage submarines and 
must rely on a single embarked helicopter to deliver torpedoes, whereas 
FFGs have the capacity to launch two helicopters (meaning at least one 
is more likely to be available), or use over-the-side torpedo launchers 
to engage nearby targets immediately. LCS, along with other Navy units, 
will suffer from the limitations of the Mk 54 torpedo's effectiveness 
and lethality recently discovered in testing; these problems affect 
LCS, DDGs, P-8, P-3, and helicopter effectiveness in ASW missions, and 
warrant a concerted effort to correct as soon as possible.
                           lcs-frigate design
    In December 2015, the Secretary of Defense curtailed the buy of 
LCSs from 52 to 40, citing that a rebalancing of capability is needed 
to ``reverse the trend of prioritizing quantity over lethality'' and 
``reduce the number of LCS available for presence operations,'' a need 
that will be met by other high-end ships. The Secretary's decision is 
supported by the results of operational testing and the lack of 
lethality demonstrated by LCS to date. Of those 40, the Navy now plans 
to build the last 12 as a modified version of LCS that is more frigate-
like. I have reported multiple times on the anticipated capabilities 
and limitations of the envisioned LCS-frigate; my most comprehensive 
assessment was provided in recent Congressionally-directed reporting 
requirements and in the assessment the Secretary requested of my office 
when the Small Surface Combatant Task Force was stood up in late 2014. 
I summarize some of my observations here from that and other recent 
reports.
    The Navy's Small Surface Combatant Task Force identified that only 
major modifications to the existing LCS design could provide the Navy 
the survivability and lethality characteristics of past frigates 
desired for the future Small Surface Combatant. Because of the Navy's 
decision to keep the LCS seaframe, any future small combatant will, by 
and large, inherit the limited survivability characteristics inherent 
to the LCS design as well as the limitations in space, weight, power, 
and cooling.
    The Joint Staff recently approved a CDD for the LCS-Frigate. The 
CDD requires that the modified LCS be multi-mission capable, more 
lethal, and more survivable. Its primary missions will be ASW and SUW, 
but is also required to be capable of launching an over-the-horizon 
missile, albeit without a clearly specified means of target 
designation. Because of the space, weight, power, and cooling 
limitations inherent in the current LCS design, the LCS-frigate most 
likely will not meet all of the requirements specified in the CDD 
simultaneously; this was a finding from the Navy's Small Surface 
Combatant Task Force. It will most likely require swapping mission 
modules or components of the modules to provide either the full mission 
capability for SUW or ASW, but not all of the capabilities of both 
mission sets simultaneously. In my estimation, the LCS-frigate will, 
therefore, not be a true multi-mission frigate. For example, the LCS-
frigate configured with full SUW capability, would likely only retain 
an acoustic towed array and towed torpedo countermeasure to provide the 
ship some limited submarine detection capability and a torpedo defense 
capability, but not an active sonar. While such a configuration is 
clearly more capable than an LCS equipped with the SUW-mission package 
alone, it does not enable the LCS-frigate to conduct full ASW missions 
with an active sonar and act as an effective escort to high-value naval 
units.
    Moreover, the ship's ability to simultaneously be equipped to 
conduct these missions plus others such as land-attack, anti-ship 
warfare, or provide local air defense to other Navy units (a 
traditional frigate role) are likely infeasible given the limitations 
imposed by this design. The Navy's Small Surface Combatant Task Force 
identified that if a true multi-mission SUW, ASW, and local area 
defense air warfare capability (for the frigate to be able to act as an 
escort) are desired, then a major design change to the LCS seaframes or 
a new design would be required.
    I have previously expressed my concern that the CDD relegates all 
mission performance measures, other than the two measures for force 
protection against surface and air threats, to Key System Attributes 
rather than Key Performance Parameters, which permits the combat 
capabilities desired in these follow-on ships to be traded away as 
needed to remain within the cost constraints. As a result, the new LCS-
frigate could, in the extreme, be delivered with less mission 
capability than desired and with limited improvements to the 
survivability of the ship in a combat environment. In fact, the LCS-
frigate could meet all its KPPs without having any mission capability.
    The vulnerability reduction features proposed for the LCS-frigate, 
while desired and beneficial, provide no significant improvement in the 
ship's survivability. Notwithstanding potential reductions to its 
susceptibility due to improved electronic warfare system and torpedo 
defense, minor modifications to LCS (e.g., magazine armoring) will not 
yield a ship that is significantly more survivable than LCS when 
engaged with threat missiles, torpedoes, and mines expected in major 
combat operations. The vulnerability reduction features included in the 
FFGs the Navy has deployed in the past made them significantly more 
survivable than an LCS. The LCS-frigate requirements do not address the 
most likely causes of ship and mission loss against certain threats. 
Specifically, the current LCS seaframes do not have sufficient 
separation and redundancy in their vital systems to recover damaged 
capability. Because the LCS-frigate design is not substantially 
different from the LCS Flight 0+ baseline and will not add much more 
redundancy or greater separation of critical equipment or additional 
compartmentation, it will be less survivable than the Navy's previous 
frigate class.
    The Navy does plan several susceptibility reduction features to 
offset the above-described limitations of the seaframes. Testing has 
demonstrated that while the proposed susceptibility reduction features 
are clearly desirable, they do not reduce susceptibility to being hit 
to a value at all close to zero. Therefore, the incorporation of these 
features does not allow the assumption the ships will not be hit in 
high-intensity combat. The susceptibility reduction features to be 
incorporated in the LCS-frigate would not eliminate the possibility of 
being hit, and would, therefore, not provide significant improvement in 
the ship's overall survivability relative to the current LCS.
    Finally, while the Navy is examining methods to reduce weight, it 
is anticipated the LCS-frigate, because of the simultaneous employment 
of ASW and SUW equipment, will be significantly heavier than the 
existing LCS resulting in a lower maximum sprint speed and less fuel 
endurance. The loss of sprint speed will therefore affect its success 
in small boat swarm defense, and its ability to keep up with a carrier 
strike group.
    At a recent Surface Navy Association national symposium, the 
Secretary of the Navy redesignated LCS as a frigate, stating that LCS 
can ``deploy with a carrier strike group,'' has ``robust anti-mine and 
anti-submarine warfare capabilities'' and ``is capable of putting the 
enemy fleet on the bottom of the ocean.'' \8\ None of these claims 
appear to be supported by the current capabilities demonstrated in 
testing, and instead describe a ship that is not yet built and under 
current Navy plans may never be built. Current LCSs do not have the 
endurance to deploy with a carrier strike group, its ASW and MCM 
mission packages do not yet exist, LCS has no anti-ship weapon to sink 
enemy combatants, and only a limited capability to sink a few small 
fast attack craft as I previous described. Some subset of these 
capabilities may yet come to fruition in the coming years; however, 
currently, LCS's limited lethality make these ships a shadow of the 
abilities of modern navy frigates.
---------------------------------------------------------------------------
    \8\ See also the Senate Armed Services Committee letter to 
Secretary Mabus and Chief of Naval Operations Admiral Richardson dated 
February 5, 2016.
---------------------------------------------------------------------------
                    future test and evaluation plans
    In response to conditions that the fiscal year 2016 National 
Defense Authorization Act placed on the availability of LCS program 
funding, the Navy successfully completed a partial update of the LCS 
Test and Evaluation Master Plan (TEMP) to support future OT&E of the 
seaframes and mission packages. Congress required the update to support 
planning of the needed testing of the Increment 3 SUW mission package, 
the ASW mission package, to reflect the significant changes to the 
program's air defense plans, as well as MCM mission package development 
and composition. I approved the change pages to the TEMP in March 2016. 
Additional updates are now required to complete a revision to the TEMP, 
including developmental and integrated testing plans, changes to 
reflect the Navy's evolving plans for the MCM mission package, air 
defense testing of the seaframes, and plans for providing seaframes 
with an over-the-horizon missile capability.
    In closing, I would like to emphasize that operational, live-fire, 
and operationally-realistic developmental testing have been essential 
in identifying the significant problems that need to be overcome for 
this program to be successful. Although I had predicted the poor 
performance in my earlier reporting on the MCM mission package, it was 
only in testing of the full mission package, at sea, and aboard the 
ship with a trained crew that the Department was able to discover the 
significant problems and shortfalls that crews would face in MCM 
missions. In fact, the Navy's independent review team emphasized that a 
reliance on shore-based metrics and shore-based testing ``provided a 
false sense of [system] maturity''. Similarly, only in operationally-
realistic testing of the SUW mission package were the inaccuracies of 
the gun, the limitations of the ship's maneuvering and tactics, and the 
deficient training revealed, and the overall effectiveness of the ship 
in those missions characterized. Testing should not be limited to only 
self-defense scenarios (as has been suggested by a narrow reading of 
the requirements), but should examine the LCS's ability to escort other 
ships, as a frigate would. I continue to recommend to the Navy that 
adequate developmental and operational testing be funded and conducted 
to ensure that the future capabilities envisioned for LCS are 
adequately characterized, and problems discovered and fixed prior to 
deployment and future procurements.

    Chairman McCain. Thank you. Secretary Stackley?

 STATEMENT OF HONORABLE SEAN J. STACKLEY, ASSISTANT SECRETARY 
   FOR RESEARCH, DEVELOPMENT, AND ACQUISITION, UNITED STATES 
               DEPARTMENT OF NAVY, WASHINGTON, DC

    Mr. Stackley. Yes, sir. Mr. Chairman, Ranking Member Reed, 
members of the committee, thank you for the opportunity to 
appear before you today to address the Littoral Combat Ship 
Program. With your permission, I would like to make a brief 
opening statement and have my full testimony entered into the 
record.
    Chairman McCain. Without objection.
    Mr. Stackley. The Littoral Combat Ship, or LCS, is designed 
to fill critical warfighting gaps in anti-surface, anti-
submarine, and mine countermeasure warfare mission areas. 
Within the Navy's overall balanced force structure, LCS is the 
replacement for three legacy small service command ship 
classes. It is about one-third the size of a DDG-51-class 
destroyer and designed for missions that the destroyer is not 
equipped to do or that could otherwise be well performed by a 
small surface combatant, thus freeing the destroyer for 
missions tailored for its higher-end capabilities.
    LCS' reduced size results in greatly reduced procurement 
cost, manpower and operating and support costs. In fact, the 
procurement cost for LCS is about one-third that of a DDG-51 
and, likewise, the manpower requirements for the ship.
    The LCS hull is designed and built to provide the ship with 
its high-speed mobility, damage control survivability, 
aviation, and combat systems, including a 57-millimeter gun, 
surface to air missiles for self-defense, and an over-the-
horizon missile that the Navy is currently adding for offensive 
firepower against long-range surface targets. In addition to 
this core capability, this ship carries a modular mission 
package tailored for the missions planned for each ship's 
deployment.
    The Surface Warfare Mission Package adds 30-millimeter 
guns, an armed helicopter, unmanned aerial vehicle for extended 
surveillance, and surface-to-surface missiles. The Anti-
Submarine Warfare, or ASW, Mission Package adds a variable 
depth sonar that operates in tandem with a multifunction towed 
array, an ASW helicopter with dipping sonar, sonobuoys and 
anti-drop torpedoes, anti-tow decoy. The Mine Countermeasure 
Mission Package adds air, unmanned surface, and unmanned 
underwater vehicles with associated sensors and systems to 
detect and neutralize mines.
    There are four cornerstones of the program that I would 
like to briefly summarize. First, the shipbuilding program. As 
the committee is well aware, the LCS program was initiated with 
unrealistic cost and schedule estimates and with highly 
incomplete design, resulting in extraordinary budget overruns 
and scheduled growth. The program was subsequently 
restructured. Production was placed on hold pending the 
insertion of production readiness reviews to verify design 
quality and completeness. Authorizations to approve design 
requirement changes was raised to the four-star level, 
specifically the CNO and myself.
    Navy oversight of the shipyards was greatly increased. The 
acquisition strategy was restructured to compete long-term 
contracts under fixed price terms and conditions. In response 
to the strategy, industry made significant investments in terms 
of skilled, labor, and facilities to improve productivity and 
quality.
    As a result, costs, schedule, and quality have greatly 
improved such that current ships under construction are 
delivering at less than half the constant year-dollar cost of 
the lead ships, performance has stayed reliably within the 
budget throughout this time, and the quality of each ship has 
successively improved as measured by the Navy's Board of 
Inspection survey. Bottom line, LCS construction is stable, and 
performance continues to improve on a healthy learning curve.
    Of note, the CNO and I have implemented a similar rule set 
across all of shipbuilding, and though we were not able to get 
out in front of all of our lead ship programs, cost discipline 
from requirements, to design, to production and testing has 
been firmly drilled into place throughout the Navy.
    Second, mission packages. The program's acquisition 
strategy is that we will incrementally introduce weapon systems 
as part of a mission package when they are mature and ready for 
deployment. Consistent with this approach, the LCS has been 
successful at integrating mature weapon systems, such as the 
Image 60 helicopter, the Fire Scout unmanned aerial vehicle, 
11-meter rigid hull inflatable boats [RHIBs], the Mark 50 30-
millimeter gun system, and most recently we are seeing the 
Harpoon Block II over-the-horizon missile integrated and 
deployed. We are currently integrating the Hellfire Longbow 
Missile in support of testing in 2017. As a result, we have 
successfully fielded the first increments of the Surface 
Warfare Mission Package and are on track to complete the next 
increment in 2018.
    The next mission package we will field is the Anti-
Submarine Warfare, or ASW, Mission Package. The performance of 
this system, as demonstrated by its prototype in 2014, greatly 
exceeds that of any other ASW sensor system afloat. We are 
currently in the process of awarding the contract to build the 
developmental model which will be put to sea for shipboard 
testing on LCS in 2018.
    These are relative success stories that demonstrate the 
benefit provided by the LCS modular design and mission package 
approach. As the Navy develops or requires new weapons systems 
appropriate to the LCS mission, we will leverage the ship's 
modular design and flow these new weapons to this ship, and be 
able to do so in rapid fashion once they are mature.
    We have run headlong, however, into challenges with 
developing these capabilities that are central to filling what 
is arguably one of the Navy's most critical warfighting gaps, 
and that is mine countermeasures, or MCM, warfare. The Navy 
requirements for LCS/MCM are to locate, identify, and clear 
mines at a rate that significantly exceeds our current 
capability, and to do so without putting the ship or the sailor 
into the minefield.
    The MCM Warfare Mission Package airborne capability and MH-
60 helicopter, carrying an Airborne Laser Mine Detection System 
that locates mines in the upper layer of the water column, and 
an Airborne Mine Neutralization System that destroys mines 
below the surface, has completed testing and we are ready to 
deploy it. Additionally, an unmanned aerial vehicle carrying a 
sensor capable of detecting mine-like objects in the surf zone 
close to shore is on track to complete testing in 2017.
    The true workhorse of the MCM Mission Package, however, is 
the high-endurance unmanned vehicle with its towed sonar 
system, which we rely upon to achieve the high area clearance 
rate required by our operational plans. The Navy is satisfied 
with the performance of the towed sonar system and its ability 
to detect mines as demonstrated in developmental testing. We 
expect to demonstrate further improvements to the sonar in 
conjunction with ongoing upgrades.
    The unmanned vehicle, however, which is actually a semi-
submersible, referred to as a remote multi-mission vehicle, has 
failed to meet our reliability requirements. Despite extensive 
redesign efforts, following a series of test failures, we 
stopped testing and assigned an independent review team to 
assess and recommend. The results of this review were 
threefold: low confidence that continuing our current path 
would result in a reliable vehicle; higher confidence that 
advances in towed sonar handling and acoustic processing have 
greatly reduced the risk associated with towing the mine 
detection sonar with an alternative unmanned surface vehicle; 
and recognition that the long-term solution will be to 
eliminate the towed vehicle altogether, and operate with an 
unmanned underwater vehicle with an embedded sonar when 
technology can support it.
    As a result of these findings, we have restructured the MCM 
Mission Package to utilize the unmanned surface vehicle that is 
currently being built to tow the Mine Sweeping System to 
likewise tow the mine detection sonar. Testing with this 
vehicle is scheduled to commence in 2019.
    The third cornerstone is performance of in-service ships. 
Vice Admiral Rowden will address performance of the ships and 
operations and on deployment as well as the details of the LCS 
review he conducted. I would like to address the ship's 
material readiness.
    In total, LCS material readiness, as reflected in 
operational availability metrics and casualty report metrics, 
is consistent with other combatant ship classes. However, over 
the past year five ships have been operationally impacted by 
engineering casualties of concern. The Navy has conducted 
formal engineering reviews and command investigations to assess 
the root causes and corrective actions for each of these 
casualties.
    One was design related. A new manufacturer was required for 
the Freedom-variant propulsion gear, and operational deficiency 
traced to the gear itself resulted in the gear's clutch 
failure. Design modifications have been developed, and are 
being tested, and will be incorporated in future ships prior to 
delivery and during pro-shakedown availability for the two 
ships delivered that are affected. The manufacturer is being 
held accountable.
    Chairman McCain. Mr. Secretary, you will have to summarize 
here.
    Mr. Stackley. Yes, sir.
    Chairman McCain. We have a limited amount of time and four 
witnesses. Please summarize if you can.
    Mr. Stackley. Yes, sir. The manufacturer is being held 
accountable for these corrective actions.
    Two of the five engineering casualties were due to crews 
departing from established operating procedures. The type 
commander is implementing corrective actions associated with 
those to ensure good order and discipline going forward, as 
well as reviewing training and operational procedures.
    The remaining two casualties are traced to deficiencies in 
ship construction and repair. We are reviewing all those 
procedures across not just the shipbuilders, but the 
manufacturers, and the repair yards, and the Navy standards to 
ensure we have the right procedures in place and that they are 
properly being carried out by the shipbuilders and repair 
yards. In those specific cases where warranties apply, the 
shipbuilder is paying for those repairs.
    More importantly, we do need to raise the level of 
engineering design, and discipline, and rigor on the new ship 
class to that of zero tolerance for departure from standards. 
In this vein the Naval Sea Systems Command has initiated a 
comprehensive engineering review, and will provide their 
findings to the committee upon completion of the review.
    The fourth cornerstone is transition to the frigate. As you 
are aware, we have revised the plan going forward for small 
surface combatants. Commencing in 2019, our intention is to 
transition from LCS to a multi-mission ship that incorporates 
the ASW plus the Surface War Mission Package capabilities of 
the LCS into a multi-mission frigate going forward. We are 
working that design today.
    The message I want delivered to this committee is that as 
we complete this design, before we proceed into production of a 
future frigate, we will conduct the production readiness 
reviews. We will ensure that the design is complete and ready 
to go. We will ensure that the requirements are stable, and we 
will open the books and invite this committee to participate 
throughout that review process.
    Mr. Chairman, thank you for the opportunity to discuss this 
important program. I look forward to answering your questions.
    [The prepared statement of Mr. Stackley and VADM Thomas S. 
Rowden follows:]

Prepared Statement by The Honorable Sean J. Stackley and VADM Thomas S. 
                                 Rowden
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for the opportunity to appear before you and 
discuss the current status of the Littoral Combat Ship (LCS) program, 
specifically to discuss the outcomes and implementation of the LCS 
Review, status of the delivered ships and the mission packages, and the 
current status of the transition from LCS to Frigate (FF). We 
appreciate the opportunity to provide the Navy's assessment of the 
various issues raised of late as well as provide an update on the 
significant progress we have made in the program over the last few 
years.
                              introduction
    The LCS program is of critical importance to our Navy. It consists 
of a modular, reconfigurable Seaframe, designed to meet validated Fleet 
requirements for Surface Warfare (SUW), Anti-Submarine Warfare (ASW), 
and Mine Countermeasures (MCM) missions in the littoral region through 
the use of modular mission packages (MPs). LCS was designed as a 
focused-mission surface combatant to replace our legacy small surface 
combatants; Oliver Hazard Perry-class Frigates, Avenger-class MCMs, and 
Patrol Craft. The ship, independent of an embarked mission, package 
provides air warfare self-defense capability with anti-air missiles, a 
high rate of fire 57mm gun, 3D air search radar, electronic warfare 
systems, and decoys for electronic warfare. The Navy is currently 
adding a capability improvement that outfits each deployed LCS with an 
Over the Horizon (OTH) Missile system. LCS ships will embark an 
aviation detachment and helicopter along with a vertical take-off 
unmanned air vehicle (referred to as Fire Scout). With its shallow 
draft, great speed, and interchangeable modules, LCS will provide 
increased warfighting flexibility to our Fleet and close critical 
warfighting gaps in mine warfare, anti-submarine warfare and surface 
warfare. The modular, open systems architecture inherent in LCS allows 
for rapid, affordable integration of new warfighting capabilities as 
technology evolves. This approach is consistent with the objectives of 
Defense Strategic Guidance directive to develop innovative, low-cost, 
and small-footprint approaches to achieve our security objectives. LCS 
complements our surface fleet and brings unique strengths and 
capabilities to the Fleet's mission. She will be our predominant MCM 
capability, and will deliver game changing ASW capability at an 
affordable cost while freeing up the higher end multi-mission large 
surface combatants to focus on their primary missions such as area air 
defense, land strike, and ballistic missile defense. With 67 percent of 
Surface Combatant Total Life Cycle Cost being driven by operations and 
sustainment (O&S) costs, the LCS and Frigate (deployed more than half 
of their lifecycle and costing less than one third the O&S of a DDG per 
deployed year) provide fleet commanders with the quantity of ships 
needed that are capable of accomplishing critical missions within a 
challenging budget environment.
    The LCS is capable of operating in a wide range of environments, 
from the open ocean to coastal, shallow water regions known as the 
littorals. LCS uses an open architecture design, modular weapons and 
sensor systems, and a variety of manned and unmanned vehicles to help 
gain and sustain maritime supremacy in the littorals, assuring access 
to critical areas of operation. LCS will be an integral component in 
countering adversary anti-access/area denial operations: clearing 
mines; neutralizing enemy submarines; and defeating hostile swarming 
surface craft. The Navy plans for LCS to be used in rotational 
deployments in support of our nation's rebalance efforts to the Western 
Pacific. As LCS forward presence increases, these ships will play a 
significant role in defense cooperation and naval engagements that 
contribute to maintaining freedom of the seas while deterring conflict 
and coercion.
    The 2013 deployment of USS Freedom (LCS 1) to the Asia-Pacific 
region demonstrated the ability of LCS to conduct several of the core 
missions of the Cooperative Strategy for 21st Century Seapower. Freedom 
and her crews conducted operations and exercises, ranging from 
demonstrating forward presence while executing operational tasking in 
the South China Sea to providing humanitarian assistance/disaster 
relief support in the Philippines following Super Typhoon Haiyan. USS 
Fort Worth (LCS 3) deployed to the Asia Pacific Region in November 2014 
and assisted in the AirAsia plane recovery search efforts and multiple 
international exercises. Most recently, USS Coronado (LCS 4) deployed 
to Singapore which marks the first overseas deployment of the 
Independence variant in which she will participate in a full range of 
LCS missions to include opportunities to operate with partner nations.
    Currently, there are eight LCS in the Fleet, with another eighteen 
on contract. By 2018, LCS will be the second largest surface ship class 
in the Navy. The designs are stable, new yard facilities are in place, 
with a right-sized, qualified work force, and both shipyards and 
industry teams are in full serial production in order to ensure each 
can deliver two ships per year. Today, the LCS program is on budget and 
below the Congressional cost cap. The block buy contracts for the 
fiscal year (FY) 2010 through fiscal year 2016 ships resulted in 
continued reductions in the LCS shipbuilding program's production unit 
costs, and both shipyards are building these ships in an affordable 
manner.
    With a stable design and a mature production line, we have been 
able to make significant progress in completing both ship and mission 
package testing requirements. Both variants have completed initial 
operational test and evaluation (IOT&E) and have achieved Initial 
Operational Capability (IOC). This year both variants conducted 
Director, Operational Test and Evaluation (DOT&E) approved Live Fire 
Test and Evaluation Full Ship Shock Trial (FSST) events. Our detailed 
analysis of the shock trial's results is in progress but all test 
objectives were met. Both the Freedom and Independence variant ships 
demonstrated the ability to survive the degrading effects of the 
underwater shock event associated with the close-proximity detonation 
of a 10,000 pound charge. We have now completed all required testing 
for the ships themselves and are incorporating lessons learned from 
that testing into future LCS and FF ships.
    Additionally, we continue testing and making progress for all three 
mission packages on both variants, incrementally bringing new 
capability to the Fleet.

    <bullet>  Surface Warfare Mission Package (SUW MP): The SUW MP will 
make LCS the most capable ship in the Navy in countering the Fast 
Inshore Attack Craft/Fast Attack Craft (FIAC/FAC) threat. The Navy is 
delivering this capability in three increments with full MP IOC 
anticipated in fiscal year 2020: o Increments 1 and 2 consist of an 
Aviation Module (MH-60R with Hellfire Missiles), a Maritime Security 
Module (two 11-meter manned rigid-hull inflatable boats (RHIBs), and 
two 30mm guns. Increments 1 and 2 for the SUW MP, achieved IOC in 2014. 
This has allowed the Fleet to deploy LCS with enhanced SUW capability, 
most recently with the current deployment of USS Coronado to the 
Western Pacific.
      o  Increment 3 consists of the Vertical Take-off and Landing 
Tactical Unmanned Aerial Vehicle (VTUAV) and the Surface to Surface 
Missile Module (SSMM) armed with the Longbow Hellfire Missile.
      o  USS Fort Worth (LCS 3), with an embarked SUW MP, conducted an 
extended operational deployment based out of Singapore. This SUW MP 
included a composite aviation detachment of one MQ-8B Fire Scout VTUAV 
and one MH-60R helicopter. This was the first time that such a 
combination had been deployed. The SUW MP, through its Maritime 
Security Module and aviation components, was extensively employed 
during the ship's search and rescue efforts for Air Asia flight 8501 in 
January 2015.
    <bullet>  Anti-Submarine Warfare Mission Package (ASW MP): The ASW 
MP will significantly increase the Navy's ASW capability and capacity. 
It consists of three modules netted together to continuously exploit 
real-time undersea data: a Torpedo Defense and Countermeasures Module 
(Light Weight Tow); an ASW Escort Module (Multi-Function Towed Array 
Acoustic Receiver (MFTA) and Variable Depth Sonar (VDS)); and an 
Aviation Module (MH-60R Helicopter and VTUAV). The ASW MP had a 
successful at-sea demo in 2014. ASW Escort Mission Module testing will 
commence in fiscal year 2018 in support of IOC in fiscal year 2019.
    <bullet>  Mine Countermeasure Mission Package (MCM MP): The MCM MP 
will replace aging legacy MCM equipment, significantly reducing the 
timeline for access to the contested littorals and removing the ship 
and crew from the minefield. The Navy is delivering this capability in 
four increments, with full MP IOC in fiscal year 2021: o Increment 1 
consists of a Minehunting Vehicle towing a Sonar Mine Detecting Set, an 
Airborne Laser Mine Detection Set (ALMDS), an Airborne Mine 
Neutralization System (AMNS), and the MH-60S Helicopter. This increment 
provides the capability to detect waterborne mine threats throughout 
the water column and on the sea floor. IOC was declared in November 
2016 for ALMDS and AMNS.
      o  Increment 2 consists of Coastal Battlefield Reconnaissance and 
Analysis (COBRA) and VTUAV which provides the capability to detect mine 
threats and obstacles on the beach and in the surf zone.
      o  Increment 3 consists of an Unmanned Influence Sweep System and 
an Unmanned Surface Vehicle which provides the capability to sweep 
acoustic and magnetic mine threats throughout the water column and on 
the sea floor.
      o  Increment 4 consists of the Surface MCM Unmanned Underwater 
Vehicle (UUV) (Knifefish) which provides the capability to detect, 
classify and identify bottom and volume mines, including buried mines 
and stealthy mines.

    As you are aware, the Navy is in the midst of a transition from 
focused mission LCS platforms with modular Mission Packages to a multi-
mission FF capable of conducting simultaneous anti-surface warfare 
(ASuW) and anti-submarine warfare (ASW) missions as well as providing 
effective air, surface and underwater self-defense capabilities. It 
will be equipped with OTH surface-to-surface missiles in addition to 
LCS baseline SUW and ASW MP capabilities, and have additional upgrades 
to combat systems, electronic warfare systems, and ship survivability 
features. The FF will complement our inherent blue water capability and 
fill warfighting gaps in the littorals and strategic choke points 
around the world.
                       status of delivered ships
    Each of the eight LCS that are in service was delivered at a 
successively lower cost, and with improved reliability as compared to 
their predecessors. We continue to capture lessons learned and refine 
the Concept of Operations (CONOPs) for operating these ships forward, 
as demonstrated, for example, by the development and execution of the 
Expeditionary Maintenance Capability (EMC). During USS Fort Worth's 
(LCS 3) deployment to the South China Sea from November 2014 through 
January 2016, she followed the LCS maintenance and sustainment model, 
pulling into port every 4-6 weeks for a week-long preventative 
maintenance availability and every 4-6 months for a two-week corrective 
maintenance availability and core crew turnover. Although this 
maintenance was typically conducted in the LCS Forward Operating 
Station (FOS) in Singapore, the EMC concept also allowed this 
maintenance to be conducted in Sasebo, Japan, to better support USS 
Fort Worth's tasking in the Northwest Pacific. This EMC approach has 
significantly expanded the operational employment of the LCS in 
theater, allowing the ships to operate for extended periods far removed 
from the FOS. The same capability was delivered to Singapore in advance 
of USS Coronado's arrival to support the execution of planned 
maintenance in remote locations for the Independence variant as well. 
This model was proven effective at supporting sustained forward 
deployed operations.
    During her deployment, USS Fort Worth conducted U.S. and 
multinational operations from India to Japan and also successfully 
demonstrated the ability to perform in high-tempo environments just 
days after entering theater. USS Fort Worth's first 12 months forward 
offer significant insight into the potential of these ships:

    <bullet>  Operated side-by-side and hull-to-hull with valued 
Southeast and South Asia partners during seven theater security 
cooperation (CARAT) exercises, MALABAR with India and with Northeast 
Asian allies during OPLAN training operations (FOAL EAGLE);
    <bullet>  Contributed to theater CONOPs by executing freedom of 
navigation and presence operations in the South China Sea;
    <bullet>  Supported multi-national Humanitarian Assistance Disaster 
Response missions, such as the search and recovery mission for AirAsia 
flight 8501 on 96-hours' notice less than one week after arriving in 
Singapore; and
    <bullet>  Executed an expeditionary maintenance period in Sasebo, 
Japan and leveraged fueling resources in Subic Bay, Philippines, thus 
extending LCS's operational range and bringing the logistical hub-and-
spoke model to life.

    USS Freedom completed a 10-month (pre-IOC) deployment in 2013, 
conducting similar operations in the same locations as USS Fort Worth. 
Comparing the reliability and maintenance records of these two 
deployments, only a year apart, demonstrates how effectively the LCS 
Fleet has incorporated lessons learned and best practices to improve 
operational availability. During an equivalent 10-month period, USS 
Fort Worth was underway 33 percent more, spent less time pierside 
conducting maintenance, conducted maintenance away from Singapore, and 
experienced fewer casualties. These initial deployments of the USS Fort 
Worth and USS Freedom demonstrate the increasing capabilities that LCS 
will continue to bring to the Navy as the program matures.
    As we increase our operational experience with LCS, we are closely 
monitoring material readiness and making changes, as warranted to 
improve operational availability. In total, LCS readiness as reflected 
in operational availability and casualty report metrics is consistent 
with other combatant ship classes. However, we are quickly and strongly 
addressing issues as they emerge to raise the system reliability to yet 
higher levels sooner in this new class. Of particular concern, five LCS 
class ships have been operationally impacted by propulsion casualties 
in the past year. The Navy has conducted formal engineering reviews and 
command investigations to assess the root cause and corrective action 
for each of the casualties. In general, the root causes can be broken 
into three separate categories: procedural non-compliance (failure to 
follow approved engineering procedures); design related deficiencies; 
or production-related deficiencies.
    Two of the five engineering casualties were related to procedural 
(non-) compliance:
    The first such casualty occurred onboard USS Fort Worth while 
inport Singapore, after 12 months of her 14 month maiden deployment. As 
a result of improper alignment of the lube oil service system (as 
outlined by the ship's Engineering Operating Procedures), three of the 
five bearings in the Combining Gear were damaged and USS Fort Worth was 
unable to continue her mission in the western Pacific. Upon completion 
of repairs, the ship departed Singapore and returned to San Diego in 
early October 2016.
    The second casualty related to procedural (non-) compliance 
occurred onboard USS Freedom while inport San Diego. Improper 
corrective action following the routine failure of Freedom's Main 
Propulsion Diesel Engine (MPDE) attached seawater pump mechanical seal 
resulted in seawater contamination of the engine. Upon subsequent 
inspection, significant corrosion and damage was discovered inside the 
MPDE. The affected engine is planned for replacement commencing 
December 2016.
    In response to these procedural compliance issues, the type 
commander has conducted a formal investigation and root cause analysis 
on both casualties. The commander, Naval Surface Forces directed an 
engineering stand down for all LCS-class crews to review, evaluate, and 
renew their commitment to safe ship operation, procedural compliance, 
and good engineering practices. Additionally, the Navy's Surface 
Warfare Officer's School Command is revising the current LCS training 
program, to include LCS specific engineering training and related 
proficiency examinations. In parallel, the Naval Sea Systems Command 
(NAVSEA) is reviewing design details for potential design enhancements 
that may mitigate the possibility of such operator errors.
    One of the five engineering casualties was specifically design-
related:
    While operating USS Milwaukee (LCS 5) on all four engines at full 
power during transit in the Atlantic, an emergency stop of the gas 
turbine engines led to excessive wear of the high speed clutch causing 
damage to the high speed clutch and combining gear. Root cause analysis 
is in progress, but the combining gear on LCS 5 and follow is a new 
design (prior manufacturer ceased operations), and changes to the 
control logic for the de-clutch sequence and clutch piston release 
speed associated with the new design are apparent causes. Design 
modifications based on root causes have been developed and are being 
tested by Lockheed Martin and RENK (the gear manufacturer), in parallel 
with ongoing root cause analysis efforts. Pending satisfactory testing 
this month (December 2016), the associated high speed clutch 
modifications and machinery control software updates will be applied to 
LCS 9 and follow prior to delivery and LCS 5 and 7 during their Post 
Shakedown Availabilities (PSAs). LCS 1 and LCS 3 gear sets are not 
affected.
    The remaining two engineering casualties trace to deficiencies in 
the ship construction process:
    USS Coronado (LCS 4) experienced a failure of the flexible shaft 
coupling between the starboard MPDE reduction gear and stern tube 
during transit from Hawaii to Singapore. A failure review board was 
convened, and while material testing of the failed coupling is still in 
progress, shaft misalignment has been identified as a contributing 
factor in the root cause analysis. An alignment summit with the 
shipbuilder, NAVSEA design engineers, the Original Equipment 
Manufacturer, the Supervisor of Shipbuilding, and the Program Office 
has since been conducted to review, validate, and better document 
waterborne alignment procedures. The coupling in LCS 4 was replaced 
with a new coupling design in Hawaii. USS Coronado is now on station in 
Singapore on her maiden deployment. This new coupling design has 
already been installed on LCS 6 and follow ships.
    USS Montgomery (LCS 8) experienced a production deficiency related 
propulsion casualty shortly after sail away from the new construction 
shipyard. Prior to getting underway, the crew discovered seawater 
contamination in the steering hydraulic system for one of the four 
waterjets. The shipbuilder drained the system, replaced the system's 
seawater cooler, and flushed the system restoring full waterjet 
functionality. The root cause assessment determined that the cooler had 
not failed, but rather contamination was introduced into the system 
most likely in conjunction with the repair of a component external to 
the hull in the period between delivery and sailaway from the building 
yard. The shipbuilder has since implemented an improved procedure for 
waterborne waterjet hydraulic work.
    The Navy has taken a consistent and rigorous approach in assessing 
and addressing root causes of equipment casualties in LCS. Early 
deficiencies in the designs of each variant have been addressed in 
follow ships, but there is still work to be done in increasing the 
operational availability of the ships in-service. In response, NAVSEA 
has initiated a comprehensive engineering review of both propulsion 
trains, to include logistics and training, and will report their 
findings upon completion of the review.
                               lcs review
    In February of this year, the Navy initiated a review of the LCS 
program to assess the concept of operations based on lessons learned 
from Fleet operations and the early operational deployments of the 
ships. The review focused on LCS crewing, training, and maintenance 
based on experience gained and lessons learned by the program and Fleet 
during operations and ship deployments. The review noted that USS Fort 
Worth's deployment many successes must be replicated on a larger scale 
and setting conditions for crews to excel forward is the Navy's first 
priority. With this in mind, the Review Team identified challenges with 
regard to manning, crew training, maintenance, and operational testing, 
identifying immediate and longer term recommendations to address those 
challenges, reduce risk, and strengthen the program. Immediate 
recommendations and enabling actions include the following:

    <bullet>  Single crew Pre-Commissioning Unit (PCU) hulls--As more 
hulls are delivered, pairing a single crew to a ship in construction 
for approximately 18 months allows the pre-commissioning crew to ``grow 
with their ship'' and places experienced crews where they matter most: 
on ships deployed forward.
    <bullet>  Forward Deploy all LCS in Blue/Gold Crewing Construct--
Implementing a Blue/Gold crew rotation approach will result in two 
crews rotating to the same hull every 4-5 months, forging a ``cycle of 
virtue'' between the two crews who will consistently turn the same ship 
over to each other.
    <bullet>  Fuse the Core Crew and Mission Modules Detachments--
Although the overall number of personnel remains the same, merging core 
crews and mission module detachments into a single fused crew dedicated 
to a single mission will improve enlisted rating utilization, create 
crew stability, and reduce complexity.
    <bullet>  Stand up of a Maintenance Execution Team (MET)--Due to a 
LCS' small crew size, maintenance that would traditionally be performed 
by the crew on other vessels is outsourced to contractors for LCS. The 
LCS review recommended standing up a MET comprised of support from off-
hull, Active and Reserve Duty, and LCS Squadron Sailors to conduct 
preventive maintenance. The review found that minimally manned ships 
require a pool of trained personnel to fill watchbill and specialty 
qualification gaps. The MET would also serve to relieve the unforeseen 
tasking of ``shadow hours'' whereby crew members merely shadow 
contractors for force protection, security and safety purposes. The MET 
will conduct preventive maintenance while learning the operation and 
maintenance of their equipment, thereby reducing wasted manhours and 
increasing crew ownership. Additionally, a forward-deployed team 
(Destroyer Squadron 7) will complement MET functions overseas while 
also performing material assessments.
    <bullet>  Lengthen LCS Crew Turnover in Theatre to Include an O-6 
Assessment--As recommended in the recent USS Fort Worth Command 
Investigation, this longer time period will enhance the oncoming crew's 
situational awareness and allow the combined crews to perform critical 
maintenance tasks together if needed. Broadly resembling an approach 
used in SSGN turnovers, O-6 assessments during turnovers will provide 
leadership greater awareness of crew readiness.

    In addition to the immediate recommendations listed above, the 
review team identified the following longer-term recommendations:

    <bullet>  Establish Testing Ships--Assign the first four LCS ships 
(LCS 1 - 4) as dedicated CONUS-based testing, training, and surge 
platforms through Mission Package IOC, to be manned by a single crew 
and commanded by a post command LCS O-5 commander to insulate deploying 
ships from broader testing requirements. The ships will be maintained 
at deployable configurations and upgraded, as planned, to support the 
myriad of operational functions and integration intricacies of the 
associated mission packages to fully support testing. We will evaluate 
the effectiveness of these assets for this purpose in the near term, 
and if it becomes evident that a dedicated land-based facility would 
prove more efficient and effective, adjust accordingly.
    <bullet>  Establish Training Ships--Beyond the four test ships, 
divide the remaining 24 ships into six four-ship divisions of the same 
variant including a dedicated training ship in each division. Of the 
four ships, retain one training ship in CONUS to certify the Blue/Gold 
crews that will man the three forward deployed ships of each division. 
This approach provides a surge-ready LCS Fleet with more operational 
availability forward and an improved blend of ownership and stability. 
To support this concept, we will also homeport all Independence variant 
ships in San Diego, CA and all Freedom variant ships in Mayport, FL 
over time.
    <bullet>  Steady State: Establish Blue/Gold Crewing Construct with 
Training Ships--A Blue/Gold deployment approach is projected to present 
a more optimal rotational posture. This concept creates six four-ship 
divisions of the same variant including a dedicated training ship in 
each division. Of the four ships, one training ship will remain in 
CONUS to certify the Blue/Gold crews that will man the three forward 
deployed ships of each division. Also referred to as 7:4:3 (seven 
crews, four hulls, three ships forward), this approach provides a 
surge-ready LCS Fleet with more operational availability forward and an 
improved blend of ownership and stability beyond the legacy LCS 
operational 3:2:1 concept.

    In the course of this study, it became clear that the LCS crewing 
construct is the critical variable that most impacts other factors such 
as manning, training, maintenance, and--most importantly--operations. 
The LCS Review Team assessed manpower requirements in detail and 
implementation of these recommendations are underway. Changing to a 
Blue/Gold crew rotation (a tried-and-true model proven by the submarine 
Fleet) will increase LCS Sailors' familiarity with specific ship 
systems, enabling the crew to have a greater sense of ownership in 
their ships.
    Our assessment is that the recommended solutions from the Navy's 
recent review of LCS will yield the results needed to increase forward 
presence and provide a proven capability to our fleet commanders.
                     full ship shock trials (fsst)
    As part of the DOT&E approved Live Fire Test and Evaluation Plan 
for the LCS program, Full Ship Shock Trials were conducted on USS 
Jackson (Independence variant) and USS Milwaukee (Freedom variant) this 
summer. The unprecedented achievement of completing FSST on two 
different ships in a single test was the positive result of efficient 
test execution and effective ship performance under shock loading. Data 
collected during FSST is used to validate the models used to predict 
how a ship reacts to an underwater shock event. The results of the 
FSST, as well as other testing and modeling efforts, are then used to 
determine the overall survivability of the ship against the specified 
set of threats that the ship is required to meet.
    The LCS Program Office accomplished all FSST test objectives within 
budget, for both ship variants, demonstrating that the ships and ships' 
systems are able to survive the degrading effects of an underwater 
shock event. Initial results indicate that ship performance was 
consistent with requirements and the data collected shows a strong 
correlation to the modeling and simulations done before the trials. 
Data analysis is ongoing with final test reports expected in the third 
quarter of fiscal year 2017.
    In advance of the final report, the significant findings have been 
analyzed and recommended design changes are being assessed for 
incorporation into follow on hulls. In the Independence variant, 
modifications to some structural details in specific forward fuel tanks 
and bulkheads are being assessed and planned. The design work is 
complete and associated modifications will be accomplished in LCS 6 
during her upcoming PSA. In the Freedom variant, there is need for 
modification to reduction gear lube oil bellows to allow for greater 
travel and improved bracing of lube oil piping in the vicinity of the 
bellows. The majority of the required changes were implemented in LCS 5 
during the FSST period with the outstanding work to be completed in her 
PSA. For all follow ships of both variants, these relatively minor 
modifications will be accomplished at the most cost effective 
opportunity in the new construction window.
    The trials also highlighted the value of planned survivability 
improvements, beyond LCS threshold requirements, for both the LCS and 
FF ships. These improvements, which include hardening of potable water 
systems, chill water systems, and the ship's Anti-Ship Cruise Missile 
system, are part of the fiscal year 2017 LCS solicitation and are 
integral to the FF design.
                      mission package (mp) status
    Modular mission packages are a central feature of the LCS concept 
and provide the ship's main combat systems capability. The MP embarked 
is determined based on planned employment of the ship on a specific 
deployment or mission, optimized as needed for MCM, SUW, or ASW. The 
LCS Mission Module program is integrating, testing, and fielding 
mission packages in accordance with Fleet needs coupled with cost, 
schedule, and performance requirements. Rigorous and thorough testing 
in realistic environments continues to validate the mission modules 
concept and the mature capabilities in each increment. Stable funding 
is key to ensuring the MPs continue successful procurement, 
development, and testing.
    Surface Warfare (SUW) MP--The SUW MP provides a flexible capability 
to rapidly detect, track and prosecute small-boat threats, giving the 
joint force commander the capability to protect the Sea Base and move a 
force quickly through a choke point or other strategic waterway. The 
ship uses its speed and the SUW MP capabilities, including manned and 
unmanned aviation assets, to extend the ship's surveillance and attack 
potential. LCS configured with the SUW MP can also conduct maritime 
security operations, including those involving Maritime Interdiction 
Operation (MIO) and Expanded MIO for compliant and non-compliant VBSS. 
When augmented with the SUW MP, the LCS has enhanced detection and 
engagement capability against FIAC/FAC and similar littoral surface 
threats. The full SUW MP, when fielded and deployed, will make LCS the 
most capable ship in the Navy in countering the FIAC/FAC threat.
    IOC was declared for the SUW MP (Increment 1 and 2) aboard a 
Freedom variant LCS on November 25, 2014, and aboard an Independence 
variant LCS on December 24, 2015. It was embarked aboard USS Fort Worth 
during her deployment to Singapore, the first time that such a 
combination has been deployed. The SUW MP, through its Maritime 
Security Module and aviation components, was extensively employed 
during the ship's search and rescue efforts for AirAsia flight 8501 in 
January 2015, highlighting the versatility of the LCS modular mission 
package concept.
    The Surface-to-Surface Mission Module (SSMM) is the next capability 
to be added to the SUW MP. Beginning in 2015, the Navy completed a 
series of Guided Test Vehicle (GTV) test launches of the Longbow 
Hellfire missile to evaluate performance of the SSMM launcher and 
missile system in a littoral environment. The GTV-1 testing 
successfully conducted against multiple threat-representative targets 
in a relevant environment was completed in June 2015, achieving success 
in seven of eight missile engagements. The demonstration proved that 
the vertically-launched missiles could acquire the representative 
targets, discriminate among the targets and the surrounding 
environment, and engage the targets. The GTV-2A testing, the first 
tests of the Engineering Development Model (EDM) missile integrated 
with the LCS module prototype, was completed in December 2015, 
achieving success in three of four missile engagements.
    The program conducted a restrained firing test that validated the 
structural design of the SSMM Missile Exhaust Containment Structure in 
August 2016. The program also successfully completed the GTV-2B 
testing, achieving success in six of eight missile engagements, 
demonstrating the system's ability to engage high speed, maneuvering 
targets and complete quick succession launches while withstanding the 
associated harsh environment caused from the rocket exhaust. Six 
successful engagements in eight missile tests were accomplished. SSMM 
Longbow Hellfire testing to date has resulted in 16 successful 
engagements out of 20 total tests, representing a success rate of 80 
percent to date, with one of the unsuccessful engagements occurring 
during GTV-1 due to target failure. The program plans to complete the 
development of the first SSMM and then conduct a Tracking Exercise 
(TRACKEX), Structural Test Fire, and formal Developmental Test in 
fiscal year 2017 on the Freedom variant and a TRACKEX on the 
Independence variant in fiscal year 2017. The program is on track to 
operationally test the SSMM in fiscal year 2018 in support of IOC in 
the second quarter of fiscal year 2018.
    Anti-Submarine Warfare (ASW) MP--The ASW MP systems will provide 
the joint force commander with both an in-stride and rapid ASW escort 
and large area search capability against modern diesel-electric and 
nuclear submarines. Through studies and testing, an LCS with an ASW MP 
embarked has consistently shown the ability to significantly increase 
detection range and overall ASW performance as compared to existing 
fleet systems in use on large surface combatants. The addition of this 
capability will significantly increase Fleet ASW capability and 
capacity.
    The ASW MP completed its initial integration test onboard USS 
Freedom on September 30, 2014. All primary test objectives were 
completed successfully, including: verifying form, fit, and function of 
the ASW Escort Mission Module on the Freedom variant; evaluating 
mechanical and hydrodynamic characteristics, including maneuvering 
characteristics at up to 12 knots; deploying and retrieving the 
Variable Depth Sonar; verifying safe dual tow and measured dual 
hydrodynamic tow characteristics; and evaluating deep water 
(convergence zone) search performance.
    The Navy released a Request for Proposal (RFP) for the ASW Escort 
Mission Module EDM on August 14, 2014. After evaluating proposals, 
three vendors were awarded base contracts on July 20, 2015. The base 
contract awards funded a study by each selected contractor to address 
ship integration issues, at-sea testing at the sub-system and mission 
module level, and the development of production/delivery schedules.
    In August 2016, the Navy modified all three vendor contracts to 
minimize and/or retire these technical and programmatic risk areas. 
Based on the results of the more detailed transition studies and risk 
reduction efforts, the Navy is in the process of exercising the 
contract option for one vendor to build the ASW Escort Mission Module 
EDM (pre-production test article).
    Mine Countermeasures (MCM) MP--When augmented with the MCM MP, the 
LCS is capable of conducting detect-to-engage operations (mine hunting, 
sweeping, and neutralization) against sea mine threats. LCS outfitted 
with the MCM MP provides the joint force commander with the capability 
to conduct organic mine countermeasure operations ranging from 
intelligence preparation of the environment to first response mine 
countermeasures enabling joint operations to be conducted ahead of 
power projection forces. With the MCM MP a broader range of options 
will be available to the joint force commander, and we will remove the 
ship and crew from the minefield.
    The MCM MP provides these capabilities through the use of sensors 
and weapons deployed from organic unmanned vehicles and the MH-60S 
multi-mission helicopter. The unmanned vehicles include the Common 
Unmanned Surface Vessel (CUSV), unmanned aerial vehicles, and the 
Knifefish UUV.
    TECHEVAL of the initial MCM MP capabilities was completed in August 
2015, aboard USS Independence (LCS 2). The mission package met the 
majority of its sustained area coverage rate test requirements, but 
significant reliability issues were noted with the Remote Multi-Mission 
Vehicle (RMMV). Based on TECHEVAL results, the Navy delayed MCM IOT&E 
and initiated an Independent Review Team (IRT) to assess the system.
    The IRT submitted their findings and recommendations in February 
2016, following which Chief of Naval Operations (CNO) and Assistant 
Secretary of the Navy (Research, Development and Acquisition) 
(ASN(RD&A)) directed OPNAV (N9) and PEO LCS to develop an 
implementation plan to execute the RMS IRT recommendations. The 
implementation plan was to coordinate experimentation, technology 
maturation, Concept of Employment development, and industry and Fleet 
engagement to ensure a supportable MCM capability, tested, and 
delivered to the Fleet before legacy systems reach the end of their 
service life, including:

    <bullet>  OPNAV and PEO alignment of responsibility and authority 
with clear lines of accountability for delivery of MCM capability;
    <bullet>  Concept development and testing for both LCS and non-LCS 
based systems;
    <bullet>  Employment of expeditionary mine warfare capability from 
LCS and other Navy platforms;
    <bullet>  Deployment of MCM MP initial increment on Independence 
variant ships using upgraded low rate initial production RMMVs to gain 
operational experience.
    <bullet>  Cost and recommended budgetary actions.

    Subsequently, the Under Secretary of Defense (Acquisition, 
Technology and Logistics) signed an Acquisition Decision Memorandum 
cancelling further development of the RMMV and separately establishing 
the associated towed mine-detection sonar, the AN/AQS-20A, as an 
independent acquisition program.
    The CNO and ASN(RD&A) approved the IRT Implementation Plan on June 
28, 2016. Execution of the plan is based on a three-phase approach. The 
first ``deploy'' phase of the plan focuses on exercising MCM capability 
from LCS or other platforms of opportunity in fiscal year 2018 through 
fiscal year 2019. The second ``assess and decide'' phase will evaluate 
data from the fiscal year 2018-2019 deployment with the MCM MP initial 
increment and Fleet assessments of CUSV minehunting capability and 
Knifefish UUV, culminating in an MCM minehunting platform decision in 
fiscal year 2019. The final ``re-baselining'' phase efforts focus on 
the long-term plan to deliver MCM capability to support IOC in fiscal 
year 2021 to address legacy surface and airborne mine countermeasures 
systems end of service life.
    To execute the IRT implementation plan, the Navy submitted an 
fiscal year 2016 Above Threshold Reprogramming (ATR). This ATR was not 
supported, resulting in the Navy developing a revised implementation 
plan which was briefed to professional staff members of the 
congressional defense committees in September 2016. The revised plan 
focuses on CUSV as the tow vehicle for the AQS-20A mine hunting sonar. 
In the interim, two RMMVs will be groomed and one will be overhauled, 
and these RMMVs will then be used to continue AN/AQS-20 sonar testing, 
conduct data collection, and support user operational evaluation until 
the CUSV is available in late fiscal year 2018, at which point the 
RMMVs will be replaced.
                         transition to frigate
    On February 24, 2014, the Secretary of Defense (SECDEF) directed 
that the Navy limit the number of Flight 0+ LCS ships to no more than 
32 and that the Navy submit alternatives for a more capable and lethal 
Small Surface Combatant (SSC) with capabilities generally consistent 
with a FF. In response, the Navy formed a Small Surface Combatant Task 
Force (SSCTF). The SSCTF's efforts informed the Navy's recommendation 
and SECDEF's decision memorandum of December 10, 2014, approved the 
Navy's plan to procure a SSC based on an upgraded LCS Flight 0+ hull 
form.
    The SSCTF approach entailed five key activities. First, establish 
and co-locate a team of operational, technical, and acquisition experts 
with experience in surface combatant operations, design, and program 
execution. Second, develop a process that integrates capability concept 
development, requirements analysis, engineering and design, cost 
analysis, and program planning to characterize a rich trade space. 
Third, obtain and consider the Fleet's views and perspectives on SSC 
capability needs in the 2025+ timeframe. Fourth, seek and consider 
industry's ideas regarding existing ship designs and ship systems 
including hull, mechanical, and electrical and combat system 
components. Fifth, ensure the analysis and findings represent 
technically feasible and operationally credible SSC alternatives for 
consideration by Navy leadership.
    The SSCTF proposed to Navy leadership that a modified LCS fulfilled 
the requirement of ``a capable and lethal small surface combatant'' 
providing the multi-mission SUW and ASW capability consistent with the 
Fleet's view on the most valued capabilities delivered by a SSC at the 
most affordable cost. Further, the study concluded that this approach 
would provide the shortest timeline to first ship delivery (fiscal year 
2023) and last ship delivery (fiscal year 2028) with no gap in 
production; and could support a subset of capability and survivability 
upgrades on LCS production ships as early as fiscal year 2017. Navy 
leadership accepted this recommendation and proposed for SECDEF's 
decision that the upgraded LCS Flight 0+ hull form be used as the basis 
for the new SSC (termed a Frigate).
    The FF's design continues to mature in preparation for a RFP 
release to both LCS shipbuilders in 2017, which could support contract 
award in late fiscal year 2018. The FF will bring multi-mission 
capability to a modified LCS hull form, incorporating MP components 
from both the SUW and ASW mission modules. The FF does not change the 
fundamental LCS mission sets, but rather provides additional lethality 
and survivability capabilities that support executing independent, 
integrated, high-value unit escort, and both offensive and defensive 
SUW and ASW operations.
    In December 2015, SECDEF directed that the total LCS/FF procurement 
be truncated to 40 ships. This programmatic decision, reflected in the 
President's Budget 2017 submission, is not indicative of a change in 
the overall 2012 Force Structure Assessment (FSA) interim update 
conducted in fiscal year 2014. The FSA interim update determined a 
post-2020 requirement of 308 ships in the battle force, corresponding 
with a 52 SSC requirement necessary to fulfill the Navy's essential 
combat missions.
    The December 2015 SECDEF memorandum also directed that the LCS 
program down-select to a single variant and transition to the FF no 
later than fiscal year 2019. In response to the SECDEF direction, the 
Navy has outlined a path to downselect to one shipbuilder (one variant) 
as early as fiscal year 2018, but no later than fiscal year 2019, for 
the last twelve ships of the program based on the FF design. The Navy 
intends to make a downselect decision based on best value criteria 
based on cost and warfighting capability. This acquisition strategy 
sustains the two shipbuilders competing for the single ship awards in 
fiscal year 2017 while enabling competitors to align long term options 
with their vendor base in support of the subsequent down-select, and 
accelerates delivery of the desired FF capability to the Fleet. 
Additionally, the plan preserves the viability of the industrial base 
in the near term in support of potential opportunities for Foreign 
Military Sales opportunities.
                               conclusion
    The LCS and FF classes close critical warfighting gaps for our 
fleet commanders. LCS will provide much-needed MCM, ASW, and SUW 
capability at an affordable cost, freeing up the higher end multi-
mission large surface combatants to focus on their primary missions 
such as area air defense, land strike, and ballistic missile defense.
    Looking ahead, the Navy is planning for the next generation Fleet, 
including SSCs, using the established requirements generation process 
to determine what warfighting gaps will be present and what 
capabilities the future SSC will require in order to fill those gaps. 
When completed, we look forward to briefing you on the outcome of this 
analysis and the composition of the future Fleet.
    The Navy's role in providing for our national security strategy 
includes ensuring freedom of navigation for all maritime traffic, 
providing reassurance to our partner nations, and deterring those who 
would challenge us. As more LCS ships are deployed forward, these 
innovative ships will deliver the persistent presence our allies and 
partners desire and our nation's security demands consistent with this 
role.
    We are committed to working with Congress as we continue to make 
adjustments to how these ships are employed. We thank you for your past 
support and urge your continued support. We welcome your oversight, and 
we look forward to answering your questions.

    Chairman McCain. Thank you. Admiral?

 STATEMENT OF VICE ADMIRAL THOMAS S. ROWDEN, COMMANDER, NAVAL 
   SURFACE FORCES, AND COMMANDER, NAVAL SURFACE FORCE, U.S. 
       PACIFIC FLEET, UNITED STATES NAVY, WASHINGTON, DC

    Admiral Rowden. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, I am honored for the 
opportunity to testify about the Littoral Combat Ship.
    As the commander of U.S. Surface Forces, I have the 
privilege of leading the sailors that take our ships to sea. 
These ships and the sailors that man them are the center of our 
professional universe, and my frequent visits to the waterfront 
give me real-time feedback of what we are getting right and on 
things that we need to address.
    This committee's support of the Surface Force has been 
strong and consistent, and we are moving steadily forward in 
posturing a more lethal, distributed, and networked force. 
Small surface combatants have a key role to play in 
implementing this vision, and the LCS program is a cornerstone 
of this effort.
    The LCS program has had a number of setbacks, something 
that you, and I, and the Navy leadership team are acutely aware 
of. We are doggedly pursuing solutions that will improve 
operational availability of the ships, and you have my 
assurance that these are never far from my mind.
    The CNO testified in his posture statement that for the 
first time in 25 years there is competition for control of the 
seas. This statement underpins my entire approach to the LCS 
fleet introduction.
    As the ship begins to join the fleet in numbers, it is my 
job to examine past assumptions about every aspect of its 
employment, and implement changes that reflect the operational 
environment of the future. The Surface Force must be prepared 
to not only impose sea control over uncontested seas, but it 
must also be prepared to contest control of the seas by others.
    The capabilities of the LCS will bring the fight--the 
capabilities that the LCS will bring to the fight are in high 
demand by our fleet commanders, specifically with respect to 
anti-submarine warfare, mine countermeasures, and over-the-
horizon anti-surface warfare. These aspects of sea control from 
the--form the basis of a more robust, conventional deterrence 
posture, which in turn frees our cruisers and destroyers to 
focus on high-end tasking.
    We have learned quite a bit from the Freedom Fort Worth and 
Coronado deployments and the options provided to our fleet 
commanders by their presence. The challenges encountered during 
these early deployments prompted the recent CNO directed 60-day 
review, which resulted in a number of straightforward changes 
that will drive simplicity and stability into the program, even 
as we increase unit lethality. I am confident we are on the 
right track to increasing crew ownership and reliability of 
this ship, while delivering critical warfighting capability to 
the fleet.
    There is work to be done, and I join Secretary Stackley in 
committing to continuously improving this lethal, necessary, 
and versatile component of our fleet architecture.
    Thank you, sir, and I look forward to your questions.
    Chairman McCain. Mr. Francis.

 STATEMENT OF PAUL L. FRANCIS, MANAGING DIRECTOR, ACQUISITION 
  AND SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Mr. Francis. Good morning, Mr. Chairman, Mr. Reed, members 
of the committee. Mr. Chairman, I do not have a real slick 
statement to read from. I thought I would just talk to you for 
a few minutes if that was okay.
    I think the bottom line on the LCS, as we have talked--the 
other panelists have talked already, we are 26 ships into the 
contract, and we still do not know if the LCS can do its job. 
Over the last 10 years, we have made a number of what I would 
call trade downs. We have accepted higher costs. We have 
accepted construction delays, mission module delays, testing 
delays, reliability and quality problems, and we have accepted 
the lower capability.
    To adjust to this or accommodate the lesser performance of 
the ship, we have accepted a number of workarounds, higher crew 
loads, more shore support. We have kind of dialed down the 
concept of operations, and we have reduced some mission 
expectations for the ship. Still it will be 2020 by the time we 
know the ship and all its mission modules will work.
    I was doing my own math. I think we did the first contract 
for the first ship in 2004 or 2005, but it is 16 years from 
first contract to when the ship will be finally tested with all 
its mission modules. That is 16 years. To me, that is aircraft 
carrier territory. The miracle of LCS did not happen.
    What did happen? I think when the Navy started off, they 
had a really good plan. They were going to build two ships, 
experimental ships, using commercial yards and commercial 
derivative designs because they had a rough construct of a new 
mission, the littoral mission, and they wanted to use some 
ships to see what they could do with it, which I think was a 
good idea.
    About 2005, things really changed, and that is when the 
Navy decided that they could not just stop with two 
experimental ships. They had to go forward with construction 
for the industrial base. In my mind, that is when the program 
really made a change. It went from an experimental program to a 
ship construction program. As with any construction or 
production program, once you get into it and once the money 
wheel starts to turn, the business imperatives of budgets, and 
contracts, and ship construction take precedence over 
acquisition and oversight principles, things like design, 
development, tests, and cost.
    Let me switch now to a little discussion about oversight. 
On any major weapon system, Milestone B is the most important 
milestone. That is when you lay down--that is when the legal 
oversight framework kicks in. Your approved baseline, your 
Nunn-McCurdy requirements, your cost estimates, your 
operational test and evaluation, selective acquisition reports 
all kick in at that time. Usually on ships, you have a 
Milestone B decision when detailed design and construction is 
approved for the first ship.
    On LCS, the Milestone B decision was made in 2011. That was 
after we had already approved the block buy of 20 ships and had 
already constructed and delivered most of the first four ships. 
The cost growth that occurred on the early ships was 
grandfathered into the baseline of the LCS program. That is why 
today if you go to look at the selected acquisition report for 
LCS, you are not going to see much of a schedule or cost 
variance because of the grandfathering in.
    Mission modules, turning to those, those were actually 
produced before the Milestone B decision to keep pace with the 
ship. What we had was, in my view, a highly concurrent buy-
before-fly strategy on an all new class of ships. I think the 
picture for oversight for the frigate program is concerning. It 
is not going to have milestone decisions. It is not going to be 
a separate program. There will not be a Milestone B. You are 
not going to have Nunn-McCurdy protections for the frigate 
itself. You will not have a selective acquisition report on the 
frigate itself.
    Some of the key performance parameters as they relate to 
the mission modules have been downgraded to key system 
attributes, which means the Navy, and not the JROC [Joint 
Requirements Oversight Council], will make decisions on what is 
acceptable.
    Let me wrap up by saying that the ball is now in your 
court. In a few months, you will be asked to approve the fiscal 
year 2018 budget submit, which will, if current plans hold, 
include approval for a block buy of 12 frigates. In my mind, 
you are going to be rushed again. You are going to be asked to 
put in upfront approval for something where the design is not 
done. We do not have an independent cost estimate. The risks 
are not well understood. Oh, by the way, the mission module 
still have not been demonstrated yet.
    You will be told that, hey, it is a block buy, we are 
getting great prices, and the industrial base really needs 
this. Now, on the prices, you know, in my view the block buy is 
a pretty loose construct for accountability. You do not have to 
say how much you are saving. You are not held accountable for 
what you are saving.
    There is an instrument that exists for that, and it is 
called multiyear procurement. The Navy was able to use 
multiyear procurement after the fourth Virginia-class 
submarine. You have to ante up what your savings are going to 
be. You have to test to the stability of the design. It is a 
real commitment. For the frigate, they are going to use the 
same contracts that they used for the LCS, and we know how well 
they have worked in holding down costs.
    On the--on the industrial base side, as we have looked 
past--the past 10 years, we have seen a lot of decisions made 
to protect the industrial base. Again, this is an industrial 
base we did not think we were going to create because we were 
using commercial firms.
    But my question now is, have we not done enough for the 
industrial base? Is it not time for the industrial base to come 
through for us? Can we get one ship delivered on time? Can we 
get one ship delivered without cost growth? Can we get one ship 
delivered without serious reliability and quality problems? 
That is my question.
    Once the block buy is approved, your oversight is 
marginalized because what you will be hit with in the future is 
we got great prices, and we have to protect the industrial 
base. With these two things, you cannot change the program from 
then on, and I am saying you can.
    I think that your first oversight question is going to be 
is a program that has doubled in cost and has yet to 
demonstrate its capabilities worth another $14 billion in 
investment, and that is the floor. That is assuming everything 
goes well.
    If you do think it is worth it, and that is a big if, I 
would say--my counsel to you in fiscal year 2018 is do not 
approve a block buy. Have the Navy do a competition on detailed 
design, and let them compete the two--the two ship designs and 
downselect. Make it a major acquisition program with its own 
baseline, and its own milestones, and its SARs [Selected 
Acquisitions Reports].
    In 2019, then you can consider if you want to authorize 
more ships, and that should be based on the demonstrated 
performance of the ships. If you did, you do not have to do a 
block buy. You can consider what kind of arrangements you want 
to make at that point.
    In wrapping up, my view is you have got one shot left in 
fiscal year 2018 to preserve your oversight power over this 
program, and my advice is take it. Take that shot, and I can 
assure you the Earth is not going to come off its axis if you 
do. You will be sending an important signal to other programs 
as to what you are willing to prove and what you are not.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Francis follows:]
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman McCain. Thank you very much.
    Secretary Stackley, as Ronald Reagan used to say, ``Facts 
are stubborn things.'' You painted a rather rosy picture, but 
the facts are that the LCS was initially expected to cost $220 
million per ship. That was the testimony before this committee. 
The cost has now doubled to $478 million. The first LCS combat 
capability mine countermeasures was supposed to be delivered in 
2008. That capability is still not operational, nor is it 
expected to be until 2020, 12 years late.
    You have served as the Navy's acquisition executive for the 
past eight years. Who is responsible, and who should be held 
accountable for a doubling of the cost of the ship, delivery 12 
years late, and obvious difficulties, which I will mention in 
later questioning. Who is responsible, and who is going to be 
held accountable?
    Mr. Stackley. Sir, let me start with the reference to the 
$220 million ship, that number that dates back to the 2004, 
2005 timeframe. Everybody here would absolutely agree that was 
unrealistic.
    Chairman McCain. No, I would not because it was testified 
before this committee that that would be the cost per ship. In 
retrospect, we see that it was unrealistic, but at the time 
this committee and this Congress, which approved it, was on the 
basis of $220 million per ship. If we had been told it was $478 
million and 12 years late for some of the programs, I do not 
think that this committee and the Congress of the United States 
would have approved it, Mr. Secretary.
    Mr. Stackley. Yes, sir. I am telling you that the $220 
million number was unrealistic.
    Chairman McCain. Well, then why----
    Mr. Stackley. This Congress--this Congress----
    Chairman McCain.--why was it unrealistic to tell the 
Congress of the United States?
    Mr. Stackley. I agree. Sir, I agree. This Congress was led 
to believe that the ship would cost $220 million. That was an 
unrealistic number that was put before the Congress in terms of 
a program to authorize and appropriate. The result of the lead 
ship going to $500 to $700 million dollars each, that was----
    Chairman McCain. Who was--who gave that information of $220 
million per ship to the--to the Congress and this committee? Do 
you know?
    [The information referred to follows:]

    The Navy's cost as an independent variable cap of $220 million 
(fiscal year 2005 dollars) for the ship platform and basic core systems 
was first reported in the report to Congress directed by section 218 of 
Fiscal Year (FY) 2003 National Defense Authorization Act (Public Law 
107-314). The report was signed by the Assistant Secretary of the Navy 
for Research, Development, and Acquisition, John Young, and delivered 
to the congressional defense committees on February 10, 2003.

    Mr. Stackley. I would have to go back to the records to see 
who testified. The number was directed from the top down. I can 
tell you that the Naval Sea Systems Command's estimate for the 
program at that point in time was not $220 million. That was 
the number that was in place as a cost cap for the program, and 
they pressed down to try to achieve what could not be achieved, 
and industry followed suit.
    We have the experience of the lead ship in terms of things 
that went wrong that we have been trying to recover from since.
    Chairman McCain. Seventeen years, $700 million of 
taxpayers' money has been sunk into the Remote Multi-Mission 
Vehicle. The program was canceled earlier this year due to 
unsatisfactory performance, reliability, and the Navy 
formulated a new way ahead for the mine countermeasures 
mission. For nearly a decade, the GAO has reported the Navy was 
buying this system before they would approve it. Dr. Gilmore 
reported the RMMVs were not effective.
    Why did the Navy recommend to the RMMV in 2010 after a 
Nunn-McCurdy breach revealed a shoddy business case for the 
system to continue development?
    Mr. Stackley. Yes, sir, 2010 timeframe, we went through the 
Nunn-McCurdy process, and we looked at a couple of key things. 
One was the performance issues that we were having with the 
RMMV and whether or not we believed that we could correct the 
reliability issues through a reliability improvement program.
    Chairman McCain. Obviously you could not.
    Mr. Stackley. Correct, we failed in that assessment. We 
believed we could. We did a redesign effort. We did not go back 
and build new vehicles in accordance with the redesign. What we 
did was took the existing vehicles and back fit what fixes we 
could, and took that to test.
    Chairman McCain. Which obviously did not work since now it 
has been abandoned, right?
    Mr. Stackley. Yes, sir.
    Chairman McCain. One more question, Admiral. Of the major 
casualties encountered to date, are these issues of ship 
design, inferior shipbuilding quality, a lack of procedural 
compliance, a lack of training, or something else? Who has been 
accountable? 2013 generator failures. That is on the LCS-1. 
Hundred and ninety-five days and $1.6 million to fix. Sea water 
contamination, and combining you have 20 days and $377,000.
    2016, contamination of a main engine, 258 days and $12 
million dollars to fix. LCS-3, 2016, combined gear bearings, 
184 days and $5.6 million to fix. LCS-4 in 2016, water jet 
failure, 24 days, and we do not know the cost. LCS-5 in 2015, 
high-speed clutch failure, 355 days and counting. LCS-8 in 
2016, water jet failure.
    What is going on here, Admiral, and who is held 
accountable?
    Admiral Rowden. Yes, sir. Starting specifically back in the 
early part of this year when--with the Fort Worth failure 
associated with personnel errors on the USS Fort Worth, I 
started to look very hard at the training and the qualification 
of the men and women that serve on our ships to see if we had 
short-changed them with respect to the training that they had 
been provided.
    Chairman McCain. Who was held accountable for that? They 
were not well-trained. Somebody is supposed to train them.
    Admiral Rowden. Absolutely, sir.
    Chairman McCain. Was it you that was in charge of that?
    Admiral Rowden. I am responsible for training the men and 
women on these ships.
    Chairman McCain. Should you be in your job?
    Admiral Rowden. Yes, sir, I believe I am capable of 
fulfilling the responsibilities. What I did find was that the 
training that we had provided to the young men and women was 
insufficient in reviewing two casualties specifically, the one 
on the Fort Worth and then one on the Freedom.
    The men and women, when we--I stepped back and got our 
Surface Warfare Officer School to conduct an assessment of the 
engineering knowledge of the men and women on the ships, it was 
found to be deficient. One of the things that we found was 
that, and that I directed, was that we start to import much 
more of the training than we had been relying on for the 
vendors to provide to our sailors that serve on these ships.
    Given the fact that we have pulled that engineering 
training in, given the fact that we have--are moving to get the 
curriculum necessary in order to be able to get the right 
knowledge into their heads in order to operate the propulsion 
plants, I think we are in a much better place going forward.
    Specifically associated with the accountability----
    Chairman McCain. I agree. We may be better going forward. 
But, Admiral, we are going to start holding people accountable. 
We are talking about millions of dollars here that were 
failures that you say were a problem with training. Who was 
responsible for the training? Was not someone? Was it not 
anticipated that the crew would have to be well trained to 
avoid these tens of millions of dollars of problems?
    Admiral Rowden. Absolutely, sir. I feel that as we have 
operated the ships and as we have learned about these new 
propulsion plants----
    Chairman McCain. I am glad we have learned at the cost to 
the taxpayers of tens of millions of dollars.
    Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman. Secretary 
Stackley, in the letter that the chairman I wrote to the CNO, 
we talked about the replacement of the LCS. As I understand it, 
the current plan is to stop building LCS in fiscal year 2025. 
Mr. Francis' assessment was interesting. He suggested that LCS 
is simply going to morph into something called a frigate, and 
we are going to buy frigates, but we are not going to have a 
real opportunity to review, nor are you going to have the 
opportunity given the compressed timeframe, to do all the 
requirements, to validate the requirements, to do the testing, 
to do the proving, if you will.
    Can you give us an indication of where this program is 
headed? Is it going to morph into frigates? Is it going to be a 
new design for a surface combatant? If it is, does that have to 
be up and running by fiscal year 2026 because we stop buying 
LCSs in 2025?
    Mr. Stackley. Sir, in 2014 we were directed by then 
Secretary Hagel to take a review of our small surface 
combatants and to come back with a proposal for what was 
referred to as capabilities consistent with a frigate. We did 
that review in the 2015 timeframe. In fact, we briefed the 
defense committees and invited them to participate in some of 
the out briefs.
    The plan going forward that we then presented in our 
subsequent budget was to take the ASW Mission Package 
capabilities, plus the Surface Warfare Mission Package 
capabilities that are currently planned for the LCS, and 
combine them and permanently install them on the LCS platform 
to give it the multi-mission capabilities, trade away 
modularity, but to give it multi-mission capabilities. Add to 
that over-the-horizon missile, and add to that upgrades to 
electronic warfare and decoys, specifically, our Nulka decoy, 
in effect, using existing capabilities or capabilities that we 
already have in development and that the ship is already 
designed to accommodate, permanently install them on the 
platform to give them multi-mission capability I have referred 
to as a frigate.
    That work was done--was chartered in 2014, done in 2015, 
shared with the defense committees at least at the staff level, 
included in our budget. The capabilities development document 
has gone through the JROC [Joint Requirements Oversight 
Council] for validation of the requirements. The shipyards have 
been turned on to do the design associated with permanently 
integrating those existing capabilities into their platforms. 
That design effort is going on today.
    The competitive downselect for that future frigate design, 
that RFP [request for proposals] is planned to go out next 
summer. We will be doing those design reviews, and, as I 
described in my opening statement, we will invite your staffs 
to look at the process, look at the products, look at the 
criteria, and provide basically your oversight. We will ensure 
that you have the insight before we go further forward.
    Senator Reed. Okay. Will that plan include a block buy of 
the frigates or a block buy of another group of LCSs?
    Mr. Stackley. Today, that is the plan. We do not have--we 
do not have a formalized--we have not finalized the acquisition 
strategy with the 2018 budget. We will be bringing that formal 
acquisition strategy over to present to the Congress for your 
review and ultimately for your approval.
    I want to--I do think it is important, though, to make a 
comment. First, I fully appreciate all of Paul Francis' 
comments in his opening statement, and we work closely 
together. I do need to point out when we talk about a block buy 
versus talking about a multiyear, effectively what we are--what 
we are describing with the competitive downselect is the 
competitive downselect will be based on best value associated 
with the detailed design by the shipbuilders.
    What we are telling them is somebody is going to win this, 
one is going to win this, and they will get 12 ships of this 
frigate design. The details in terms of whether that is one-
plus options, whether that is 12 options, or whether we convert 
that to a multiyear in the future, that is not decided today. 
But we do want to get--to ensure we procure those ships as 
affordably as possible when we go through that competitive 
downselect.
    Senator Reed. Again, just to get my perspective, it appears 
that the LCS Program is morphing into the frigate program. Is 
that fair?
    Mr. Stackley. Yes, sir. We went from 52 LCSs. We 
determined--yes, sir.
    Senator Reed. Yeah, thank you. Dr. Gilmore points out that 
one of the things we have to consider is this ship gets heavier 
literally with these systems placed on it, that it will be 
lower maximum sprint speed, as he describes, with less fuel 
endurance. The loss of sprint speed will, therefore, affect the 
success of small boat swarm defenses and the ability to keep up 
with the carrier strike group. In fact, anecdotally, I have 
heard that the present ships have a difficult time keeping up 
with the carrier strike groups, and, therefore, are not 
available when needed.
    Now, let me ask----
    Mr. Stackley. Yes, sir.
    Senator Reed. My time is limited, so if you have a quick 
response.
    Mr. Stackley. Yes, sir. First, we will be adding capability 
which will add weight to the ship. However, the impact on speed 
is marginal. Today, the requirement is 40 plus knots. These 
ships will still be faster than any other combatant or warship 
that we have today with the added weight.
    Second, a part of our--in this requirement cycle--
requirement and design cycle, we are not trading off endurance. 
In fact, as we look at our--the competitive strategy that we 
are going to put out there in our best value criteria, we are--
we are not just going to not trade off endurance. We are going 
to place a premium on being able to increase endurance. 
Endurance is not going to go down, and speed is only going to 
be affected at the margins.
    Senator Reed. Thank you very much, and I will--I might have 
some written questions for the other panelists. Thank you.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    You know, we have heard this before in the eight years I 
spent on the House Armed Services Committee and the 22 years on 
this committee. We are always talking about cost overruns. We 
are talking about increased--you know, the costs and delays.
    I actually sat next to B-1 Bob [Former Represenatative 
Robert Dornan], and some you may remember the B-1 Bob, and all 
the problems we went through there, and then the B-2 came 
along, and we went through FCS, Future Combat System. Just 
about had everything. Same problems. It worked out Gates 
canceled it. Then the F-35, we have actually had tested. It is 
not just the Navy. This is a problem, Mr. Francis, and it is 
all over.
    But just in terms of the Navy, Mr. Secretary, the--how does 
this compare to the other problems, like the DDG Zumwalt, in 
terms of delays and the things we have been talking about in 
this committee hearing?
    Mr. Stackley. Yes, sir. I think all the previous discussion 
and testimony regarding delays in the program, the LCS delays 
have been unacceptable. Frankly, when we think about going 
forward and what we are doing different, LCS, DDG-1000, I would 
add CVN-78 to the mix. There is a period of time where the Navy 
went forward with all clean sheet designs, high risk, a lot of 
new development wrapped up in the lead ships. That is in our--
we are still working through those lead ships, but that 
approach is in our rearview mirror. We are not going forward 
with that approach today and in the future
    When we talk about LCS transitioning to a frigate, we are 
leveraging mature designs, mature systems, and that gives us 
the ability to compete this ship, this future ship, under a 
fixed price contract. LCS and DDG-1000 are on a cost plus----
    Senator Inhofe. Well, but there--yeah. You do not need to 
elaborate on that because the fact that in 2013, five of the 
eight LCSs delivered to the Navy have experienced significant 
engineering casualties, and then it just gets worse and worse, 
USS Montgomery. We have talked about all of this.
    But, Mr. Francis, you have been at the GAO for quite a 
while. How long?
    Mr. Francis. Forty-two years.
    Senator Inhofe. Forty-two years, and you have been doing 
the same types of things, evaluating military systems and so 
forth?
    Mr. Francis. I have to keep doing it until I get it right, 
Senator.
    [Laughter.]
    Senator Inhofe. No, I am serious about this because you 
have watched all this, and one of your recommendations was--
there are a lot of good recommendations in your--the final part 
of your statement that says, ``Congress should consider not 
funding finding any requested LCS in fiscal year 2017, and 
should consider requiring the Navy to revise its acquisition 
strategy for the frigate.'' Is this one of your 
recommendations?
    Mr. Francis. Yes, sir.
    Senator Inhofe. What do you think about that 
recommendation, Mr. Secretary?
    Mr. Stackley. I do not propose to halt production of the 
LCS in 2017. As it relates to the frigate, I listened carefully 
to Mr. Francis' comments, and I am taking notes.
    What I welcome is the committee, the GAO to sit down and 
look at the Navy's plan and whether or not it can be improved 
upon. We will take recommendations to improve upon it, but in 
terms of the fundamentals of locking down the requirements, 
stable design, ensuring that we have a competitive fixed price 
approach to a frigate, I think all those fundamentals that you 
all would want us to do, we have got in place.
    Senator Inhofe. Admiral Rowden, what do you think about 
that specific recommendation?
    Admiral Rowden. Sir, I agree with Secretary Stackley. It 
is----
    Senator Inhofe. You do not agree with that recommendation 
and carrying out that recommendation as a partial solution to 
the problem that we are discussing.
    Admiral Rowden. I am sorry, sir?
    Senator Inhofe. I will read it again. ``Congress should 
consider not funding any requested LCS in the fiscal year 2017, 
and should consider requiring the Navy to revise its 
acquisition strategy of the frigate.
    Admiral Rowden. No, sir, I would disagree with that 
recommendation.
    [The information referred to follows:]

    The fiscal year 2017 Consolidated Appropriations Act (Public Law 
115-31) provided $1,563.7 million for three LCS in fiscal year 2017. 
The President's 2018 submission programs the first year of FFG(X) 
procurement in fiscal year 2020 to define FFG(X) requirements, 
thoroughly evaluate design alternatives, and mature the design. To 
ensure we maintain the small surface combatant industrial base to 
support the FFG(X) procurement and leverage the efficiencies from the 
facilitization investments made in LCS shipyards, the Navy plans to 
continue LCS production in fiscal year 2018 and fiscal year 2019.

    Senator Inhofe. Well, for the record, I would--I would kind 
of like to have you--both of you elaborate on what is wrong 
with that, and what is a better solution. I know we have got a 
long hearing here, and we have heard a lot of things. But, you 
know, I read these things, and particularly when it comes from 
someone who has been doing this for such a long period of time.
    I would also say, Mr. Francis, I would like some time to 
sit down with you, not just on this stuff we are talking about 
in this committee, but on some of the others that I mentioned 
that we have had to suffer through, FCS and all that.
    Mr. Francis. I would like to do that.
    Senator Inhofe. Thank you, Mr. Chairman. Thank you.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman. I would like to 
follow up on some of Mr. Francis' suggestions to this 
committee. This is probably a question that can be responded to 
by either the Secretary or the admiral.
    One of Mr. Francis' suggestions is that we not okay the 
block buy strategy for the frigates. I would like to know what 
would that kind of strategy or are not okaying this block buy 
due to the industrial base, and what kind of message would that 
decision by this committee give to the Navy's acquisition 
strategy in other programs.
    Mr. Stackley. Well, let me--let me start by trying to 
describe a little bit about what the block buy itself is. We 
are going to go out and downselect the frigate to a single 
shipbuilder. We plan to procure 12. We want that shipbuilder to 
go out to its vendor base and secure long-term agreements with 
its vendors as best as possible so that pricing and stability 
across the industrial base will support the program.
    Senator Hirono. Mr. Secretary, if I can get a clarification 
then. The concern with the block buy is that it does not really 
interject the kind of competition that Mr. Francis thinks would 
be warranted. Was that your point, Mr. Francis?
    Mr. Francis. Well, actually, Senator, I think the 
competition could be done under the detail design phase. My 
concern is oversight for this committee once you approve the 
block buy. Now, the Navy will execute, and I would believe they 
would do a good job of trying to lay it out in a program. But 
your opportunity to influence what gets done is going to be 
largely compromised once you approve the block buy. Your 
ability in the future to make changes is going to be limited.
    Senator Hirono. Mr. Secretary, you--your explanation seems 
to go to the competition aspect of the suggestion, but 
apparently it has much more to do with our ability to provide 
oversight. When we okay a block buy, then we are letting go of 
the oversight responsibilities that this Congress has. Can you 
respond to that aspect?
    Mr. Stackley. I disagree that you are relinquishing any of 
your oversight responsibilities. A block buy is still annual 
procurement of each ship in the block buy. There is termination 
liability or cancellation ceiling that the Congress is taking 
on responsibility for, and you will have absolute insight and 
oversight of the program each step of the way.
    Senator Hirono. Well, I'm sorry. You know, that is all well 
and good, but the entire history of this program has been that, 
yes, we have always had that decision-making capability. But, 
you know, you can go down a path, and next thing you know a 
ship is costing twice what it originally started because we 
have gone down a particular path.
    I think we are at the point where listening to all of this 
testimony that we want to have reassurances that going forward, 
that we are not going to just throw more money into a program 
that is going to continue to haunt us with a lack of 
capability, and unreliability, and all the other factors that 
have been brought to light.
    I realize you sit here and you reassure us. That has been 
the case at every hearing with regard to this program. But I am 
looking for something very concrete that we can do that enables 
us to get the kind of product that the taxpayers are paying 
for. Aside from your reassurances, is there something very 
specific that you are going to do that is going to result in 
the kind of product that we are paying for?
    Mr. Stackley. Well, let me just start to go down the list. 
Unlike the start of this program, we are not going to suffer 
through requirements, churn, and instability. We are not going 
to introduce new design late in production that are going to 
cause costs to go through the roof. We are not going to put 
these ships under contract in a cost-plus environment where the 
government owns responsibility for the cost itself.
    I think Mr. Francis' concerns about a Milestone B, I would 
be happy to sit down with the committee staff and walk through 
what you need to ensure that you do, in fact, have confidence 
that all the statutory requirements in terms of cost estimates, 
in terms of acquisition program baselines, in terms of 
requirements, documentations, just like a Milestone B.
    We will prepare that for you. We will prepare that for you, 
and we will--we will walk through it with you. If we need to 
establish a pseudo-Milestone B or a Milestone B, I do not 
hesitate to do that, ma'am.
    Senator Hirono. Thank you. I think it is really important 
that we have those kinds of very specific items that you are 
going to follow, just as the initial testimony was that this--
these ships would cost some $200 million, and we are--you have 
been asked to justify the kind of changes. Yes, it would be 
good for us to have some very specific items that we can check 
off as we go forward if we go forward with this.
    Mr. Stackley. I recommend----
    Senator Hirono. Thank you very much.
    Mr. Stackley. I recommend that we work with committee staff 
and we come up with the agreed plan in that regard going 
forward.
    Senator Hirono. Thank you.
    Mr. Francis. Ma'am, if I--if I may, I would say while these 
are modifications, they are rather significant, at least the 
$100 million dollars per ship, and that cost has not 
independently validated yet. My thinking is if we are that 
close to being able to have everything ready for Milestone B, 
let us have the Milestone B.
    Although there are not legal requirements for you to 
approve ships under a block buy, if past history is any 
indication, if you try to alter the plan, try to reduce the 
number of ships, you will be told you are going to jeopardize 
our prices, and you are going to affect the industrial base. 
Pressure will be brought to bear to keep things the way they 
are.
    Senator Hirono. I understand. Thank you, Mr. Chairman.
    Chairman McCain. Mr. Francis, I totally agree, and I have 
seen that movie before. This idea of a block buy before it is a 
mature system is absolutely insane. Again, $220 million per 
ship.
    Mr. Stackley--Secretary Stackley to say that was really 
bogus. We can only go by the--by the numbers that we are given. 
Again, who gave us that? Do you know? Do you know who gave us 
the $220 million per ship instead of the $478 it will cost 
today? Do you know who that unknown bureaucrat was?
    Mr. Stackley. Sir, I believe it was uniform leadership in 
the Navy at that time.
    Chairman McCain. It was all the uniform Navy that was 
responsible for it. I did not know that the uniform Navy was 
responsible for this kind of acquisition. I thought it was the 
civilian side.
    Senator Ayotte.
    Senator Ayotte. Thank you, Chairman. I just want to thank 
the chairman for his very important focus on the issues with 
the LCS. I want to also thank Mr. Francis for his very good 
insight as to how we could try to really bring back some real 
oversight over this and the cost overruns. I thank you for 
that.
    Dr. Gilmore, I want to on a different topic wanted to ask 
you, right now OT&E is currently planning an F-35 versus A-10 
comparison test. I also want to thank the chairman for the work 
that we have done together to make sure that there is not a 
premature retirement of the A-10 because of its important 
capacity to provide close air support for our troops on the 
ground, and the importance of that close air support.
    I have been getting some mixed signals between what has 
been happening with the Air Force. The Chief of Staff of the 
Air Force testified before this committee that the A-10--that, 
in fact, the F-35 will not replace the A-10. This comparison 
testing for what happened in terms of close air support is 
very, very important. In fact, I want to thank the chairman as 
well for working, and it was an honor to work with him to make 
sure that there are provisions in the NDAA [National Defense 
Authorization Act], which we are going to consider shortly, 
hopefully next week, that will make sure that this comparison 
test is done before there is any retirement of the A-10.
    I want to ask you where the comparison test process is, and 
also how that process will be conducted in a thorough way.
    Dr. Gilmore. I, in conjunction with the commander of the 
Navy's Operational Test and Evaluation Force and the commander 
of the Air Force Operational Test and Evaluation Center, the 
three of us approved a detailed plan for all of the testing in 
F-35 operational tests this past summer, including, in 
particular, a comparison test. There is a detailed design that 
is on the record that the three of us have approved. It does 
not mean that my successor might not change that, but it is a 
good plan, and I hope that that will not occur.
    The test design includes comparison testing with the A-10 
and the F-35 conducting close air support, combat search and 
rescue, and forward air controller airborne missions. It is a 
rigorous test, and if it is conducted it will provide excellent 
information on how well the F-35 can conduct those kinds of 
missions in comparison with what the A-10 can do. We are also 
going to be doing other comparison testing, suppression of 
air--enemy air defenses with the F-16 and surface attack with 
the F-18.
    Again, the justification for all of these tests, these 
comparison tests, comes back to the requirements that the Air 
Force chief of staff has approved. Those include specifically, 
as I think I said the last time that I appeared before the 
committee where I read them from the requirements document, 
that the A-10 is meant to take--or excuse me, the F-35 is meant 
to take on the role of the A-10. I mean, that is just 
unambiguously stated in the requirements document.
    I understand there has been debate and testimony that is 
confusing about it, but you can refer to that document, and it 
is there in very plain English.
    Senator Ayotte. Well, that is excellent because we are 
going to find out whether that measures up----
    Dr. Gilmore. Now, with regard to conducting that test, my 
projection is that the operational test for the F-35, which 
will include this comparison test, will not begin in all 
likelihood until late Calendar Year 2018 or early Calendar Year 
2019, because my estimate is that mission systems testing is 
not going to end until July of 2018.
    At that point, you could get a fleet release of the mission 
system's capability software together with the mission data 
file, which enables the aircraft to actually deal with the 
threat environment. The Joint Program Office's own projections 
are that that mission data file will not be ready until the 
summer of 2018. You cannot do meaningful testing until that 
time.
    Chairman McCain. Does that mean that the F-35 is not ready 
to engage in combat?
    Dr. Gilmore. Until it has a mission data file that is 
verified and accredited, it would not have the capability to 
deal with the threats that we are spending $400 billion to have 
it deal with.
    Chairman McCain. We are dealing--we are dealing with ISIS 
[Islamic State of Iraq and Syria] in Syria and Iraq as we speak 
using the A-10.
    Dr. Gilmore. Correct. That is not why we are buying the F-
35.
    Chairman McCain. Is the F-35 ready to assume that role?
    Dr. Gilmore. There are people who argue it could. I kind of 
wonder about that argument because right now the capability 
that the F-35 has is two air-to-air missiles and two bombs, 
with limitations in close air support that actually are 
discussed--that are significant and discussed in detail in the 
Air Force's own IOC readiness assessment, which states clearly 
that the current F-35 with the Block 3i software does not 
provide the close air support capability that our existing 
fourth generation aircraft provide. That is a quote from an Air 
Force report. I have written evaluations that are consistent 
with that quote.
    Then there are the problems with the 35 availability. The 
fleet-wide availability is at best 50 percent, sometimes 
bottoming out around 20 or 30 percent. Why it is that a 
commander would choose to send an aircraft that has two bombs, 
limited endurance, low availability to fight ISIS is, I think--
--
    Chairman McCain. The cost----
    Dr. Gilmore.--a question.
    Chairman McCain. The cost of an F-35 is per copy roughly?
    Dr. Gilmore. You know, I hesitate to give a number. It is 
well over the initial cost estimates. I think it is up around--
it is up around--it is between $80 and $100 million. It is 
coming down.
    Chairman McCain. The cost of an A-10?
    Dr. Gilmore. Mr. Chairman, I do not know.
    Senator Ayotte. Except that the----
    Dr. Gilmore. A lot less.
    [Laughter.]
    Senator Ayotte.--the A-10 has the lowest cost per flying 
hour.
    Dr. Gilmore. Oh, yes.
    Senator Ayotte. I do not think we are going to have the low 
cost per flying hour with the F-35.
    Chairman McCain. I believe it is--I believe it is--I 
believe the A-10 is $15 million per----
    Senator Ayotte. Yeah.
    Dr. Gilmore. I----
    Chairman McCain. Your time has----
    Senator Ayotte. May I follow up briefly, Chairman, on one 
other issue with regard to the A-10? Given the timing that we 
are hearing this comparison testing, one of the provisions that 
is also--that if the NDAA is passed, which we hope it is, that 
has been publicly released is that the Secretary--one of the 
issues that I have been going back and forth with the Air Force 
on has been the actually removal--of not ensuring that the A-10 
continues to be viable.
    The 2018 budget requests make sure that the Air Force 
cannot remove any active inventory of A-10 from flyable status 
due to unserviceable wings or other components. I think this is 
really important given the timing that you have just talked 
about about this comparison test and what the A-10 is doing 
right now against the fight against ISIS.
    Dr. Gilmore. Let me just be as clear as I can be about the 
timing. If I am correct, we would not start training for the 
operational test until mid-2018, which takes about six months. 
Then the test would be conducted beginning in very late 2018 or 
early 2019. By the time the test is over and the reporting gets 
done, another year has gone by. The report that is mandated in 
the--in the bill would not be available until the end of 2019 
or early 2020.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman. As I listen to this 
discussion, it strikes me that it would profit us--profit us to 
talk about a broader issue. Mr. Stackley, first I start with 
the premise that nobody involved in this process was malicious 
or meant to do harm. I want to say that you are one of the most 
capable officials that I have met in this--in this business.
    However, we could have had this same hearing today and you 
cross out ``LCS'' and put in ``F-35.'' You cross out ``F-35'' 
and put in the ``new class of carrier.'' You cross out the 
``new class of carrier'' and put in the ``future combat 
systems.'' It seems to me there is a more--a deeper issue going 
on here, and it strikes me that it is our desire to have the 
latest and greatest new technology as soon as possible, and at 
the same time control costs and do it on time. We are trying to 
invent things while we are building them.
    Could you comment on this larger question?
    Mr. Stackley. Senator, I think--I think you nailed it right 
there. We have spent a lot of time reviewing programs that 
either have failed or have just gone out of bounds in terms of 
cost and schedule, and almost invariably there are common 
themes. One of them is a lot of concurrency in terms of 
developing multiple technologies and trying to integrate them 
at the same time on a major weapons platform or major system. 
There is--and GAO has written a number of reports.
    There is an inclination to underestimate the cost----
    Senator King. Particularly of something that has never been 
built before.
    Mr. Stackley. Yes, sir. Yes, sir. Then, when you get into 
that contract environment and you get started, it is difficult 
to stop. You press forward. Now----
    Senator King. On the other hand, if you stop and say we are 
going to fully test--build a prototype and fully test, then 
that is going to lengthen your----
    Mr. Stackley. Yes, sir.
    Senator King.--your deployment window, and that conflicts 
with the need of the Navy, or the Air Force, or the Army to 
have these weapons to meet current threats.
    Mr. Stackley. Yes, sir. What we are doing is, and this is 
the CNO and myself. We are co-chairing requirements reviews, 
design reviews, production readiness reviews, program reviews. 
We are--we are challenging every requirement, every 
specification in terms of do we absolutely have to have that, 
or is there another way, a less--a lower risk way to deliver 
the ultimate capability that we have got to have.
    I would point out a couple of examples. The decision to, 
frankly, to truncate the DDG-1000 and to revert back to the 
DDG-51 was a recognition in the 2009 timeframe that we had 
overreached in terms of technology versus what we really needed 
in terms of warfighting capability. We go back to the tried and 
true DDG-51----
    Senator King. But that--but that decision made it likely 
that only building three ships----
    Mr. Stackley. Yes, sir.
    Senator King.--in one class was going to make them more 
expensive and all that.
    Mr. Stackley. It is going to drive cost into those three 
ships, but----
    Senator King. The first DDG back in the 80s was very 
expensive.
    Mr. Stackley. Yes, sir, but what it avoided was the 
recognition--it recognized the cost that was coming----
    Senator King. Right.
    Mr. Stackley.--in terms of completing that ship program. 
Then going back to the 51 and incrementally introducing the 
capabilities that we need to keep pace with the threat, 
particularly in the 51's mission areas.
    Senator King. The key word is ``incrementally,'' not 
trying----
    Mr. Stackley. Absolutely.
    Senator King. We had a hearing on carriers, and as I 
recall, what we learned was we were trying to do too much in 
the--in the new carrier.
    Mr. Stackley. That is exactly right. The original carrier 
concept was incremental over three ships. It was collapsed onto 
a single hull ole called CVN-78, and we are paying the price in 
terms that concurrent development and integration on that ship.
    Senator King. Okay. How do we avoid this in the future?
    Mr. Stackley. Well, we----
    Senator King. We have got the B-21 coming down the road.
    Mr. Stackley. I gave you the 51 example. On the next 
amphib, the LXR, we threw away the notion of a clean ship sheet 
design. We took the proven LPD-17 hull form, and what we are 
doing is tailoring that ship to meet the requirements 
associated with replacing the LSD-41. That was a year-long 
effort with myself, the commandant, and the CNO co-chairing 
those design reviews to get down to a design that we are 
confident that it is mature enough. We are not introducing 
unnecessary risk. We understand the cost, and now we are ready 
to put it into the----
    Senator King. It seems to me, though, that one of the--one 
of the things, and I know I am running out of time. But one of 
the things we need to think about is how to design these weapon 
systems in a--a way, and I hesitate to use the word--the word 
``modular'' because that is not a good word in today's hearing, 
but in a modular way so that they can be upgraded as technology 
improves instead of having to rebuild the whole--the whole 
thing.
    Mr. Stackley. We are getting there. It is open 
architecture, that general term. If you take a look at the 
vertical launching system on the DDG-51, that is an open system 
design. It started off with the SM-2. It now handles the SM-3. 
It handles the SM-6. It handles the Tomahawk. It handles the 
evolved cease-fire missile. Now we can develop the missiles in 
their environment and bring them to the ship, and then we will 
deal with the upgrades to the software and the land-based 
system.
    Senator King. The whole system is not--is not built from 
scratch.
    Mr. Stackley. Yes, sir.
    Senator King. Mr. Chairman, thank you very much for holding 
this hearing, and I look forward to future hearings. I hope we 
can continue this broader discussion of why does this keep 
happening. Thank you.
    Mr. Francis. Mr. Chairman, could I follow up for a moment 
with Mr. King? Mr. King, I think you are right on about the 
broader problem, and we have done quite a bit of work. I think 
what we have is an age-old acquisition culture problem where 
there are really strong incentives when a program is getting 
started to over promise on its abilities to perform and 
underestimate cost and schedule.
    Senator King. To load requirements on.
    Mr. Francis. To load requirements on, especially if you are 
only going to have platforms once a generation, you had better 
get everything on that platform you can.
    We have to look at what those incentives are and why they 
occur, some as competition for funding in the--in the Pentagon. 
If you show any weakness, your lunch is going to get eaten. 
Your program is not going to go forward. You have to be a 
strident supporter of those programs going through.
    We have to learn where to take risk and how to take risk, 
and I would say it is before that Milestone B decision. That is 
where we really need to make investments, and try things out, 
and be willing to put money there.
    You're right, there is--there is an aversion to if we take 
time to do that, that is going to delay the capability of the 
warfighter, and we find that to be unacceptable. But when we 
have approved the program and then it runs into delays, we find 
that is acceptable. I think we can get it right.
    I empathize with Secretary Stackley. He is in a very 
difficult position, and I think he is one of the best service 
acquisition executives I have--I have had the pleasure to work 
with. But he is charged dually with executing these programs 
and defending the programs, and that is a very tough position 
to put somebody in, but our acquisition process demands it.
    Dr. Gilmore. Mr. Chairman, I know--I would just like to say 
one thing on this topic based on my experience over 26 years. 
What we have to do is quit denying the facts. There are plenty 
of facts that were available about what was happening with LCS 
all along. Yet as recently as 2013 when it comes to the Mine 
Countermeasures System on LCS, that Navy testified, and I will 
quote here, ``Most of the systems in the first few increments 
consist of off the shelf products. The risk in these early 
increments is very low and very well managed.'' That turned out 
not to be the case. Again, in 2013 the Navy testified, ``The 
linchpin of the MCM package, the remote--the RMMV, now has over 
850 hours of reliability growth over the span of 47 missions in 
five months, which has shown the mean time between operational 
mission failure substantially exceeding requirements.''
    That statement was absolutely incorrect. I have been 
reporting for several years that those claims were incorrect, 
and the program office and the Navy could not bring themselves 
to deal with what the facts were. Ultimately, they did to their 
credit with the independent review team.
    But what I have seen repeatedly is an inability, a refusal 
to deal with what the facts are of how well the systems are or 
are not performing, and it is because of these incentives and 
other the other things that have been discussed. But it keeps 
happening, and it is a real problem.
    Chairman McCain. Doctor, that is why some of us express 
such extreme frustration because we are only as good as the 
information we receive as that the LCS would cost $220 million 
dollars per ship, which now Secretary Stackley says, well, that 
was absolutely wrong. Nobody said it was wrong at the time. 
Everybody said it was right.
    I do not want to take the senator's time, but there are two 
stories here that I could relate to. One was the MRAP [Mine 
Resistant Ambush Protected Vehicle], which we needed very badly 
in Iraq, and then the Secretary of Defense had to preside over 
a weekly meeting in order to get the MRAP to the battlefield to 
save lives from the IED [improvised explosive devices]. Then we 
had the other extreme, an RFP for a new pistol that is 200 
hundred pages long, for a pistol because it has gone through 
layer, after layer, after layer, after layer.
    The reason why I am frustrated and other members are, we 
are only--we can only make decisions on the information we get. 
If that information is incorrect or false, as Secretary 
Stackley just said about the LCS, then how can we function 
effectively for the people we represent? That is why you sense 
this frustration here amongst members of the committee, 
including this chairman, because we see it time after time.
    We have not even talked about the aircraft carrier, and the 
arresting gear, and the catapults, but--and I do not want to 
take more time of the committee. But I hope that our witnesses 
understand that we have to bring this to a halt. Fooling around 
on the fringes is not--has proven to be unsuccessful.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair. I agree with the chair 
that we have to have honest brokers, and we have to have people 
that will be held accountable. I do not know that we have seen 
that so far. But I do want to thank all of you for coming in 
today.
    As you may be aware, improving acquisition program 
management is a priority for me, and I have passed legislation 
to improve program management government wide. Not just in the 
DOD [Department of Defense], but government wide, with an 
emphasis on areas that are designated by GAO as high risk. This 
especially includes DOD acquisition program management.
    I know we can all agree that this LCS has become really an 
example of one of those DOD challenges. We mentioned the 
aircraft carrier. We will not go there today, but that is 
another one that we need to take a look at.
    But during times of defense spending caps, we know how 
difficult it is, and we have looming entitlement spending which 
will further squeeze our military budgets. We cannot have 
repeats of acquisition failures like we have seen with the LCS. 
Acquisition success is bottom line a matter of national 
security.
    This is a question for all of you, if you could just 
briefly respond, please. The LCS program changed its 
acquisition approach several times, something cited by the GAO 
as a reason for the increase in costs, and it also created 
performance issues. In your opinion, would the LCS program and 
others throughout DOD benefit from a standardized approach to 
managing the portfolio based on the best practices, not only of 
the industry, but also the government, before fully moving 
forward? If you could briefly respond, please, starting with 
you, Mr. Stackley.
    Mr. Stackley. Let me just describe that, you know, the 
experience of LCS, it broke the Navy, and we retooled the 
entire way that we do business when it comes to acquisition 
programs, and I think we are trying to pull best practices in. 
I described CNO [the Assistant Secretary of Navy] and RDA 
[Research, Development, and Acquisitions] sitting side by side 
reviewing requirements, reviewing specifications that lead to 
design, that lead to production.
    We have our program managers pretty much under a microscope 
right now, and we have taken things like cost, and we have put 
cost into our requirements so that you do not get to--you do 
not get to ignore cost while you are chasing a requirement. 
Just like speed, range, power, and payload, if you start to 
infringe on the cost requirement that we put--we put into our 
documents, then you have to report to RDA and CNO just like you 
do if you infringe on one of the other requirements. You have 
to identify what are you going to do to revert that, either 
trading away or otherwise. We would look at either canceling 
or, if necessary, padding costs to the program.
    Senator Ernst. Would that have been good to have had before 
the process was started?
    Mr. Stackley. Absolutely. Mr. Chairman's reference to the 
$220 million ship, the witnesses that informed the Congress, I 
do not think they knew. I do not think they knew or understand 
what this ship would cost. The system led to information that 
was provided.
    Chairman McCain. If they did not know, why did they tell 
the Congress that it would be--that the cost would be----
    Senator Ernst. Absolutely.
    Mr. Stackley. Because I think they believed or they desired 
it strongly enough that they believed that it would cost $220 
million, but the underpinnings below that was broken. That is 
why I am sitting side by side with the CNO reviewing our 
programs, holding program managers accountable, understanding 
the details of the cost element by element, time phase by time 
phase. If we need to make trades, we will make trades.
    Senator Ernst. Very good. Thank you very much. Vice 
Admiral?
    Admiral Rowden. Yes, ma'am. With respect to the application 
of lessons learned, feeding back into the acquisition system 
and from my perspective as a--as the commander of the Surface 
Forces, clearly one of the things I think that the review that 
we recently conducted, the 60-day review, showed that we needed 
to take a--take a step back, take a pause, and apply, and look 
at what lessons we had learned associated with the program, and 
make the appropriate adjustments in order--in order to get the 
value down to the combatant commanders, in order to get the 
operational availability of the ships up.
    I think that the--it is a constant process, and I know that 
we will be continuing to look at the ships as we continue to 
deploy more of them, applying those appropriate lessons as we--
as we learn them, and then feeding them back into the system. 
As it applies to the acquisition system, if we can apply those 
lessons back, then certainly we are going to do that.
    Senator Ernst. Dr. Gilmore, if you could respond as well. 
It is well and good. I am amazed that we are only now just 
discovering that we should be reviewing these processes and 
having a finished product in mind before we start the process. 
Could you respond, please?
    Dr. Gilmore. We should use best practices, and if you read 
the Department's acquisition--the documents that describe its 
acquisition process, they incorporate most of these best 
practices that people talk about, except they are often waived.
    What I have watched over 26 years is what I call a constant 
search for process solutions to what I think are fundamentally 
leadership problems. When leadership is presented with a cost 
estimate that a number of people, and I was working at CBO 
[Congressional Budget Office] at the time when the original 
cost estimates were put out, and we were warning that they were 
probably quite low. When leadership does not make itself aware, 
does not critically question the information that it is being 
given, and lets it go forward, that is a big problem. A process 
can help give them that information, but if they do not do 
their jobs as real leaders and critically question the 
information that they are being given and that it is being 
recommended that they send to the Congress and elsewhere, then 
they are failing.
    I have watched those kinds of failures occur for 26 years, 
and it--I am certainly for process improvements. If you have a 
bad process that stops information from getting forward from 
the, you know--does not enable the reviews to peruse that 
information to occur, then that is all bad. But if you have 
leadership that does not do its job, those process solutions 
will not fix things.
    Senator Ernst. That is very well put, Dr. Gilmore. Thank 
you. Mr. Francis?
    Chairman McCain. Senator Blumenthal.
    Senator Ernst. Thank you.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for having this hearing. Thank you to each of you for being 
here today, realizing that this topic is a challenging one for 
you. But as the chairman said at the very beginning quoting 
Ronald Reagan, ``Facts are stubborn things,'' and leadership is 
important.
    Dr. Gilmore, I find your testimony probably the most 
damning document concerning any government program I have ever 
read, not just as to what has happened in the past, and my 
colleagues have amply and ably focused on the procurement 
process, but the decision what should we do going forward. Not 
only is the survivability of this ship in question, but is very 
ability to accomplish the essential missions and endure the 
testing that has been reduced, in effect, because the ships are 
not sufficiently shock hardened, and, in fact, its 
cybersecurity defenses are not amply developed.
    In this approach that Mr. Francis has outlined of a 
procurement process rather than a block purchase, what is the 
case now for going forward with this program at all?
    Dr. Gilmore. Well, sir, it is not my purview to say what 
ships the Navy should buy or what capabilities the Navy should 
have in those ships. That is--that is the Navy's decision. What 
we have seen is that the ships thus far are not meeting the 
Navy's own performance requirements, and we are well into the 
program.
    I cannot predict what the future will hold. I know it 
sounds parochial, but I will say it again. I said it in my 
opening comments. Whatever the Navy decides to do with regard 
to going forward, the history here in this program, as well as 
in many other programs, is clear, and that is that the only way 
you are going to discover the problems with performance that 
are significant that you will have to deal with, you have to 
deal with before you send sailors into harm's way in combat. 
You do not want to discover these problems for the first time 
when you are in combat.
    Senator Blumenthal. Well, that----
    Dr. Gilmore. The only way you're going to discover those 
problems is by doing realistic testing along the way.
    Senator Blumenthal. I agree completely that you want to fly 
before you buy, which apparently has not been done here, and 
obviously test before you use the ship in combat. But what is--
what assurance can any of the witnesses give us that the ship 
is actually going to be capable of accomplishing its mission 
and protecting the sailors who are going to be on board?
    Dr. Gilmore. Well, the--again, we can give you information 
along the way about how well the ships and the crews are doing 
with regard to what the Navy expects the ships and crews to do. 
Of course, the Navy's views of what the Navy--the ships and 
crews are going to do is changing along the way as they learn 
more, which is appropriate. Which is appropriate. It is late in 
the process, but it is appropriate.
    You are never going to get from me or anyone else an 
honest, ironclad guarantee that the ships are going to perform 
the way people now say they hope they will. Those hopes are 
sincere, but, again, and I know it sounds parochial. What you 
have to continue to do is to do the testing that will tell you 
along the way whether your hopes are actually going to be 
realized, not deny the results of that testing, and adjust 
accordingly along the way. Now, finally, the Navy is doing some 
of that adjusting, and I actually commend them for it, but it 
took a while for all that to occur.
    Senator Blumenthal. Admiral, did you have a comment?
    Admiral Rowden. Yes, sir, if I could just add. There are a 
number of things that we are doing to ensure the value of the 
ships to the combatant commanders as they go forward. In my 
discussions with forward commanders, both in the Mediterranean 
and the Western Pacific, one of the things that they constantly 
tell me is we cannot get enough of these ships here to provide 
the presence and to provide the operational availability 
forward.
    I am excited about the direction that we are taking the 
ships. I am excited about the capabilities that we are bringing 
to the fleet. I am excited by the conversations that I have 
with the sailors on the ships as they look forward to 
innovating with the capabilities that we are delivering 
forward.
    There is no doubt that we have a lot of work to do, but as 
recently as 18 months ago, one of the things that we did was we 
stood up the Surface and Mine War Fighting Development Center, 
an organization that we are building, which mirrors a similar 
organization that the aviation community has had for a long 
time and the submarine community, where we can take those good 
ideas, take the equipment and the--and the--and the capability 
that the acquisition system is delivering, and put that in the 
hands of the sailors and get it forward.
    I think that what we are finding and what I am finding as I 
talk to these young men and women that take these ships to sea, 
yes, there are problems, and they are--and they are not shy 
about telling me what needs to be fixed about the Littoral 
combat ships. But they are also very excited not only about the 
potential or the capabilities that they do deliver, but also 
that the potential that are built into these particular ships.
    Senator Blumenthal. Thank you.
    Mr. Francis. Mr. Blumenthal, may I make a comment? As 
regards to the ships, once you do produce a hull, then the Navy 
is going to have to support it. For the ones that we have 
already committed to and are under contract, the Navy will have 
to do whatever is required through mission equipment and so 
forth to make them viable. As we know, there is no guarantee it 
is going to work out the way we thought. It is hard to--hard to 
say, as Mike Gilmore said.
    The Navy is committed to the full buy of LCS and the 
frigate, and they are obviously entitled to that decision. But 
you have to make your own decision. It is at least a $14 
billion commitment, and there are opportunity costs. Really the 
question for the committee is, is that the next best use of $14 
billion.
    Senator Blumenthal. Thank you very much. Thank you, Mr. 
Chairman.
    Senator McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair. Mr. Chair, I hate to 
take exception to something you said earlier. You said that the 
handgun RFP was 200 pages. It is actually almost 680 pages, and 
it has been in the works for 10 years. It is a shining example 
of a, to me, disastrous procurement process.
    Chairman McCain. Thank you for that correction.
    Senator Tillis. But the acquisition people did tell me that 
there are only 39 nine pages of specifications, so I asked them 
are the other pages just blank pages for notetaking, or are 
they relevant to the acquisition.
    Mr. Francis, look, first off, I believe everyone here is 
trying to do the very best to put warfighting capabilities out 
there to protect our men and women and to let them accomplish 
their mission. I think everybody's intention is to do that. 
Mr.--or Secretary Stackley, I think you have inherited a 
problem. There is a great joke that I will not use my time on 
now that talks about the difference between a bear skinner and 
a bear hunter, and you are trying to skin a bear that somebody 
took down. They did not quite wrestle it to the ground. I 
appreciate the fact that you are dealing with something and 
expectations that were set back over a decade ago. I do think 
that there are things even in this Administration that we have 
to face up to in going forward.
    Mr. Francis, I worked in complex consulting environments in 
research and development. When we would go about estimating 
large projects, we would use past history as a basis for going 
out and creating an estimate for what we are doing now. Once we 
did that, we would still handicap it with examples of other 
projects that we did not hit our--did not hit our mark.
    It seems to me until we come up with an acquisition process 
that actually comes close to its original mark, we have got to 
start handicapping any estimates here. In my--if I go through 
the LCS, the F-35, the carrier, the future combat systems, it 
would seem to me anytime someone comes in here--either you or 
your successors come in here, I should multiply somewhere on 
the order by two or two and a half times the amount of money 
and the length of time that is going to be necessary to deliver 
this platform, because past history has proven that to be the 
case most of the time. Would you agree with that?
    Mr. Francis. I would, sir.
    Senator Tillis. I have to ask you just as a point of 
interest on my part, I do not know how on earth anybody who has 
worked in your--in your position for 42 years could possibly 
have the amount of hair that you do----
    [Laughter.]
    Senator Tillis.--because I have got to believe you are 
tearing it out. I mean, why can we not front end load--the 
insights that you are providing here, why can that not be 
instructive to the estimating process to begin with? In other 
words, in the same way that we would handicap these large, 
complex projects, not anywhere approaching the complexity of 
what we are talking about here in the IT world, why do we not 
have a function that says, you know, you guys, you think you 
have got it, an ideal circumstance, $200 million, it is going 
to be great, time horizon. But then have somebody come in and 
say, but because all of you have been consistently and 
habitually wrong, we are going to require handicapping of some 
multiplier.
    Why should we not have that sort of methodology until we 
actually get our act together and deliver something on time and 
on budget?
    Mr. Francis. It is a really interesting discussion. Then, 
if you look at the private sector and I think this is the point 
the chairman is getting to, accountability is pretty clear. I 
mean, if you blow the estimate and you cannot sell your product 
at a profit, then the company loses money, and you know who is 
accountable.
    Senator Tillis. Mr. Francis, I want to keep to my time. I 
know that the committee has gone long. But that is another 
point that the chair has made and a source of frustration for 
many of us that I think we also have to change in the 
procurement process. I used to call them memorable moments.
    When I would have a team who would come out and do these 
sorts of estimates, and then we do the handicapping, I would 
put a tag on every single one of them. Who was ultimately 
responsible for this, whether the supplier--whether inputs or, 
in my case, subcontractors, staff on board. I would create a 
memorable moment so if that person still worked for the 
government at a point in time that we were two and a half times 
over a cost or two and a half times over time budget, they lost 
their job.
    I think that in this process we have to start looking that 
way, we are going to continue these poor results, and we are 
going to continue to be frustrated at the expense of having 
more money to put to more warfighting systems that make our men 
and women safer and more--and the probability of our completing 
our missions more likely. I think we have to start doing this.
    I am going to reach out to your office and speak with you 
about maybe how we can front end load some of this 
handicapping. It is clear to me it has not happened. If it has 
happened, we have got incompetent people doing it. Thank you, 
Mr. Chairman, and I yield back my time.
    Dr. Gilmore. Senator, could I just----
    Senator Tillis. All two seconds.
    Dr. Gilmore. Senator, could I just add something because in 
my previous life I actually worked as a career person in what 
is called cost assessment, is now called Cost Assessment and 
Program Evaluation [CAPE] in OSD [The Office of the Secretary 
of Defense]. There is a group there that does cost estimates. 
There are independent cost estimates, independent of the 
services and the program offices, cost estimates of programs.
    They do it on the basis that you just described, historical 
experience. There is a very rigorous process that exists and 
good literature that exists about how to do that, and they do 
it very well. They present their estimates, and then the 
acquisition leadership starts rationalizing why the next time 
this time things will be different, things will be better. They 
go through the handicapping that you talked, but in exactly the 
opposite way that you just described.
    Mr. Stackley. Sir, if I may, Dr. Gilmore's description of 
the role of the CAPE cost estimating is correct. His 
description of what happens between the acquisition community 
and the CAPE regarding that estimate is not correct.
    Senator Tillis. But the bottom line--the bottom line, 
Secretary Stackley, with all due respect----
    Mr. Stackley. Oh, yes, it is.
    Senator Tillis.--and I have gone over--with all due 
respect, they have been wrong. The LCS, the F-35, the carrier. 
If I had more time, I would ask Mr. Francis in his 42 years 
many--this is a bipartisan failure. It has transcended 
Administrations. But at some point you have to look at history 
and recognize history for what it is. It is the only way you 
will not repeat the mistakes.
    The fact of the matter, if somebody wants to come up to me 
and say, you know, Senator Tillis, look at all these programs 
in DOD that we have gotten right, it is just unfair for you to 
say that we are off almost every single time, I do not believe 
that the data would be very compelling to support that 
argument. Let us figure out a way to handicap it so that we can 
have discussions and set realistic expectations so that we can 
help the warfighter.
    I am sorry, Mr. Chair. I have gone over. Thank you.
    Chairman McCain. Secretary Stackley, you wanted to comment.
    Mr. Stackley. No, sir. What I was going to--well, two 
things. One, I think we owe you the data. I think we--as a task 
here we should be providing the data in terms of cost growth on 
programs, and it is not a pretty picture cost growth programs 
over history.
    My comment with regards to the CAPE's estimate, I cannot 
point to many programs in the Navy, I cannot think of any off 
hand, where we are not, in fact, budgeted to the CAPE's 
estimate, with the exclusion of programs where we have a fixed 
price contract in hand, and so we do not budget above the fixed 
price. I think we actually try to work very collaboratively 
with the CAPE to arrive at the best estimate for our programs 
going forward.
    I would go back Mr. Francis' discussion regarding the 
importance of Milestone B and getting--that is the critical 
point where we have got to get it right, lock in the program 
baseline, get the independent cost estimate as best as 
possible, budgeting the risks and everything else accounted 
for. That is--that is the critical point. In fact, LCS went 
forward without a Milestone B. That rigor was not there.
    Chairman McCain. On, again, wonders why and who did it. 
Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. Admiral, we have 
gone from 52 ships to 40. Why? Why are we going to just buy 40 
of these things?
    Admiral Rowden. The requirement for the Small Surface 
Combatant remains 52. So----
    Senator Graham. But Secretary Carter said we are going to 
build 40. Is it because of budgets?
    Admiral Rowden. That was a budget driven decision, yes, 
sir.
    Senator Graham. Okay. One, the committee needs to know 
sequestration probably. Is that right? Is that right, Mr. 
Secretary?
    Mr. Stackley. Let me weigh in. The Budget Control Act, yes, 
sir. Secretary Carter's decision was we have to take risk due 
to the budget and where we are going to take risk----
    Senator Graham. Okay, I got you. He said I got to do 
something because I just do not have enough money, so I am 
going to, like, go from 52 to 40. Admiral, you said that people 
out in the field out on the--you know, fighting the wars and 
preventing wars, they like this. They want more of these ships. 
Is that right?
    Admiral Rowden. That is correct, sir.
    Senator Graham. Okay. What does this ship do that is so 
important? What can it do that is different than the ships we 
have today? Very briefly.
    Admiral Rowden. Well, certainly, sir, as we--as we move 
forward, the building of the--of the--of the----
    Senator Graham. Is it more stealthy? What makes it 
different?
    Admiral Rowden. It gives us--it will deliver higher 
operational availability forward. I think it will give--deliver 
more capacity forward I think as we bring in the minesweeping 
capabilities, as we bring in the anti-submarine capabilities, 
which I think will significantly improve our ability to hunt 
and track----
    Senator Graham. Is this a modernization program? Are we 
trying to modernize ships? Is that what this is about?
    Admiral Rowden. Well, certainly the advanced technologies 
will be--that we will deliver will be--will be of much use to 
the--to the--to the sailors as we move them forward, yes, sir.
    Senator Graham. Okay. All right. Modernization of the 
existing fleet is one of the goals to be achieved if this ship 
comes online, right, and operates. It would be more effective.
    Admiral Rowden. Yes.
    Senator Graham. That is why we are doing this, right?
    Admiral Rowden. Yes, sir.
    Senator Graham. The reason we are not building 52 is 
because of money, not because demand. The world is not safer to 
justify 40 versus 52. Is that correct?
    Admiral Rowden. That is correct, sir.
    Senator Graham. Okay. When it comes to estimating ships, 
who actually said $220 or mean whatever the number was?
    Mr. Stackley. Sir, we are going to have to go back to the 
record----
    Senator Graham. All right. Let us do that.
    [The information referred to follows:]

    OPNAV memo regarding ``Objectives for Family of Ships Concept 
Studies'' dated July 8, 2002, stated that $220 million (fiscal year 
2005 dollars) was the targeted goal for ship construction cost of one 
LCS.

    Mr. Stackley.--the leadership.
    Senator Graham. Right. Well, that is a lot of people. Let 
us find the guy or gal or the groups of guys and gals that said 
it is $220 million, and see who they are, and figure out what 
we should do about that. I think we should, like, call him in 
Mr. Chairman, and talk to them.
    This $448, why did it go up so much? Was it because we 
asked for things additional to what was originally required? 
Was it sort of add on capability?
    Mr. Stackley. Sir, the one major change that was done to 
the program early on after contract award or commensurate with 
contract award, was we changed the specifications to go to what 
is referred to as naval vessel rules to give it the degree of 
design details associated with----
    Senator Graham. How much did that add to the cost?
    Mr. Stackley. It is hard to pin a number on it, but it 
created extraordinary disruption at the front end of the 
program.
    Senator Graham. You cannot blame the original people who 
gave the cost estimate because they were not confronted with 
that requirement.
    Mr. Stackley. That is a good point that that requirement 
was added after the $220.
    Senator Graham. Who put that requirement on?
    Mr. Stackley. I would have to go back to the record to find 
out.
    [The information referred to follows:]

    Many factors contributed to the rise in cost per ship of the LCS 
compared to that originally bid by industry, some of those due to 
specification changes.
    The January 2004 LCS Final Design Request for Proposals (RFP) 
included the Navy's intent to classify LCS to the new American Bureau 
of Shipbuilding (ABS) Naval Vessel Rules (NVR). This occurred prior to 
the final ABS NVR rules which were not available until May 2004 (Note: 
the NVR development was primarily tied to DDG 1000 need dates). The ABS 
NVR were developed to create a less prescriptive means to specify ship 
requirements than Military Specifications (MILSPECS), and also 
represented a shift away from design specifications to performance 
specifications. The Navy stated its intent to develop and impose these 
requirements, but industry bids developed and submitted in March 2004 
did not completely capture the impact of the final ABS NVR. The LCS 
industry bids were based on commercial designs to contain cost. 
However, the commercial design did not meet many key LCS requirements 
and the cost to modify the designs was underestimated. After contract 
award, industry and the Navy worked to change the design specifications 
to one which would meet Capabilities Development Document requirements 
and could be approved and certified by the Navy. In addition, complete 
details of mission package interfaces were not available at RFP release 
for industry to adequately bid, and industry underestimated the cost of 
mission package integration. These and all other changes were 
contractually settled with each industry team through the LCS 
Engineering Change process.
    In addition to the above specification changes, there were 
documented requirements for rapid delivery of LCS to the Fleet. These 
requirements resulted in initiation of ship construction prior to 
design completion, resulting in rework, schedule impacts and cost 
increases.

    Senator Graham. I want to find out who did the 220. I want 
to find out who said it needs to do this, not that so we can 
talk to them as to why they decided that. Mr. Francis, do you 
have any idea who did that?
    Mr. Francis. I do not remember at this point, Senator. But 
I think what happened with the ship is it was thought to be a 
relatively simple derivation of high-speed ferries of 
commercial vessels when they got in, and they made that 
estimate before they entered the detail design. When they got 
into detailed design and they got naval vessel rules, then they 
found out it was way more complicated than they thought. That 
was----
    Senator Graham. They found that out after they started 
building the thing.
    Mr. Francis. Yes.
    Senator Graham. Okay. I want to end with this. If we do not 
modernize our force, we will pay a price. The A-10 works today, 
but it is not going to work forever because we will not be 
fighting ISIL forever. There will be an environment where the 
F-35 makes more sense. It makes no sense to me to retire the A-
10 because it actually works. But all of us need to know what 
you are trying to do is modernize the force so that the next 
war we are in or the next war we need to prevent that we are 
capable of doing both, right?
    Modernization is not an exact science. Part of the problem 
is when you modernize your force, it is not like just 
duplicating something. It is not a commodity. But what have I 
learned, that in the effort to modernize the force, our 
estimates of what it cost and the capabilities we need are ever 
changing. The process is completely broken, and it goes back to 
what you said, Doctor, about leadership.
    If you want this to stop, somebody needs to get fired. One 
of the reforms we did in this committee is to make every 
Service Secretary and Service Chief responsible for the big 
programs under their control. Hopefully in the future someone 
will be held accountable and get fired if this happens again. 
If nobody ever gets fired, nothing is going to change. Thank 
you.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Dr. Gilmore, I wanted to follow up on some of the questions 
you received from Senator Blumenthal. You were talking about 
kind of the hopes that you had. Matter of fact, I think you use 
the word ``hopes'' three or four times just in answering the 
questions on the capability of the ship. But in your written 
testimony--your written testimony is not full of hope at all, 
so let me--let me read a little bit of what you said with 
regard to the written testimony.
    "With respect to survivability, neither of the LCS variant 
is expected to be survivable in high intensity combat. Neither 
of the LCS designs include survivability features necessary to 
conduct sustained operations in a combat environment. The LCS' 
limited lethality makes these ships a shadow of the abilities 
of modern Navy frigates.
    With regard to combat capability, you seem very concerned, 
so let me ask him more operationally focused question, Admiral. 
Given what Dr. Gilmore said, do you think--are you confident 
that these ships could, say, for example, go into the South 
China Sea, conduct a FONOP [Freedom of Navigation Operation] 
near Mischief Reef or other places, and be able to survive if 
Chinese frigates responded with force, or could an LCS in the 
fleet today survive attacks from small boats and other patrol 
craft like the ones that were used in the recent capture of 
American sailors by Iran? Are you confident of that given what 
Dr. Gilmore clearly states is a ship that is not combat 
survivable?
    Admiral Rowden. Yes, sir, I am. I----
    Senator Sullivan. Are you, Dr. Gilmore?
    Dr. Gilmore. No, for the reasons that are stated in detail 
and all the reporting that I have done at the classified level 
and other levels.
    Senator Sullivan. Admiral----
    Dr. Gilmore. These ships--the original vision for these 
ships was that they could use unmanned systems that would go in 
and conduct combat operations, and they could stand off away 
from threats. But those unmanned systems that can reach out and 
conduct combat operations we do not have, and it is not clear 
when we ever will.
    The ship was built to not be nearly as survivable, as, for 
example, the Frig 7s [Perry-class Frigates] that we used to 
have. It was built according to high-speed naval vessel rules, 
which fundamentally limits the amount of compartmentalization 
and redundancy you can put on the ship. It is not nearly as 
survivable as other ships, and, frankly, it was not meant to be 
in that regard.
    The original CONOPs [concept of operations], if it could 
be--ever be realized, that might have been fine. But as I 
understand the CONOPs and the way it has been written, and the 
Navy is continually revising it based on what it learns, the 
CONOPs still says that the ship would be out there preparing 
the way for the battle fleet. If that is true, then it will be 
subject to attack by anti-ship cruise missiles, torpedoes, and 
mines. The Navy's own requirements show that the only the--only 
thing the Navy expects if it is hit by one of those kinds of 
threats is for it to be able to exit the battle area and/or 
provide for an orderly abandon ship.
    Against those kinds of threats, which ASCMs [anti-ship 
cruise missiles], for example, the Chinese are fueling 
thousands of them, and they are supersonic, and they are very 
threatening. Those are going to be a challenge for any ship, 
but a particular challenge for this kind of ship.
    Senator Sullivan. Admiral, how do you respond to that, and, 
you know, are you--are you confident, you know, in putting our 
marines and sailors on these ships to conduct those kind of 
operations, say, again, in the South China Sea or a standoff or 
a confrontation with Iranian small boats?
    Admiral Rowden. Yes, sir. There are a number of variables 
that go into the equation associated with the survivability of 
the ships. Certainly, the manufacturer of the ship, the 
watertight integrity of the ship, the way the ship is 
manufactured. That is part of the survivability. Part of it is 
the damage control systems that we put on the ship in order to 
ensure the survivability. Part of it is the defensive systems 
that we put on----
    Senator Sullivan. You do not--you do not agree with Dr. 
Gilmore's written testimony.
    Admiral Rowden. I think there are a number of--there are a 
number of variables that have to be looked at when you look at 
the survivability of the ship. For example, one of the 
variables that you have to look at is the intensive training 
that we provide to all of our sailors, not only to fight the 
ships, but also to fight battle damage.
    I go back to the example of the USS Samuel B. Roberts that 
hit the mine in the Arabian Gulf. Every analysis said that ship 
should have gone to the bottom of the Arabian Gulf. It did not. 
Those sailors fought, and they saved that ship. That is--and 
that is one aspect that I think is sometimes lost in talking 
about the survivability of a ship.
    Clearly, we do not want to have any of our ships get hit, 
and we--and we--and we rely on operations, we rely on 
intelligence, we rely on operating those ships to hopefully not 
have to lean into a punch.
    Senator Sullivan. Despite Dr. Gilmore's written testimony, 
you are comfortable putting marines and sailors on these ships 
in combat situations against Chinese frigates or Iranian naval 
ships.
    Admiral Rowden. Yes, sir, but I think you have to take it 
in the proper context in that I do not think that necessarily 
we would find these ships operating alone and unafraid in the 
middle of an adversary's fleet.
    Senator Sullivan. If they were?
    Admiral Rowden. If they were, then I think that we would do 
our best to fight the ship, and we would do our best to defend 
the ship. If the ship took a hit, the crew would fight to save 
the ship and exit the area as the ship is designed.
    Dr. Gilmore. Can I add something, Senator?
    Senator Sullivan. Sure.
    Dr. Gilmore. We do something called a total ship 
survivability trial, and it gets at exactly the issues that the 
Admiral was just raising. Now, of course, we do not actually 
let an ASCM, an anti-ship cruise missile, hit a ship. Obviously 
not. But we do have the crew there. They are trained in all the 
damage control measures that they are supposed to take. We do 
then go through a simulation of one of these threat systems, 
like an anti-ship cruise missile--we have done this--hitting 
the ship--we have done this for the LCS. We then have the crew 
fight to save the ship.
    In the total ship survivability trials that we did, the 
crews did their best, but in almost every instance there was 
major damage to the ship, and the combat capability was fully 
lost. In some instances, the ship would have been lost.
    Again, an anti-ship cruise missile hit on any ship is going 
to be a problem, no doubt about it. But a hit on one of these 
ships with their lack of redundancy, their lack of 
compartmentalization, which is driven by, you know, their small 
size and the speed requirement, and their construction 
according to high-speed naval vessel rules. A hit on one of 
these ships is going to be a real problem, and we have analyzed 
that, and we have done the kind of testing that enables the 
crew to fight--try to fight to save the ship. There are 
definitely problems with these ships.
    If you can keep them out of harm's way, okay, but the 
current CONOPs says that they will be out ahead of the battle 
fleet preparing the way. Again, they will--if they are going to 
do that, they will be subject to being hit and attacked by 
these threats.
    Chairman McCain. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. Good morning, 
gentlemen. Thank you for your testimony this morning, and thank 
you for your dedicated service to our men and women in uniform.
    The near peer threat we are facing is increasing across the 
globe, with our Nation's adversaries bolstering their defense 
capabilities and focusing on new technology in the hopes that 
they can deny access to the United States Navy or, if 
necessary, compete militarily with the United States in a more 
limited scenario.
    Recent acts of aggressions by our adversaries prove that 
the men and women in the United States Navy operate in an 
incredibly difficult environment every single day. Whether 
facing threatening shows of force from Iran, Russian 
belligerents, and unsafe practices, or China's egregious claims 
and illegal expansions into the South China Sea, our Navy 
sailors are to be commended for their professionalism and 
steadfast service. However, these actions should remind us that 
there is simply too much at stake if we willfully choose to 
ignore the ambitions of our foes.
    There is undoubtedly room for improvement in the LCS 
program, and I appreciate your candid testimony regarding 
several of the reviews and efforts that are already underway. 
But instead of looking back, I am most concerned that future 
problems might plague the program, and that it could have a 
crippling impact on the Navy's entire modernization efforts. 
Between the Ford-class carrier, F-35 procurement, the LCS, and 
an Ohio-class replacement ballistic submarine, the Navy simply 
must make the most effective and efficient use of every single 
dollar it receives if we are to have any hope of rebuilding the 
fleet.
    Now, Secretary Stackley, there have been many studies that 
have attempted to determine the appropriate size and mix of 
Navy forces, including the 1993 Bottom-Up Review in the 2010 
Quadrennial Defense Review, to name a couple. Most of the 
studies indicate that we need more than the Navy's current plan 
to build 308 ships in order to defend our global interests.
    In the time since those reports, our Navy has now shrunk to 
around 275 ships, while commitments and the number of 
deployments have remained relatively constant. This has 
resulted in a larger percentage of the force being at sea on 
any given day, often for longer deployments than their 
predecessors, and add an--at the expense of other mission 
requirements. The incoming Administration has set a goal to 
increase the Navy to 350 ships and to reverse this damaging 
trend. That is a goal with which I strongly agree.
    My question to you is can you provide your professional 
opinion to this committee on how we can accomplish a 350-ship 
fleet, what an appropriate high/low mix of platforms might look 
like, and where you believe the LCS and its successor will fit 
into that construct?
    Mr. Stackley. Yes, sir. Let me--let me describe that right 
now the CNO and his staff is conducting an update to the force 
structure assessment that was last updated in 2014. He has been 
very clear and testimony in the public describing that the 
threat vector has only--has only increased. The 308-ship Navy 
that is currently on the books, all pressure says that number 
has got to go up.
    The force structure assessment taking place right now is 
identifying what number and mix of ships we need for the 
future, mid 2020s and beyond. He has been clear, the number is 
going to go--the number in terms of requirements will go north. 
That going to put more pressure on the budget. What we have to 
determine is in that mix of ships, what the specific modernized 
capabilities that we will need platform by platform, and then 
how to procure those as affordably as possible so we do not add 
more pressure to the budget than absolutely necessary.
    Inside of that construct, high-low mix, LCS is the small 
service combatant today, and we have talked about the frigate 
modification to the LCS platform going forward. The today 52 in 
the force structure assessment, 40 in terms of a budget 
determination. If we fail to deliver the small surface 
combatant in those numbers, then what that means is we are 
going to put more pressure on the high end of our--of our force 
structure. That is going to add costs, and that is going to 
take those ships off of the--where they need to be, tax them in 
terms of operational demand compared to where they need to be, 
and that is going to put more pressure in terms of turnaround 
time and the entire operations and maintenance cycle.
    Senator Cruz. What do you see as the biggest challenges 
facing growing to a 350-ship fleet, and what do you see as a 
realistic timeframe for that?
    Mr. Stackley. Yes, sir. Let me--let me first say the first 
big challenge that is already in the program of record is the 
High Replacement Program due to its uniqueness, its imperative 
in terms of schedule and the capability that we have to 
provide, and then its cost. It is a--it is a high-cost program.
    We are, and when I say ``we,'' it is CNO and myself are on 
top of that program in terms of the design process, in terms of 
the planning to ensure that it does not grow. In fact, we are 
looking to find ways to make it more affordable than it is 
today. That already stands as a challenge going forward.
    The next--the next thing we need to do is leverage existing 
designs. What we do not want to do is bring a whole bunch of 
new design to the table, add the technical risk that that 
brings, the startup costs that that adds, and the uncertainty 
that that introduces, and add the amount of time that that will 
take to go through the design and production cycle. Let us 
leverage the existing production lines that we have and 
introduce capability to those platforms as best as possible 
looking at that future threat. That is the path that we are on.
    Then the next is raising the rate at which we produce those 
ships. I will tell you the first part of it is going to be 
looking at our attack submarines. When you look at our force 
structure going forward, we have a very serious shortfall in 
attack submarines in the late 2020s. We have got to stem that 
as best as possible. That would be the first place that we go 
in terms of increasing our production rates.
    Surface combatants. Right now, we are building surface 
combatants at a rate that in the long-term results in dropping 
off in terms of total number of large surface combatants, 
because we built at such a high rate during the Reagan buildup 
years. Well, if we--if we stay at two per year, we are going to 
start settling down to a 60 to 70 number of large surface 
combatants, which will not meet our operational requirements.
    Then amphibs. Today, we are--we are below what the CNO and 
the commandant agreed to in 2009 in terms of the amphibs force 
structure. We have got to get up to that number, and we are on 
that path. But the reality is that these are high utility 
platforms. They are high demand, high utility, very flexible. 
Wherever we have operations going, amphibs find a way to 
support that operation. There is--that will be the next leg in 
terms of increasing our production rates.
    Senator Graham. Thank you.
    Chairman McCain. I am sure that you will get support from 
this committee on that. You will not get support if we have 
double--redouble the cost of these systems. We owe the 
taxpayers a lot more than that.
    This has been a very helpful hearing, and I thank the 
witnesses. We are adjourned.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Sessions
                      littoral combat ship program
    1. Senator Sessions. When is the next Force Structure Analysis 
(FSA) due for completion and dissemination?
    Secretary Stackley. Navy's Fiscal Year 2016 Force Structure 
Assessment was released on December 16, 2016.

    2. Senator Sessions. If the next FSA shows the Navy's force-level 
needs to be higher--for example 325 or 350 ships--shouldn't we 
anticipate the Navy's current requirement for 52 small surface 
combatants to increase?
    Secretary Stackley. Navy's Fiscal Year 2016 Force Structure 
Assessment, released on December 16, 2016, reaffirmed the requirement 
for 52 Small Surface Combatants.

    3. Senator Sessions. Given the need for 52 small surface 
combatants, what is the rationale for truncating the LCS program and 
how does the Navy intend to start a new program to get to the required 
small surface combatant force-level?
    Secretary Stackley. The Navy's requirement for 52 Small Surface 
Combatants was validated through the 2014 Force Structure Assessment 
(FSA) and revalidated with the Navy's 2016 FSA. The truncation to 40 
Small Surface Combatants reflects a consequence of the hard choices 
that had to be made to deliver the fiscal year 2017 budget in 
compliance with the Bipartisan Budget Act. At that point in time, 
Secretary of Defense Carter concluded that the Navy could accept risk 
associated with slowing the rate of ship construction in the near term 
in order to rebalance its investments towards other warfare systems and 
advanced capabilities. The Navy plans to continue LCS procurements in 
fiscal year 2018 and fiscal year 2019 while transitioning to the more 
capable Frigate in fiscal year 2020 to meet the full Small Surface 
Combatant requirement.

    4. Senator Sessions. Are there benefits of keeping the LCS program 
on its original course of two shipyards building to 52 units and if so, 
what are they?
    Secretary Stackley. By maintaining the two LCS shipyards, the Navy 
maintains a competitive environment for not only the shipbuilders, but 
also for the supporting vendor industrial base, resulting in highly 
competitive pricing throughout the supply chain. Additionally, 
maintaining two construction yards provides the Navy capacity and 
flexibility to address changes to the LCS acquisition plan and 
preserves industrial base necessary to meet changing Force Structure 
Assessment (FSA) requirements. The Navy's requirement for a minimum of 
52 Small Surface Combatants (SSC) was validated through the 2012, 2014, 
and the 2016 FSA and no subsequent analysis has revised this 
requirement. The truncation to 40 SSCs reflected the consequence of the 
hard choices that were made to deliver the fiscal year 2017 budget in 
compliance with the Bipartisan Budget Act. Secretary Carter (former 
Secretary of Defense) concluded that the Navy could accept risk 
associated with slowing the rate of ship construction in the near term 
in order to rebalance its investments towards other warfare systems and 
advanced capabilities. The two LCS shipbuilders currently utilize 
facilities optimized for LCS serial production, resulting in stable 
production planning and improved cost and schedule performance. The 
benefit of keeping the two shipyards constructing LCS viable throughout 
the procurement of the 52 SSCs allows the Navy to meet the FSA 
requirements within a highly competitive framework.

    5. Senator Sessions. What is the current cost per unit of LCS?
    Secretary Stackley. The current budget estimate for two fiscal year 
2017 LCS is $1,125.6 million, $562.8 million per ship end cost in then 
year (TY$) dollars. Based on the previous year's procurement profiles 
of up to four ships per year, the current Program Managers estimate for 
the average end cost of the block buy ships (LCS 5, 6, 7, 8 and LCS 10 
delivered, and LCS 9, 11--LCS 26 under construction) is $486.9 million 
in TY$ dollars. End cost includes the basic cost of construction, 
government furnished equipment, and budget for change orders, plans and 
other.

    6. Senator Sessions. Will the cost of the remaining units in the 
LCS program be increased by down-selecting the LCS before reaching the 
currently planned 40 vessels?
    Secretary Stackley. Increasingly complex operating environments, 
emphasis on distributed maritime operations, and the need for combat 
logistics force escort-capable ships to free up large surface 
combatants for high-end missions has prompted the Navy to reevaluate 
frigate requirements and pursue a Guided Missile Frigate (FFG(X)) 
having local air defense capability and increased survivability 
characteristics. To allow adequate time to mature the design and 
thoroughly evaluate design alternatives, the PB18 budget defers the 
FFG(X) contract award to fiscal year 2020. A revised acquisition 
strategy will be developed to conduct a full and open competition using 
existing designs in fiscal year 2020, vice doing a down-select of the 
existing LCS variants.
    If the existing LCS shipbuilders do not secure additional workload, 
the Navy will experience cost growth and schedule delays for the ships 
currently under contract with the affected shipbuilder(s). Additional 
schedule and cost risk will be introduced through reductions in the 
industrial base as each stage of construction concludes, with 
corresponding manpower reductions. Each shipyard is managed by stage of 
construction for which trades and skills are not transferable from one 
stage to another. Due to this, lack of follow on work will begin to 
impact the industrial base much earlier than delivery of the last LCS 
from the affected shipyard(s). In addition, the ability of the affected 
shipyard(s) to compete for future Navy and commercial work will be 
jeopardized, exposing the Government to costs related to shipyard 
closure should the affected shipyard(s) not remain viable. The 
Government's exposure to cost growth resulting from these risks is 
limited by the contract price ceiling and related fixed price incentive 
terms and conditions.

    7. Senator Sessions. What is the projected cost per unit for the 
LCS replacement--the Future Frigate?
    Secretary Stackley. To allow adequate time to mature the design and 
thoroughly evaluate design alternatives, the first year of Frigate 
procurement is now planned for fiscal year 2020. The Navy is finalizing 
the requirements for the Frigate and will begin seeking Industry design 
solutions for review in the summer of 2017. In conjunction with 
finalizing requirements and design solutions, the Navy will develop a 
cost estimate for the program, ensuring a balance of both capability 
and affordability.

    8. Senator Sessions. What would be the benefits and costs of 
accelerating the LCS replacement, or Future Frigate, to ensure the Navy 
continues building to its current 52 ship requirement as quickly and as 
efficiently as possible?
    Secretary Stackley. The Navy's 2016 Force Structure Assessment 
revalidated the warfighting requirement for a total of 52 small surface 
combatants (SSCs). While LCS provides valuable capability, the Navy 
needs to transition to the more capable Frigate. This improved 
capability will provide the remaining ships needed in order to meet the 
full Small Surface Combatant requirement and allow for an expanded 
mission to address the emerging threat environment.
                               __________
                               
                 Questions Submitted by Senator Ayotte
               building enough virginia-class submarines
    9. Senator Ayotte. In the April Seapower Subcommittee hearing, I 
asked you, Secretary Stackley, as well as Admiral Mulloy, about the 
requirement for attack submarines. I also raised the issue with Admiral 
Richardson in March in the Navy posture hearing. Admiral Mulloy and 
Admiral Richardson confirmed that the current requirement for 48 attack 
submarines was established around 2006. Admiral Richardson stated in 
May what we all understand: ``The security environment [has] changed a 
great deal since then.'' As a result, he said the Navy is only able to 
meet about 50 to 60 percent of combatant commander demands right now 
for attack submarines. The Chief of Naval Operations said that he had 
commissioned a study to reassess the attack submarine requirement. 
Secretary Stackley, can you provide an update on that study? When do 
you expect it to be complete and delivered to Congress? Do you expect 
that the attack submarine fleet requirement will likely increase?
    Secretary Stackley. The Navy's current Force Structure Assessment 
(FSA) was released on December 16, 2016. The FSA concluded 66 attack 
submarines (increased from 48) would be needed to provide the global 
presence required to support national tasking and prompt warfighting 
response.

    10. Senator Ayotte. In light of this projected decline in the size 
of our attack submarine fleet at a time when the demand for them is 
increasing, you and I have discussed the issue of building two--instead 
of only one--Virginia-class submarines in 2021. In April, you mentioned 
to me in the Seapower Subcommittee hearing that the Navy is working 
with industry to see if in 2021 we could simultaneously execute the 
planned Ohio Replacement program and also build two (not just one) 
Virginia-class submarines that year. I included language in the NDAA 
Committee Report on this issue. I understand that there are at least 
two elements to consider: funding and capacity of the industrial base. 
You said this is a top priority. Secretary Stackley, can you provide an 
update?
    Secretary Stackley. Additional funding will be needed in fiscal 
year (FY) 2019 for advance procurement and economic order quantity 
(EOQ) funding in order to commence long lead time material activities 
and optimize savings from EOQ material procurements to add a second 
Virginia-class Submarine (VCS) in fiscal year 2021. No industrial base 
investments are required. A thorough study to determine the impact of a 
steady state two VCS build rate concurrent with the Columbia-class is 
in development and will be provided in the report to Congress that was 
requested in House Report 114-537, accompanying H.R. 4909, the National 
Defense Authorization Act for fiscal year 2017.
                               __________
                               
                  Questions Submitted by Senator Reed
                        lcs speed and endurance
    11. Senator Reed. Director Gilmore, Secretary Stackley responded to 
a question where I repeated information from Director Gilmore's 
testimony that said:
    ``Finally, while the Navy is examining methods to reduce weight, it 
is anticipated the LCS-frigate, because of the simultaneous employment 
of ASW and SUW (surface warfare) equipment, will be significantly 
heavier than the existing LCS resulting in a lower maximum sprint speed 
and less fuel endurance. The loss of sprint speed will therefore affect 
its success in small boat swarm defense, and its ability to keep up 
with a carrier strike group.''
    Secretary Stackley replied that the Navy was not going to be 
trading off endurance, but would be placing a premium on being able to 
increase endurance. As far as lower speed, Secretary Stackley said that 
speed is only going to be affected at the margins. Director Gilmore, do 
you believe that the Navy will be able to increase endurance for the 
frigate variant of LCS while avoiding anything more than marginal 
reductions in speed capability? Mr. Francis, does GAO have a position 
on these differing positions?
    Dr. Gilmore. My fiscal year 2015 review of draft Navy requirements 
for the LCS Flight 0+ Frigate Increment informed my testimony 
statement. From these Navy requirements I concluded a Frigate, 
utilizing the same seaframe design as the existing LCSs, would be 
significantly heavier resulting in a lower maximum sprint speed and 
less fuel endurance compared to the current LCS ships. Since then, the 
Navy issued its final requirements for the Frigate that are different 
than those of the fiscal year 2015 draft. The Navy acknowledged the 
predicted weight increase for both Freedom and Independence variant 
Frigates would be approximately 200 metric tons. This is approximately 
a 6 percent increase in weight. The Navy also said it would permit the 
vendors to alter the ship designs. The Navy draft ``Request for 
Proposal,'' intended for procurement of the Frigate, incentivized the 
vendors to alter ship designs to enhance endurance up to 4200 nautical 
miles and to maximize the number of surface-to-surface missiles. The 
Navy also designated all but one of the relevant LCS warfighting 
requirements as Key System Attributes that may be traded off. The lone 
exception is the range of the over-the horizon surface-to-surface 
missile, which is a Key Performance Parameter. The Navy's Frigate 
requirements document indicated Navy fleet operators recommended 
trading short duration maximum speed, known in the LCS Flight 0+ 
requirements as ``Sprint Speed,'' for enhanced lethality and 
survivability features. Navy leadership accepted this feedback and 
excluded the legacy requirement for ``Sprint Speed'' from the LCS 
Frigate requirements, replacing it with a new Key System Attribute 
requirement for sustained high speed referred to as ``Sustained 
Speed.'' Considering the potential for altering the ship designs to 
accommodate increased weight and trading Sprint Speed for Sustained 
Speed, it may now be possible for the Navy to increase endurance and 
achieve sufficient ``Sustained Speed'' to be comparable with other 
combatant ships. The proposed Frigate design is preliminary, with 
details known only to the Navy and its vendors. Until the Navy makes 
the final design for the ship available, DOT&E will not be able to 
characterize quantitatively the effect of the design changes on the 
Frigate variant of LCS.
                               __________
                               
             Questions Submitted by Senator Mazie K. Hirono
                               readiness
    12. Senator Hirono. The Littoral Combat Ship (LCS) program was 
scheduled to produce 52 ships. However, in December of 2015, the 
Secretary of Defense directed the Navy to reduce the LCS buy from 52 
ships to 40. What is the Navy's requirement for this class of ship and 
how would a reduction to 40 ships impact our capabilities and 
readiness, particularly with respect to our presence in the Asia-
Pacific?
    Secretary Stackley. Navy's Fiscal Year 2016 Force Structure 
Assessment, released on December 16, 2016, reaffirmed the 52 Small 
Surface Combatant (SSC) requirement. A reduction to 40 ships, employed 
under the same operating constructs, would result in about six fewer 
ships deployed globally conducting steady state theater security 
operations. Should conflict arise, the reduced SSC inventory would 
result in delays for the arrival of required forces and/or risk to 
other missions should other forces be diverted from currently planned 
missions to mitigate the delays.
                            lcs down-select
    13. Senator Hirono. The Secretary of Defense also directed that the 
Navy down-select the 2 LCS designs to a single variant by fiscal year 
2019. What are the Navy's plans in determining how to down-select from 
the two versions? Moving to a single production line would likely 
eliminate competition as well as the benefits that can be derived from 
it. How would this change impact overall cost and schedule performance 
on the program? Finally, what would be the impact to the industrial 
base at the prime, sub, material and component supplier levels?
    Secretary Stackley. Increasingly complex operating environments, 
emphasis on distributed maritime operations, and the need for combat 
logistics force escort-capable ships to free up large surface 
combatants for high-end missions has prompted the Navy to reevaluate 
frigate requirements and pursue a Guided Missile Frigate (FFG(X)) 
having local air defense capability and increased survivability 
characteristics. To allow adequate time to mature the design and 
thoroughly evaluate design alternatives, the PB18 budget defers the 
FFG(X) contract award to fiscal year 2020. A revised acquisition 
strategy will be developed to conduct a full and open competition using 
existing designs in fiscal year 2020, vice doing a down-select of the 
existing LCS variants. If the existing LCS shipbuilders do not secure 
additional workload, the Navy will experience cost growth and schedule 
delays for the ships currently under contract with the affected 
shipbuilder(s). Additional schedule and cost risk will be introduced 
through reductions in the industrial base as each stage of construction 
concludes, with corresponding manpower reductions. Each shipyard is 
managed by stage of construction for which trades and skills are not 
transferable from one stage to another. Due to this, lack of follow on 
work will begin to impact the industrial base much earlier than 
delivery of the last LCS from the affected shipyard(s). In addition, 
the ability of the affected shipyard(s) to compete for future Navy and 
commercial work will be jeopardized, exposing the Government to costs 
related to shipyard closure should the affected shipyard(s) not remain 
viable. The Government's exposure to cost growth resulting from these 
risks is limited by the contract price ceiling and related fixed price 
incentive terms and conditions.
                             lcs block buy
    14. Senator Hirono. I am concerned about the issue raised in the 
testimony of Paul Francis of the Government Accountability Office 
stating that committing to the block buy of the frigate variant of 
Littoral Combat Ship (LCS) at this point in time would be premature. He 
points out that the process that the Navy plans on using in this 
procurement is almost identical to the original procurement of the LCS 
variant, which resulted in large cost overruns and unmet mission 
capability in past.
    Secretary Stackley. Increasingly complex operating environments, 
emphasis on distributed maritime operations, and the need for combat 
logistics force escort-capable ships to free up large surface 
combatants for high-end missions has prompted the Navy to reevaluate 
Frigate requirements and pursue a Guided Missile Frigate (FFG) having 
local air defense capability and increased survivability 
characteristics. To allow adequate time to mature the design and 
thoroughly evaluate design alternatives, the PB18 budget defers the FFG 
contract award to fiscal year 2020. A revised acquisition strategy will 
be developed to conduct a full and open competition using existing 
designs in fiscal year 2020, vice pursuing a block buy strategy using 
one of the existing LCS variant designs.

    15. Senator Hirono. During the hearing, you committed to working 
with the Armed Services Committee to come up with a set of benchmarks 
against which we could measure LCS cost, schedule, and testing 
performance before approving any block buy for the last 12 ships in 
program. I would like the Navy to provide: a) A detailed cost and 
schedule baseline for any ships proposed in an LCS block buy that 
establishes cost per ship and savings that would result from utilizing 
block buy contracting and; b) A detailed assessment of how the testing 
requirements will need to be changed for a frigate variant of the LCS.
    Secretary Stackley. a) Increasingly complex operating environments, 
emphasis on distributed maritime operations, and the need for combat 
logistics force escort-capable ships to free up large surface 
combatants for high-end missions has prompted the Navy to reevaluate 
Frigate requirements and pursue a Guided Missile Frigate (FFG) having 
local air defense capability and increased survivability 
characteristics. To allow adequate time to mature the design and 
thoroughly evaluate design alternatives, the PB18 budget defers the FFG 
contract award to fiscal year 2020. A revised acquisition strategy will 
be developed to conduct a full and open competition using existing 
designs in fiscal year 2020, vice pursuing a block buy strategy using 
one of the existing LCS variant designs; b) The FFG Test and Evaluation 
Master Plan (TEMP) is currently in development to support the FFG 
Request For Proposal release in the fall of 2018. This FFG TEMP will 
leverage LCS testing where applicable, however for systems that are new 
for improved warfighting and multi-mission capabilities, additional 
testing may be required. The Navy will work with the appropriate 
testing organizations to finalize requirements for the FFG TEMP. It is 
anticipated that the TEMP will be complete in 2021 with final approval 
from Director, Operational Test & Evaluation in 2023. The conduct of 
Frigate Developmental Testing, Technical Evaluation, and Operational 
Testing is projected to occur in late 2025 through early 2027. Once the 
FFG TEMP is approved, specific details can be provided for an updated 
baseline.
                   lcs influence in the asia-pacific
    16. Senator Hirono. Our rebalance to the Asia-Pacific appears to 
gain in importance, given recent actions of North Korea and China. It 
is also important to show our support to our allies and partners in the 
region. How has the deployment of the LCS to the Asia-Pacific helped to 
increase our influence and deterrence in the region?
    Admiral Rowden. LCS has proven to be an excellent platform for our 
engagements in the region. Its use in the popular and enduring CARAT 
series of exercises in Southeast Asia is particularly noteworthy. The 
LCS well-fits in our engagement program with other Navies in the Indo-
Asia-Pacific, and offers substantial options for tailoring Navy-to-Navy 
activities with like-minded maritime forces, fielding similarly-sized 
platforms. As LCS force structure in the SCS region increases, so too 
will our access to friends and allies. The deterrent effect on more-
belligerent regional actors will increase as well, due to the increased 
operational availability and additional engagement and interoperability 
opportunities in the region, vital to our national security interests.

    17. Senator Hirono. During this past year's Rim of the Pacific 
exercise, the LCS Coronado was able to successfully launch a Harpoon 
surface-to-surface missile. While the missile did not hit its target, 
this is a good step towards increased capability of the LCS. How would 
this capability aid in our presence and capabilities in the Asia-
Pacific region?
    Admiral Rowden. The Navy has invested in live fire testing of two 
different anti-ship cruise missiles from USS Coronado (LCS 4): the 
Kongsberg Naval Strike Missile (NSM), fired in 2014 from a temporary 
launcher as a demonstration of a 100NM+ precise aimpoint capability; 
and the 2016 structural test fire of a Harpoon missile fire to complete 
launcher certifications in preparation for an extended operational 
demonstration during her 2016-2018 deployment. Live fire events have 
and will continue to develop our understanding of LCS structural 
engineering, reducing risk for procurement and installation of 
installed missile systems on the LCS and Frigate (FF).
    By 2030, LCS and FF will be more than half of the surface 
combatants on deployment at any given time. When implemented, a missile 
capability will give LCS the surface warfare capability of a larger 
combatant, changing the risk calculus of potential adversaries and 
making LCS a key enabler for warfighting capability and capacity 
increases for the combatant commanders in support U.S. interests in the 
region.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
